<html>
<title> - SCIENCE AND TECHNOLOGY LEADERSHIP IN A 21ST CENTURY GLOBAL ECONOMY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   SCIENCE AND TECHNOLOGY LEADERSHIP
                    IN A 21ST CENTURY GLOBAL ECONOMY

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2007

                               __________

                           Serial No. 110-10

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                     U.S. GOVERNMENT PRINTING OFFICE

33-801 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                            C O N T E N T S

                             March 13, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    18
    Written Statement............................................    19

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    20
    Written Statement............................................    22

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    23

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    23

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    25

Prepared Statement by Representative Vernon J. Ehlers, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    26

                               Witnesses:

Mr. Norman R. Augustine, Chair, Committee on Prospering in the 
  Global Economy of the 21st Century, Committee on Science, 
  Engineering, and Public Policy, Division on Policy and Global 
  Affairs, the National Academies; Former Chairman and CEO, 
  Lockheed Martin Corporation
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    32

Mr. Harold McGraw III, Chairman and CEO, The McGraw-Hill 
  Companies; Chairman, Business Roundtable
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    40

Dr. Robert C. Dynes, Professor of Physics and Material Science; 
  President, University of California
    Oral Statement...............................................    40
    Written Statement............................................    43
    Biography....................................................    56

Dr. Craig R. Barrett, Chairman of the Board, Intel Corporation
    Oral Statement...............................................    57
    Written Statement............................................    59

Dr. Neal Lane, Malcolm Gillis University Professor, and Senior 
  Fellow of the James A. Baker III Institute for Public Policy, 
  Rice University
    Oral Statement...............................................    61
    Written Statement............................................    63
    Biography....................................................    67

Ms. Deborah L. Wince-Smith, President, Council on Competitiveness
    Oral Statement...............................................    68
    Written Statement............................................    70
    Biography....................................................    78

Discussion.......................................................    79

             Appendix 1: Answers to Post-Hearing Questions

Mr. Norman R. Augustine, Chair, Committee on Prospering in the 
  Global Economy of the 21st Century, Committee on Science, 
  Engineering, and Public Policy, Division on Policy and Global 
  Affairs, the National Academies; Former Chairman and CEO, 
  Lockheed Martin Corporation....................................   106

Mr. Harold McGraw III, Chairman and CEO, The McGraw-Hill 
  Companies; Chairman, Business Roundtable.......................   110

Dr. Robert C. Dynes, Professor of Physics and Material Science; 
  President, University of California............................   113

Dr. Craig R. Barrett, Chairman of the Board, Intel Corporation...   115

Dr. Neal Lane, Malcolm Gillis University Professor, and Senior 
  Fellow of the James A. Baker III Institute for Public Policy, 
  Rice University................................................   117

Ms. Deborah L. Wince-Smith, President, Council on Competitiveness   119

             Appendix 2: Additional Material for the Record

Section-by-Section Summary of H.R. 362...........................   122

Section-by-Section Summary of H.R. 363...........................   124


   SCIENCE AND TECHNOLOGY LEADERSHIP IN A 21ST CENTURY GLOBAL ECONOMY

                              ----------                              


                        TUESDAY, MARCH 13, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 1:05 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   Science and Technology Leadership

                    in a 21st Century Global Economy

                        tuesday, march 13, 2007
                          1:00 p.m.-3:30 p.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday, March 13, 2007, the House Committee on Science and 
Technology will hold a hearing to receive testimony on the critical 
importance of science and technology to our nation's prosperity. The 
focus is on the provisions of the National Academy of Sciences report 
entitled Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future. Witnesses have been asked to 
address the reasoning behind the education and research recommendations 
enunciated in that report.

2. Witnesses

Mr. Norman R. Augustine, Retired Chairman and CEO of the Lockheed 
Martin Corporation. Mr. Augustine chaired the National Academy of 
Sciences (NAS) committee that wrote the Gathering Storm report.

Mr. Harold McGraw III, Chairman, President, and CEO of the McGraw Hill 
Companies. Mr. McGraw is the Chairman of the Business Roundtable.

Dr. Robert Dynes, President of the University of California. Dr. Dynes 
is Professor of Physics and Materials Science and a member of the 
National Academy of Sciences.

Dr. Craig Barrett, Chairman and CEO of Intel Corporation. Dr. Barrett 
served on the NAS committee that wrote the Gathering Storm report.

Dr. Neal Lane, Malcolm Gillis University Professor at Rice University 
and Senior Fellow at the James Baker III Institute for Public Policy. 
Dr. Lane was the Director of the National Science Foundation from 1993 
to 1998 and Director of the White House Office of Science and 
Technology Policy from 1998 to 2001.

Ms. Deborah Wince-Smith, President of the Council on Competitiveness. 
Ms. Wince-Smith has held numerous positions in government as an expert 
on innovation policy.

3. Overarching Questions

        <bullet>  Why is the promotion of science and technology so 
        critical to America's prosperity? Where do we stand today, and 
        where do we need to be in the future?

        <bullet>  What should be the federal government's role in 
        advancing the science and technology agenda? What should be the 
        top priorities in science education and research? Do H.R. 362 
        and H.R. 363 address the most critical needs?

4. Brief Overview

    Henry Luce, publisher of Time Magazine, coined the term ``the 
American century'' in 1941 to describe his vision of the 20th century. 
Indeed, after World War II, the U.S. economy grew substantially, and 
economists estimate that about half of U.S. economic growth was the 
result of technological innovation. Indeed, during the 20th century, 
the United States became a world leader in science and technology 
education and research and in innovation, and economic indicators 
demonstrated that the United States offered a high standard of living 
to its citizens.
    In the 1990's however, during a period in which the United States 
was known as the world's lone ``superpower,'' a number of indicators 
suggested that U.S. prosperity was diminishing. The United States trade 
surplus in high-technology products that was $54 billion in 1990 turned 
into a trade deficit of $50 billion in 2004. A number of iconic 
American companies moved assets, jobs, and ownership overseas. And 
American students performed poorly in several international assessments 
of math and science achievement.
    In May of 2005, Senators Lamar Alexander and Jeff Bingaman asked 
the National Academy of Sciences (NAS) to conduct a study of ``the most 
urgent challenges the United States faces in maintaining leadership in 
key areas of science and technology.'' In June, Congressmen Sherwood 
Boehlert and Bart Gordon wrote to the NAS to endorse the Senate request 
for a study and to suggest some additional specific questions. The 
National Academy assembled a Committee on Prospering in the Global 
Economy of the 21st Century, and on October 12, 2005, that committee 
issued a report entitled Rising Above the Gathering Storm: Energizing 
and Employing America for a Brighter Economic Future.
    That report, whose title we abbreviate to Gathering Storm, offered 
four recommendations:

        <bullet>  Recommendation A: Increase America's talent pool by 
        vastly improving K-12 science and mathematics education.

        <bullet>  Recommendation B: Sustain and strengthen the Nation's 
        traditional commitment to long-term basic research that has the 
        potential to be transformational to maintain the flow of new 
        ideas that fuel the economy, provide security, and enhance the 
        quality of life.

        <bullet>  Recommendation C: Make the United States the most 
        attractive setting in which to study and perform research so 
        that we can develop, recruit, and retain the best and brightest 
        students, scientists, and engineers from within the United 
        States and throughout the world.

        <bullet>  Recommendation D: Ensure that the United States is 
        the premier place in the world to innovate; invest in 
        downstream activities such as manufacturing and marketing; and 
        create high-paying jobs based on innovation by such actions as 
        modernizing the patent system, realigning tax policies to 
        encourage innovation, and ensuring affordable broadband access.

    Along with each recommendation, the report spelled out several 
specific action items to pursue in order to implement the 
recommendation.
    On October 20, 2005, the Committee on Science of the 109th Congress 
held a hearing, entitled ``Science, Technology, and Global Economic 
Competitiveness.'' The witnesses at that hearing were Norm Augustine, 
retired Chairman and CEO of Lockheed Martin Corporation and Chair of 
the NAS committee that wrote the Gathering Storm report; Roy Vagelos, 
retired Chairman and CEO of Merck & Co. and member of the NAS committee 
that wrote the report; and William Wulf, President of the National 
Academy of Engineering. In their testimony, these witnesses promoted 
the recommendations of the report and argued that the action items were 
critical and urgent.
    The Gathering Storm report quickly became influential in promoting 
a national agenda on innovation and competitiveness. In the 109th 
Congress, the House Committee on Science reported two pieces of 
legislation implementing a number of the Gathering Storm action items. 
The first of these bills was H.R. 5356, the Research for 
Competitiveness Act. The second was H.R. 5358, the Science and 
Mathematics Education for Competitiveness Act. Together, these bills 
addressed many of the action items related to Recommendations A and B. 
The bills were never brought to the Floor of the House.
    In the 110th Congress, Chairman Bart Gordon introduced three 
competitiveness bills, again attempting to implement the Gathering 
Storm recommendations that address science and technology. The first of 
these, H.R. 362, entitled ``10,000 Teachers, 10,000,000 Minds Science 
and Math Scholarship Act,'' parallels in large part H.R. 5358 from the 
109th Congress. The second of these, H.R. 363, entitled ``Sowing the 
Seeds Through Science and Engineering Research Act,'' parallels in 
large part H.R. 4346 from the 109th Congress. (The third bill, H.R. 
364, is to provide for an Advanced Research Projects Agency for Energy 
and is not the focus of the present hearing.)
    On February 28, 2007, the Committee on Science and Technology 
marked up H.R. 363 and passed an amended version of the introduced 
bill. A summary of that bill, along with a summary of H.R. 362, appears 
below.

5. Specific Questions for the Witnesses

    Each witness received a letter of invitation to testify at the 
hearing. In that letter, the witnesses were asked to address the 
overarching questions related to the hearing. In addition, each witness 
was asked to address an aspect of the hearing focus that relates to 
their realm of expertise.
    Mr. Augustine was asked to describe the reasoning behind the 
priorities that resulted in the recommendations in Gathering Storm 
report. Dr. Barrett was asked the same question, and in addition was 
asked about his thoughts on what changes are needed in STEM education 
in order for the Nation to meet the future workforce needs of industry.
    Mr. McGraw and Ms. Wince-Smith were asked what changes are needed 
in STEM education in order to meet the future workforce needs of 
business and industry. The Business Roundtable and the Council on 
Competitiveness both represent broad coalitions of business interests.
    Dr. Dynes was asked to describe the California Teach program: how 
the Cal Teach model came into being; what the challenges are to putting 
it in place; what we are learning from the program about recruiting and 
preparing science, math, and engineering college majors to become STEM 
teachers; and what factors are important for emulating similar programs 
on a national scale.
    Dr. Lane was asked to comment on the appropriateness of the 
proposed role of NSF in administering the STEM education programs 
contained in H.R. 362. In particular, Dr. Lane was asked to address how 
these NSF programs interact with STEM education activities at the 
Department of Education.

6. The Provisions of the Bills

H.R. 362--The ``10,000 Teachers, 10 Million Minds'' Science and Math 
        Scholarships Act
    The bill implements most of the K-12 science education 
recommendations of the Gathering Storm report. It establishes a teacher 
education program at the National Science Foundation (NSF) to encourage 
math, science and engineering faculty to work with education faculty to 
improve the education of science and math teachers and to provide 
scholarships to science, math and engineering students who commit to 
become science or math teachers at elementary and secondary schools; 
authorizes summer teacher training institutes at NSF and DOE to improve 
the content knowledge and pedagogical skills of in-service science and 
math teachers, including preparing them to teach Advanced Placement and 
International Baccalaureate courses in science and math; requires that 
NSF include support for Master's degree programs for in-service science 
and mathematics teachers within the NSF Math and Science Partnerships; 
and authorizes funding for the NSF STEM Talent Expansion program and 
expands the program to include centers for improving undergraduate STEM 
education.

Sectional Summary of Bill

Section 1 is the Table of Contents.

Section 2 reports findings on the role of NSF in K-12 and undergraduate 
STEM education.

Section 3 spells out definitions used in the bill.

Title I--Science Scholarships

Section 101 is the short title of the bill.

Section 102 reports findings relating the bill to the NAS report 
recommendations.

Section 103 describes the policy objective of the bill--to increase by 
10,000 annually the number of capable K-12 science and math teachers.

Section 104 amends the NSF Noyce Scholarship program, established by 
the NSF Authorization Act of 2002, to create incentives for colleges 
and universities to improve the training of STEM teachers and increases 
the size and duration of the scholarships provided for science, math, 
and engineering majors who pursue teaching credentials:

        <bullet>  Provides competitive awards to institutions of higher 
        education (or consortia of such institutions) that (1) 
        establish cross-department faculty teams (science, math and 
        engineering faculty along with education faculty) to develop 
        courses of instruction leading to baccalaureate degrees in 
        fields of science, math and/or engineering and also preparing 
        graduates to become certified or licensed to teach in a K-12 
        classroom, and (2) administer scholarships for students during 
        their sophomore through senior years and summer internships 
        during their freshman years.

        <bullet>  Requires early field teaching experiences for student 
        teachers in the program under the supervision of highly 
        experienced and effective teachers.

        <bullet>  Requires awardees to provide professional development 
        and mentoring support to scholarship recipients, after 
        matriculation.

        <bullet>  Sets scholarship amounts at the cost of attendance at 
        particular institutions, not to exceed $10,000 per year, and 
        provides up to three years of scholarship support for any 
        individual.

        <bullet>  Requires scholarship recipients to commit to teaching 
        for up to six years following graduation (the period of 
        teaching commitment is based on the number of years of 
        scholarship support), reduces the commitment by one year for 
        individuals who teach at high-need schools, and converts the 
        scholarships to loans if the teaching commitment is not met.

        <bullet>  Authorizes the NSF to accept donations from the 
        private sector to help support scholarships and internships.

        <bullet>  Authorizes $70 million for NSF for FY 2008, $101 
        million for FY 2009, $133 million for FY 2010, $164 million for 
        FY 2011, and $196 million for FY 2012.

Title II--Mathematics and Science Education Improvement

Section 201 amends the NSF Math and Science Education Partnerships 
program established by the NSF Authorization Act of 2002:

        <bullet>  Specifies that priority for awards under the program 
        be given to applications that include teacher training 
        activities as a main focus.

        <bullet>  Authorizes teacher training activities to prepare 
        teachers to teach Advanced Placement and International 
        Baccalaureate science or math courses and provides for 
        mentoring by professional scientists, mathematicians and 
        engineers.

        <bullet>  Authorizes the development of master's degree 
        programs for in-service science and math teachers.

Section 202 addresses teacher institute programs at NSF and DOE:

        <bullet>  NSF is directed to establish a grant program to 
        support summer or academic year teacher institutes and 
        authorizes summer teacher institutes as a component of the NSF 
        21st Century program. Such summer institutes are required to 
        include teacher training activities to prepare teachers to 
        teach Advanced Placement and International Baccalaureate 
        science or math courses.

        <bullet>  Authorizes $32 million for NSF for FY 2008, $35.2 
        million for FY 2009, and $38.7 million for FY 2010, $42.6 
        million for FY 2011, and $46.8 million for FY 2012.

        <bullet>  The following amounts are authorized for the existing 
        Laboratory Science Teacher Professional Development program at 
        DOE: $3 million for FY 2008, $8 million for FY 2009, and $10 
        million for each year FY 2010 through FY 2012.

Section 203 requires NSF to ensure that, under the Math and Science 
Partnership program, Master's degree programs are developed and 
implemented for in-service math and science teachers, who attend on a 
part-time basis and who will be able to complete the degree 
requirements within two years. The programs have the following 
features:

        <bullet>  Provide stipends to defray the cost of attendance for 
        teachers in the program.

        <bullet>  Allow for support for the development of the courses 
        of instruction and related educational materials and equipment 
        (offering of online learning is an option).

        <bullet>  Require the distribution of awards among institutions 
        of different sizes and geographic locations.

    Authorizes for this program $46 million for NSF for FY 2008, $50.6 
million for FY 2009, $55.7 million for FY 2010, $61.2 million for FY 
2011, and $67.3 million for FY 2012.

Section 204 establishes a national panel of experts to identify and 
collect K-12 science and mathematics teaching materials that have been 
demonstrated to be effective and to recommend the development of new 
materials in areas where effective materials do not exist; and directs 
NSF and the Department of Education to develop ways to disseminate 
effective materials and support efforts to develop new materials, in 
accordance with the recommendations of the national panel.

Section 205 amends the NSF STEM Talent Expansion program established 
under the NSF Authorization Act of 2002 to create centers for 
improvement of undergraduate education in STEM fields, including:

        <bullet>  Development of undergraduate curriculum and teaching 
        methods and training for faculty and teaching assistants in 
        effective pedagogical practices.

        <bullet>  Assessment of the effectiveness of the centers and 
        dissemination of information about materials and methods 
        developed.

    Authorizes $44 million for NSF for the STEM Talent Expansion 
program for FY 2008, of which $4 million is available for centers; $55 
million for FY 2009, of which $10 million is available for centers; and 
$60 million for each year of FY 2010 through FY 2012, of which $10 
million is available in each year for centers.

H.R. 363--Sowing the Seeds through Science and Engineering Research Act

    The bill implements recommendations related to strengthening long-
term basic research contained in the Gathering Storm report. It 
supports outstanding researchers in the early stages of their careers 
through grants at the National Science Foundation (NSF) and the 
Department of Energy (DOE) of $80,000 per year for five years; 
establishes a floor of 1.5 percent of research funding appropriated for 
NSF for an existing program supporting graduate students in multi-
disciplinary fields of national importance; establishes a presidential 
innovation award to stimulate scientific and engineering advances in 
the national interest; establishes a national coordination office to 
identify and prioritize research infrastructure needs at universities 
and national laboratories and to help guide the investments of new 
infrastructure funds authorized for NSF and DOE; authorizes NSF to 
support research on innovation; directs the National Institute of 
Standards and Technology (NIST) and DOE to report on efforts to recruit 
and retain early-career scientists and engineers; and expresses the 
sense of Congress that a balanced science program at the National 
Aeronautics and Space Administration (NASA) contributes significantly 
to innovation and competitiveness.

Sectional Summary of Bill

Section 1 is the short title of the bill.

Section 2 authorizes NSF to carry out a grant program for awards to 
scientists and engineers at the early stage of their careers in 
academia or in nonprofit research organizations. The NSF's existing 
Faculty Early Career Development (CAREER) program may be designated as 
the mechanism for awarding these grants. The awards will go to 
outstanding researchers at the beginning of their careers and are 
intended for individuals from a variety of types of institutions, 
including minority serving institutions. The grants provide five years 
of research funding support at a minimum of $80,000 per year per award.
    NSF is required to designate at least 3.5 percent of funds 
appropriated for Research and Related Activities to the grant program 
for each of FY 2008 through FY 2012.

Section 3 authorizes DOE to carry out a grant program for awards to 
scientists and engineers at the early stage of their careers in 
academia or in nonprofit research organizations to conduct research in 
fields relevant to the mission of DOE. The awards will go to 
outstanding researchers at the beginning of their careers and are 
intended for individuals from a variety of types of institutions, 
including minority serving institutions. The grants provide five years 
of research funding support at a minimum of $80,000 per year per award, 
and priority shall go to proposals involving collaborations with 
researchers at DOE national laboratories. The bill authorizes to DOE 
$25 million for each year for FY 2008 through FY 2012.

Section 4 directs NSF to allocate at least 1.5 percent of the amounts 
appropriated for Research and Related Activities to the Integrative 
Graduate Education and Research Traineeship (IGERT) program, which 
provides support for graduate students in fields relevant to national 
needs. It requires NSF to coordinate with other agencies to expand the 
interdisciplinary nature of the IGERT program and authorizes NSF to 
accept funds from other agencies to carry out the program.

Section 5 establishes the Presidential Innovation Award presented 
periodically, on the basis of recommendations from the Director of the 
Office of Science and Technology Policy, to citizens or permanent 
residents of the U.S. who develop unique scientific or engineering 
ideas judged to stimulate scientific and engineering advances in the 
national interest, to illustrate the linkage between science and 
engineering and national needs, and to provide an example to excite the 
interest of students in science or engineering professions.

Section 6 establishes a National Coordination Office for Research 
Infrastructure under the Office of Science and Technology Policy to 
identify and prioritize deficiencies in research facilities and 
instrumentation in academic institutions and national laboratories and 
to make recommendations for use of funding authorized. The Office is 
directed to report to Congress annually at the time of the 
administration's budget proposal.

Section 7 authorizes NSF, in carrying out its research programs on 
science policy and the science of learning, to support research on the 
process of innovation and the teaching of inventiveness.

Section 8 directs NIST to transmit to the House Committee on Science 
and Technology and the Senate Committee on Commerce, Science, and 
Transportation, not later than three months following enactment of the 
bill, a report on efforts to recruit and retain early-career scientists 
and engineers at NIST.

Section 9 expresses the sense of Congress that a balanced and robust 
program in science, aeronautics, exploration, and human space flight at 
NASA contributes significantly to national innovation and 
competitiveness. It also directs the NASA administrator to participate 
fully in interagency efforts to promote innovation and economic 
competitiveness through scientific research and development.

Appendix A:

Executive Summary of National Academy of Sciences Report, Rising Above 
 the Gathering Storm: Energizing and Employing America for a Brighter 
                            Economic Future

    The United States takes deserved pride in the vitality of its 
economy, which forms the foundation of our high quality of life, our 
national security, and our hope that our children and grandchildren 
will inherit ever-greater opportunities. That vitality is derived in 
large part from the productivity of well-trained people and the steady 
stream of scientific and technical innovations they produce. Without 
high-quality, knowledge-intensive jobs and the innovative enterprises 
that lead to discovery and new technology, our economy will suffer and 
our people will face a lower standard of living. Economic studies 
conducted before the information-technology revolution have shown that 
even then as much as 85 percent of measured growth in U.S. income per 
capita is due to technological change.\1\
---------------------------------------------------------------------------
    \1\ For example, work by Robert Solow and Moses Abramovitz 
published in the middle 1950s demonstrated that as much as 85 percent 
of measured growth in U.S. income per capita during the 1890-1950 
period could not be explained by increases in the capital stock or 
other measurable inputs. The big unexplained portion, referred to 
alternatively as the ``residual'' or ``the measure of ignorance,'' has 
been widely attributed to the effects of technological change.
---------------------------------------------------------------------------
    Today, Americans are feeling the gradual and subtle effects of 
globalization that challenge the economic and strategic leadership that 
the United States has enjoyed since World War II. A substantial portion 
of our workforce finds itself in direct competition for jobs with 
lower-wage workers around the globe, and leading-edge scientific and 
engineering work is being accomplished in many parts of the world. 
Thanks to globalization, driven by modern communications and other 
advances, workers in virtually every sector must now face competitors 
who live just a mouse-click away in Ireland, Finland, China, India, or 
dozens of other nations whose economies are growing.

CHARGE TO THE COMMITTEE

    The National Academies was asked by Senator Lamar Alexander and 
Senator Jeff Bingaman of the Committee on Energy and Natural Resources, 
with endorsement by Representatives Sherwood Boehlert and Bart Gordon 
of the House Committee on Science, to respond to the following 
questions:

         What are the top 10 actions, in priority order, that federal 
        policy-makers could take to enhance the science and technology 
        enterprise so that the United States can successfully compete, 
        prosper, and be secure in the global community of the 21st 
        Century? What strategy, with several concrete steps, could be 
        used to implement each of those actions?

    The National Academies created the Committee on Prospering in the 
Global Economy of the 21st Century to respond to this request. The 
charge constitutes a challenge both daunting and exhilarating: to 
recommend to the Nation specific steps that can best strengthen the 
quality of life in America--our prosperity, our health, and our 
security. The committee has been cautious in its analysis of 
information. However, the available information is only partly adequate 
for the committee's needs. In addition, the time allotted to develop 
the report (10 weeks from the time of the committee's meeting to report 
release) limited the ability of the committee to conduct a thorough 
analysis. Even if unlimited time were available, definitive analyses on 
many issues are not possible given the uncertainties involved.
    This report reflects the consensus views and judgment of the 
committee members. Although the committee includes leaders in academe, 
industry, and government--several current and former industry chief 
executive officers, university presidents, researchers (including three 
Nobel prize winners), and former presidential appointees--the array of 
topics and policies covered is so broad that it was not possible to 
assemble a committee of 20 members with direct expertise in each 
relevant area. Because of those limitations, the committee has relied 
heavily on the judgment of many experts in the study's focus groups, 
additional consultations via e-mail and telephone with other experts, 
and an unusually large panel of reviewers. Although other solutions are 
undoubtedly possible, the committee believes that its recommendations, 
if implemented, will help the United States achieve prosperity in the 
21st century.

FINDINGS

    Having reviewed trends in the United States and abroad, the 
committee is deeply concerned that the scientific and technical 
building blocks of our economic leadership are eroding at a time when 
many other nations are gathering strength. We strongly believe that a 
worldwide strengthening will benefit the world's economy--particularly 
in the creation of jobs in countries that are far less well-off than 
the United States. But we are worried about the future prosperity of 
the United States. Although many people assume that United States will 
always be a world leader in science and technology, this may not 
continue to be the case inasmuch as great minds and ideas exist 
throughout the world. We fear the abruptness with which a lead in 
science and technology can be lost--and the difficulty of recovering a 
lead once lost, if indeed it can be regained at all.
    This nation must prepare with great urgency to preserve its 
strategic and economic security. Because other nations have, and 
probably will continue to have, the competitive advantage of a low-wage 
structure, the United States must compete by optimizing its knowledge-
based resources, particularly in science and technology, and by 
sustaining the most fertile environment for new and revitalized 
industries and the well-paying jobs they bring. We have already seen 
that capital, factories, and laboratories readily move wherever they 
are thought to have the greatest promise of return to investors.

RECOMMENDATIONS

    The committee reviewed hundreds of detailed suggestions--including 
various calls for novel and untested mechanisms--from other committees, 
from its focus groups, and from its own members. The challenge is 
immense, and the actions needed to respond are immense as well.
    The committee identified two key challenges that are tightly 
coupled to scientific and engineering prowess: creating high-quality 
jobs for Americans and responding to the Nation's need for clean, 
affordable, and reliable energy. To address those challenges, the 
committee structured its ideas according to four basic recommendations 
that focus on the human, financial, and knowledge capital necessary for 
U.S. prosperity.
    The four recommendations focus on actions in K-12 education (10,000 
Teachers, 10 Million Minds), research (Sowing the Seeds), higher 
education (Best and Brightest), and economic policy (Incentives for 
Innovation) that are set forth in the following sections. Also provided 
are a total of 20 implementation steps for reaching the goals set forth 
in the recommendations.
    Some actions involve changes in the law. Others require financial 
support that would come from reallocation of existing funds or, if 
necessary, from new funds. Overall, the committee believes that the 
investments are modest relative to the magnitude of the return the 
Nation can expect in the creation of new high-quality jobs and in 
responding to its energy needs.

10,000 TEACHERS, 10 MILLION MINDS

IN K-12 SCIENCE AND MATHEMATICS EDUCATION

Recommendation A: Increase America's talent pool by vastly improving K-
        12 science and mathematics education.

Implementation Actions

    The highest priority should be assigned to the following actions 
and programs. All should be subjected to continuing evaluation and 
refinement as they are implemented:

    Action A-1: Annually recruit 10,000 science and mathematics 
teachers by awarding four-year scholarships and thereby educating 10 
million minds. Attract 10,000 of America's brightest students to the 
teaching profession every year, each of whom can have an impact on 
1,000 students over the life of their careers. The program would award 
competitive four-year scholarships for students to obtain Bachelor's 
degrees in the physical or life sciences, engineering, or mathematics 
with concurrent certification as K-12 science and mathematics teachers. 
The merit-based scholarships would provide up to $20,000 a year for 
four years for qualified educational expenses, including tuition and 
fees, and require a commitment to five years of service in public K-12 
schools. A $10,000 annual bonus would go to participating teachers in 
under-served schools in inner cities and rural areas. To provide the 
highest-quality education for undergraduates who want to become 
teachers, it would be important to award matching grants, perhaps $1 
million a year for up to five years, to as many as 100 universities and 
colleges to encourage them to establish integrated four-year 
undergraduate programs leading to Bachelor's degrees in science, 
engineering, or mathematics with teacher certification.

    Action A-2: Strengthen the skills of 250,000 teachers through 
training and education programs at summer institutes, in Master's 
programs, and Advanced Placement and International Baccalaureate (AP 
and IB) training programs and thus inspires students every day. Use 
proven models to strengthen the skills (and compensation, which is 
based on education and skill level) of 250,000 current K-12 teachers:

        <bullet>  Summer institutes: Provide matching grants to state 
        and regional one- to two-week summer institutes to upgrade as 
        many as 50,000 practicing teachers each summer. The material 
        covered would allow teachers to keep current with recent 
        developments in science, mathematics, and technology and allow 
        for the exchange of best teaching practices. The Merck 
        Institute for Science Education is a model for this 
        recommendation.

        <bullet>  Science and mathematics Master's programs: Provide 
        grants to universities to offer 50,000 current middle-school 
        and high-school science, mathematics, and technology teachers 
        (with or without undergraduate science, mathematics, or 
        engineering degrees) two-year, part-time Master's degree 
        programs that focus on rigorous science and mathematics content 
        and pedagogy. The model for this recommendation is the 
        University of Pennsylvania Science Teachers Institute.

        <bullet>  AP, IB, and pre-AP or pre-IB training: Train an 
        additional 70,000 AP or IB and 80,000 pre-AP or pre-IB 
        instructors to teach advanced courses in mathematics and 
        science. Assuming satisfactory performance, teachers may 
        receive incentive payments of up to $2,000 per year, as well as 
        $100 for each student who passes an AP or IB exam in 
        mathematics or science. There are two models for this program: 
        the Advanced Placement Incentive Program and Laying the 
        Foundation, a pre-AP program.

        <bullet>  K-12 curriculum materials modeled on world-class 
        standards. Foster high-quality teaching with world-class 
        curricula, standards, and assessments of student learning. 
        Convene a national panel to collect, evaluate, and develop 
        rigorous K-12 materials that would be available free of charge 
        as a voluntary national curriculum. The model for this 
        recommendation is the Project Lead the Way pre-engineering 
        courseware.

    Action A-3: Enlarge the pipeline by increasing the number of 
students who take AP and IB science and mathematics courses. Create 
opportunities and incentives for middle school and high school students 
to pursue advanced work in science and mathematics. By 2010, increase 
the number of students in AP and IB mathematics and science courses 
from 1.2 million to 4.5 million, and set a goal of tripling the number 
who pass those tests, to 700,000, by 2010. Student incentives for 
success would include 50 percent examination fee rebates and $100 mini-
scholarships for each passing score on an AP or IB mathematics and 
science examination.

    The committee proposes expansion of two additional approaches to 
improving K-12 science and mathematics education that are already in 
use:

        <bullet>  Statewide specialty high schools. Specialty secondary 
        education can foster leaders in science, technology, and 
        mathematics. Specialty schools immerse students in high-quality 
        science, technology, and mathematics education; serve as a 
        mechanism to test teaching materials; provide a training ground 
        for K-12 teachers; and provide the resources and staff for 
        summer programs that introduce students to science and 
        mathematics.

        <bullet>  Inquiry-based learning. Summer internships and 
        research opportunities provide especially valuable laboratory 
        experience for both middle school and high school students.

SOWING THE SEEDS

THROUGH SCIENCE AND ENGINEERING RESEARCH

Recommendation B: Sustain and strengthen the Nation's traditional 
        commitment to long-term basic research that has the potential 
        to be transformational to maintain the flow of new ideas that 
        fuel the economy, provide security, and enhance the quality of 
        life.

Implementation Actions

    Action B-1: Increase the federal investment in long-term basic 
research by 10 percent a year over the next seven years, through 
reallocation of existing funds\2\ or if necessary through the 
investment of new funds. Special attention should go to the physical 
sciences, engineering, mathematics, and information sciences and to 
Department of Defense (DOD) basic research funding. This special 
attention does not mean that there should be a disinvestment in such 
important fields as the life sciences (which have seen growth in recent 
years) or the social sciences. A balanced research portfolio in all 
fields of science and engineering research is critical to U.S. 
prosperity. This investment should be evaluated regularly to realign 
the research portfolio--unsuccessful projects and venues of research 
should be replaced with emerging research projects and venues that have 
greater promise.
---------------------------------------------------------------------------
    \2\ The funds may come from anywhere in an agency, not just other 
research funds.

    Action B-2: Provide new research grants of $500,000 each annually, 
payable over five years, to 200 of our most outstanding early-career 
researchers. The grants would be made through existing federal research 
agencies--the National Institutes of Health (NIH), the National Science 
Foundation (NSF), the Department of Energy (DOE), DOD, and the National 
Aeronautics and Space Administration--to underwrite new research 
---------------------------------------------------------------------------
opportunities at universities and government laboratories.

    Action B-3: Institute a National Coordination Office for Research 
Infrastructure to manage a centralized research-infrastructure fund of 
$500 million per year over the next five years--through reallocation of 
existing funds or if necessary through the investment of new funds--to 
ensure that universities and government laboratories create and 
maintain the facilities and equipment needed for leading-edge 
scientific discovery and technological development. Universities and 
national laboratories would compete annually for these funds.

    Action B-4: Allocate at least eight percent of the budgets of 
federal research agencies to discretionary funding that would be 
managed by technical program managers in the agencies and be focused on 
catalyzing high-risk, high-payoff research.

    Action B-5: Create in the Department of Energy (DOE) an 
organization like the Defense Advanced Research Projects Agency (DARPA) 
called the Advanced Research Projects Agency-Energy (ARPA-E).\3\ The 
Director of ARPA-E would report to the Under Secretary for Science and 
would be charged with sponsoring specific research and development 
programs to meet the Nation's long-term energy challenges. The new 
agency would support creative ``out-of-the-box'' transformational 
generic energy research that industry by itself cannot or will not 
support and in which risk may be high but success would provide 
dramatic benefits for the Nation. This would accelerate the process by 
which knowledge obtained through research is transformed to create jobs 
and address environmental, energy, and security issues. ARPA-E would be 
based on the historically successful DARPA model and would be designed 
as a lean and agile organization with a great deal of independence that 
can start and stop targeted programs on the basis of performance. The 
agency would itself perform no research or transitional effort but 
would fund such work conducted by universities, startups, established 
firms, and others. Its staff would turn over about every four years. 
Although the agency would be focused on specific energy issues, it is 
expected that its work (like that of DARPA or NIH) will have important 
spin-off benefits, including aiding in the education of the next 
generation of researchers. Funding for ARPA-E would start at $300 
million the first year and increase to $1 billion per year over five to 
six years, at which point the program's effectiveness would be 
evaluated.
---------------------------------------------------------------------------
    \3\ One committee member, Lee Raymond, does not support this action 
item. He does not believe that ARPA-E is necessary as energy research 
is already well funded by the Federal Government, along with formidable 
funding of energy research by the private sector. Also, ARPA-E would 
put the Federal Government in the business of picking ``winning energy 
technologies''--a role best left to the private sector.

    Action B-6: Institute a Presidential Innovation Award to stimulate 
scientific and engineering advances in the national interest. Existing 
presidential awards address lifetime achievements or promising young 
scholars, but the proposed new awards would identify and recognize 
persons who develop unique scientific and engineering innovations in 
the national interest at the time they occur.

BEST AND BRIGHTEST IN SCIENCE

AND ENGINEERING HIGHER EDUCATION

Recommendation C: Make the United States the most attractive setting in 
which to study and perform research so that we can develop, recruit, 
and retain the best and brightest students, scientists, and engineers 
from within the United States and throughout the world.

Implementation Actions

    Action C-1: Increase the number and proportion of U.S. citizens who 
earn physical-sciences, life sciences, engineering, and mathematics 
Bachelor's degrees by providing 25,000 new four-year competitive 
undergraduate scholarships each year to U.S. citizens attending U.S. 
institutions. The Undergraduate Scholar Awards in Science, Technology, 
Engineering, and Mathematics (USA-STEM) would be distributed to states 
on the basis of the size of their congressional delegations and awarded 
on the basis of national examinations. An award would provide up to 
$20,000 annually for tuition and fees.

    Action C-2: Increase the number of U.S. citizens pursuing graduate 
study in ``areas of national need'' by funding 5,000 new graduate 
fellowships each year. NSF should administer the program and draw on 
the advice of other federal research agencies to define national needs. 
The focus on national needs is important both to ensure an adequate 
supply of doctoral scientists and engineers and to ensure that there 
are appropriate employment opportunities for students once they receive 
their degrees. Portable fellowships would provide funds of up to 
$20,000 annually directly to students, who would choose where to pursue 
graduate studies instead of being required to follow faculty research 
grants.

    Action C-3: Provide a federal tax credit to encourage employers to 
make continuing education available (either internally or though 
colleges and universities) to practicing scientists and engineers. 
These incentives would promote career-long learning to keep the 
workforce current in the face of rapidly evolving scientific and 
engineering discoveries and technological advances and would allow for 
retraining to meet new demands of the job market.

    Action C-4: Continue to improve visa processing for international 
students and scholars to provide less complex procedures and continue 
to make improvements on such issues as visa categories and duration, 
travel for scientific meetings, the technology-alert list, reciprocity 
agreements, and changes in status.

    Action C-5: Provide a one-year automatic visa extension to 
international students who receive doctorates or the equivalent in 
science, technology, engineering, mathematics, or other fields of 
national need at qualified U.S. institutions to remain in the United 
States to seek employment. If these students are offered jobs by United 
States-based employers and pass a security screening test, they should 
be provided automatic work permits and expedited residence status. If 
students are unable to obtain employment within one year, their visas 
would expire.

    Action C-6: Institute a new skills-based, preferential immigration 
option. Doctoral-level education and science and engineering skills 
would substantially raise an applicant's chances and priority in 
obtaining U.S. citizenship. In the interim, the number of H-1B\4\ visas 
should be increased by 10,000, and the additional visas should be 
available for industry to hire science and engineering applicants with 
doctorates from U.S. universities.
---------------------------------------------------------------------------
    \4\ The H-1B is a non-immigrant classification used by an alien who 
will be employed temporarily in a specialty occupation of distinguished 
merit and ability. A specialty occupation requires theoretical and 
practical application of a body of specialized knowledge and at least a 
Bachelor's degree or its equivalent. For example, architecture, 
engineering, mathematics, physical sciences, social sciences, medicine 
and health, education, business specialties, accounting, law, theology, 
and the arts are specialty occupations. See http://uscis.gov/graphics/
howdoi/h1b.htm

    Action C-7: Reform the current system of ``deemed exports.'' \5\ 
The new system should provide international students and researchers 
engaged in fundamental research in the United States with access to 
information and research equipment in U.S. industrial, academic, and 
national laboratories comparable with the access provided to U.S. 
citizens and permanent residents in a similar status. It would, of 
course, exclude information and facilities restricted under national-
security regulations. In addition, the effect of deemed-exports 
regulations on the education and fundamental research work of 
international students and scholars should be limited by removing all 
technology items (information and equipment) from the deemed-exports 
technology list that are available for purchase on the overseas open 
market from foreign or U.S. companies or that have manuals that are 
available in the public domain, in libraries, over the Internet, or 
from manufacturers.
---------------------------------------------------------------------------
    \5\ The controls governed by the Export Administration Act and its 
implementing regulations extend to the transfer of technology. 
Technology includes ``specific information necessary for the 
`development,' `production,' or `use' of a product'' [emphasis added]. 
Providing information that is subject to export controls--for example, 
about some kinds of computer hardware--to a foreign national within the 
United States may be ``deemed'' an export, and that transfer requires 
an export license. The primary responsibility for administering 
controls on deemed exports lies with the Department of Commerce, but 
other agencies have regulatory authority as well.
---------------------------------------------------------------------------

INCENTIVES FOR INNOVATION

AND THE INVESTMENT ENVIRONMENT

Recommendation D: Ensure that the United States is the premier place in 
the world to innovate; invest in downstream activities such as 
manufacturing and marketing; and create high-paying jobs that are based 
on innovation by modernizing the patent system, realigning tax policies 
to encourage innovation, and ensuring affordable broadband access.

Implementation Actions

    Action D-1: Enhance intellectual-property protection for the 21st 
century global economy to ensure that systems for protecting patents 
and other forms of intellectual property underlie the emerging 
knowledge economy but allow research to enhance innovation. The patent 
system requires reform of four specific kinds:

        <bullet>  Provide the Patent and Trademark Office sufficient 
        resources to make intellectual-property protection more timely, 
        predictable, and effective.

        <bullet>  Reconfigure the U.S. patent system by switching to a 
        ``first-inventor-to-file'' system and by instituting 
        administrative review after a patent is granted. Those reforms 
        would bring the U.S. system into alignment with patent systems 
        in Europe and Japan.

        <bullet>  Shield research uses of patented inventions from 
        infringement liability. One recent court decision could 
        jeopardize the long-assumed ability of academic researchers to 
        use patented inventions for research.

        <bullet>  Change intellectual-property laws that act as 
        barriers to innovation in specific industries, such as those 
        related to data exclusivity (in pharmaceuticals) and those 
        which increase the volume and unpredictability of litigation 
        (especially in information-technology industries).

    Action D-2: Enact a stronger research and development tax credit to 
encourage private investment in innovation. The current Research and 
Experimentation Tax Credit goes to companies that increase their 
research and development spending above a base amount calculated from 
their spending in prior years. Congress and the Administration should 
make the credit permanent,\6\ and it should be increased from 20 
percent to 40 percent of the qualifying increase so that the U.S. tax 
credit is competitive with that of other countries. The credit should 
be extended to companies that have consistently spent large amounts on 
research and development so that they will not be subject to the 
current de facto penalties for previously investing in research and 
development.
---------------------------------------------------------------------------
    \6\ The current R&D tax credit expires in December 2005.

    Action D-3: Provide tax incentives for United States-based 
innovation. Many policies and programs affect innovation and the 
Nation's ability to profit from it. It was not possible for the 
committee to conduct an exhaustive examination, but alternatives to 
current economic policies should be examined and, if deemed beneficial 
to the United States, pursued. These alternatives could include changes 
in overall corporate tax rates, provision of incentives for the 
purchase of high-technology research and manufacturing equipment, 
treatment of capital gains, and incentives for long-term investments in 
innovation. The Council of Economic Advisers and the Congressional 
Budget Office should conduct a comprehensive analysis to examine how 
the United States compares with other nations as a location for 
innovation and related activities with a view to ensuring that the 
United States is one of the most attractive places in the world for 
long-term innovation-related investment. From a tax standpoint, that is 
---------------------------------------------------------------------------
not now the case.

    Action D-4: Ensure ubiquitous broadband Internet access. Several 
nations are well ahead of the United States in providing broadband 
access for home, school, and business. That capability will do as much 
to drive innovation, the economy, and job creation in the 21st century 
as did access to the telephone, interstate highways, and air travel in 
the 20th century. Congress and the Administration should take action--
mainly in the regulatory arena and in spectrum management--to ensure 
widespread affordable broadband access in the near future.

CONCLUSION

    The committee believes that its recommendations and the actions 
proposed to implement them merit serious consideration if we are to 
ensure that our nation continues to enjoy the jobs, security, and high 
standard of living that this and previous generations worked so hard to 
create. Although the committee was asked only to recommend actions that 
can be taken by the Federal Government, it is clear that related 
actions at the State and local levels are equally important for U.S. 
prosperity, as are actions taken by each American family. The United 
States faces an enormous challenge because of the disadvantage it faces 
in labor cost. Science and technology provide the opportunity to 
overcome that disadvantage by creating scientists and engineers with 
the ability to create entire new industries--much as has been done in 
the past.
    It is easy to be complacent about U.S. competitiveness and pre-
eminence in science and technology. We have led the world for decades, 
and we continue to do so in many research fields today. But the world 
is changing rapidly, and our advantages are no longer unique. Without a 
renewed effort to bolster the foundations of our competitiveness, we 
can expect to lose our privileged position. For the first time in 
generations, the Nation's children could face poorer prospects than 
their parents and grandparents did. We owe our current prosperity, 
security, and good health to the investments of past generations, and 
we are obliged to renew those commitments in education, research, and 
innovation policies to ensure that the American people continue to 
benefit from the remarkable opportunities provided by the rapid 
development of the global economy and its not inconsiderable 
underpinning in science and technology.

SOME WORRISOME INDICATORS

        <bullet>  When asked in spring 2005 what is the most attractive 
        place in the world in which to ``lead a good life,'' \1\ 
        respondents in only one of the 16 countries polled (India) 
        indicated the United States.
---------------------------------------------------------------------------
    \1\ Interview asked nearly 17,000 people the question: ``Supposed a 
young person who wanted to leave this country asked you to recommend 
where to go to lead a good life--what country would you recommend ?'' 
Except for respondents in India, Poland, and Canada, no more than one-
tenth of the people in the other nations said they would recommend the 
United States. Canada and Australia won the popularity contest. Pew 
Global Attitudes Project, July 23, 2005.

        <bullet>  For the cost of one chemist or one engineer in the 
        United States, a company can hire about five chemists in China 
        or 11 engineers in India.\2\
---------------------------------------------------------------------------
    \2\ The Web site http://www.payscale.com/about.asp tracks and 
compares pay scales in many countries. Ron Hira, of Rochester Institute 
of Technology, calculates average salaries for engineers in the United 
States and India as $70,000 and $13,580, respectively.

        <bullet>  For the first time, the most capable high-energy 
        particle accelerator on Earth will, beginning in 2007, reside 
        outside the United States.\3\
---------------------------------------------------------------------------
    \3\ CERN, http://public.web.cern.ch/Public/Welcome.html.

        <bullet>  The United States is today a net importer of high-
        technology products. Its share of global high-technology 
        exports has fallen in the last two decades from 30 percent to 
        17 percent, and its trade balance in high-technology 
        manufactured goods shifted from plus $33 billion in 1990 to a 
        negative $24 billion in 2004.\4\
---------------------------------------------------------------------------
    \4\ For 2004, the dollar value of high-technology imports was $560 
billion; the value of high-technology exports was $511 billion. See 
Appendix Table 6-01 of National Science Board's Science and Engineering 
Indicators 2004.

        <bullet>  Chemical companies closed 70 facilities in the United 
        States in 2004 and have tagged 40 more for shutdown. Of 120 
        chemical plants being built around the world with price tags of 
        $1 billion or more, one is in the United States and 50 in 
        China.\5\
---------------------------------------------------------------------------
    \5\ ``No Longer The Lab Of The World: U.S. chemical plants are 
closing in droves as production heads abroad,'' BusinessWeek (May 2, 
2005).

        <bullet>  Fewer than one-third of U.S. 4th grade and 8th grade 
        students performed at or above a level called ``proficient'' in 
        mathematics; ``proficiency'' was considered the ability to 
        exhibit competence with challenging subject matter. Alarmingly, 
        about one-third of the 4th graders and one-fifth of the 8th 
        graders lacked the competence to perform basic mathematical 
        computations.\6\
---------------------------------------------------------------------------
    \6\ National Center for Education Statistics, Trends in 
International Mathematics and Science Study, 2003, http://nces.ed.gov/
timss.

        <bullet>  U.S. 12th graders recently performed below the 
        international average for 21 countries on a test of general 
        knowledge in mathematics and science. In addition, an advanced 
        mathematics assessment was administered to U.S. students who 
        were taking or had taken precalculus, calculus, or Advanced 
        Placement calculus and to students in 15 other countries who 
        were taking or had taken advanced mathematics courses. Eleven 
        nations outperformed the United States, and four countries had 
        scores similar to the U.S. scores. No nation scored 
        significantly below the United States.\7\
---------------------------------------------------------------------------
    \7\ Data are from National Science Board. 2004. Science and 
Engineering Indicators 2004 (NSB 04-01). Arlington, VA: National 
Science Foundation. Chapter 1.

        <bullet>  In 1999, only 41 percent of U.S. 8th grade students 
        received instruction from a mathematics teacher who specialized 
        in mathematics, considerably lower than the international 
        average of 71 percent.\8\
---------------------------------------------------------------------------
    \8\ Data are from National Science Board. 2004. Science and 
Engineering Indicators 2004 (NSB 04-01). Arlington, VA: National 
Science Foundation. Chapter 1.

        <bullet>  In one recent period, low-wage employers, such as 
        Wal-Mart (now the Nation's largest employer) and McDonald's, 
        created 44 percent of the new jobs, while high-wage employers 
        created only 29 percent of the new jobs.\9\
---------------------------------------------------------------------------
    \9\ Roach, Steve. More Jobs, Worse Work. New York Times. July 22, 
2004.

        <bullet>  In 2003, only three American companies ranked among 
        the top 10 recipients of patents granted by the United States 
        Patent and Trademark Office.\10\
---------------------------------------------------------------------------
    \10\ U.S. Patent and Trademark Office, Preliminary list of top 
patenting organizations. 2003, http://www.uspto.gov/web/offices/ac/ido/
oeip/taf/top03cos.htm.

        <bullet>  In Germany, 36 percent of undergraduates receive 
        their degrees in science and engineering. In China, the figure 
        is 59 percent, and in Japan 66 percent. In the United States, 
        the corresponding figure is 32 percent.\11\
---------------------------------------------------------------------------
    \11\ Data are from National Science Board. 2004. Science and 
Engineering Indicators 2004 (NSB 04-01). Arlington, VA: National 
Science Foundation, Appendix Table 2-33.

        <bullet>  The United States is said to have 10.5 million 
        illegal immigrants, but under the law the number of visas set 
        aside for ``highly qualified foreign workers'' dropped to 65, 
        000 a year from its 195,000 peak.\12\
---------------------------------------------------------------------------
    \12\ Colvin, Geoffrey. 2005. ``America isn't ready.'' Fortune 
Magazine, July 25. H-1B visas allow employers to have access to highly 
educated foreign professionals who have experience in specialized 
fields and who have at least a bachelor's degree or the equivalent. The 
cap does not apply to educational institutions. In November 2004, 
Congress created an exemption for 20,000 foreign nationals earning 
advanced degrees from U.S. universities. See Immigration and 
Nationality Act Section 101(a)(15)(h)(1)(b).

        <bullet>  In 2004, China graduated over 600,000 engineers, 
        India 350,000, and America about 70,000.\13\
---------------------------------------------------------------------------
    \13\ Geoffrey Colvin. 2005. ``America isn't ready.'' Fortune 
Magazine, July 25.

        <bullet>  In 2001 (the most recent year for which data are 
        available), U.S. industry spent more on tort litigation than on 
        R&D.\14\
---------------------------------------------------------------------------
    \14\ U.S. research and development spending in 2001 was $273.6 
billion, of which industry performed $194 billion, and funded about 
$184 billion. (National Science Board Science and Engineering 
Indicators 2004). One estimate of tort litigation costs in the United 
States was $205 billion in 2001. (Leonard, Jeremy A. 2003. How 
Structural Costs Imposed on U.S. Manufacturers Harm Workers and 
Threaten Competitiveness. Prepared for the Manufacturing Institute of 
the National Association of Manufacturers.) http://www.nam.org/
s<INF>-</INF>nam/bin.asp?CID=216&DID= 227525&DOC=FILE.PDF.
---------------------------------------------------------------------------
    Chairman Gordon. Welcome to a hearing of the Science and 
Technology Committee on the critical importance of science and 
technology in the 21st century global economy, and I want to 
especially welcome our very distinguished panelists today.
    I saw that you all had a chance to meet Mr. Hall. I hope 
you checked your billfold to make sure that as he passed 
through you, things are still all right.
    Let me also say that we are being televised today, and I 
know that folks will be watching us from the office. The 
Democrats have an important caucus going on right now, so some 
of our folks are trying to break loose. I know that Vern Ehlers 
and others are in a variety of meetings, so folks will be 
coming in, but we are well represented by all their staff today 
also.
    In 2005, I joined Senators Bingaman and Alexander and 
Congressman Sherry Boehlert in asking the National Academies of 
Science to study the urgent challenges facing the U.S. in 
maintaining global leadership in science and technology.
    In response, the Academies formed an all-star committee and 
issued their report, entitled ``Rising Above the Gathering 
Storm: Energizing and Employing America for a Brighter Economic 
Future.'' I, for a long time, have had on my desk the 
preliminary copy. I am pleased today, and maybe your appearance 
here helped the printer get going, but we now have the final 
version that is out.
    It is a very inspiring term, the title of the report, but 
it is also a very inspiring report, and we thank you for that. 
That committee was chaired by Mr. Augustine, and included Mr. 
Barrett, both of whom are here and witnesses today. It has 
become an enormously influential report, not only owing to the 
grave dangers it predicts if we are complacent, but also owing 
to 20 constructive action items it spells out that will lead to 
continued American leadership and prosperity.
    I am an enthusiastic advocate of the report, and after 
studying its recommendation, I drafted legislation in the 109th 
Congress to implement each and every action item that fell 
within the Science Committee's jurisdiction. Sadly, little of 
the competitiveness agenda made it into law, but in the 110th 
Congress, that will change. There is a bipartisan consensus 
that investing in education and research along the lines of the 
Gathering Storm report is necessary.
    That is why I am reintroducing H.R. 362 and H.R. 363 in the 
first days of this Congress. And I am pleased that Speaker 
Pelosi has made these two bills a major part of her 
competitiveness agenda. H.R. 362 is ``10,000 Teachers, 10 
Million Minds'' Science and Math Scholarship Act. This bill 
addresses the critical shortage of certified science and math 
teachers in the U.S. It will produce a new corps of outstanding 
science and math teachers who are dedicated to and well 
prepared for teaching. And this is not an experiment. We know 
that the model works, and President Dynes, who is on our panel 
today, can discuss about the success of CalTeach Program which 
uses the same technique.
    H.R. 362 also addresses the needs of the current science 
and math teachers through summer institutes and Master's degree 
programs, focused on content knowledge, that are targeted just 
for them. And we are not talking about the old-fashioned 
professional development programs, we are talking about 
sustained programs focusing on disciplinary knowledge of 
teachers that will create a network of 50,000 teacher leaders 
across this country. H.R. 362 places these education programs 
at the National Science Foundation, and Dr. Lane on our panel 
today can explain why the National Science Foundation is the 
right agency for this job.
    Leaders of the business community, such as Mr. McGraw, Ms. 
Wince-Smith, and Mr. Barrett, are on the panel today, will 
explain to us why the full breadth of the corporate sector 
takes an interest in pre-college math and science education.
    In order to produce the most innovative scientists and 
engineers in the world, our children must be the highest 
achieving science and math students in the world, but the 
pathway that leads to innovation in the global economy doesn't 
end at the twelfth grade or with a college education. We also 
need to support the research and development enterprise in 
science and technology to maintain our world leadership in 
these areas.
    That brings me to the second bill, H.R. 363, which the--
which this committee reported unanimously, and should be before 
the full House next month. H.R. 363 is Sowing the Seeds Through 
Science and Engineering Research Act. Mr. Augustine, you might 
remember that term. I completely plagiarized your work, which I 
hope that you will find as a compliment. It was done so that it 
wouldn't be a Democratic or a Republican bill, but rather, a 
recommendation of this very well knowledged group.
    This bill will strengthen long-term basic research in the 
physical sciences, mathematical sciences, and engineering. It 
directs funding toward graduate students and early career 
researchers in these areas. It also establishes a Presidential 
Innovation Award to stimulate scientific and engineering 
advances in the national interest.
    Investing in science education and research along these 
lines is necessary if the U.S. is to maintain its position as a 
global leader in technology and innovation. Now, I don't claim 
these bills do everything. There are a variety of good ideas 
out there that address issues of national competitiveness, and 
this committee is going to be the committee of good ideas. So, 
even though these bills don't address every recommendation of 
the Gathering Storm report, they do address what seems to me to 
be the highest priorities concerning that, and that have 
bipartisan support, and you can be assured we will be building 
that bipartisan support for additional measures very soon.
    Today, we have asked our distinguished panelists to address 
the reasons why the promotion of science and technology is so 
critical to America's prosperity, where we stand today, and 
where we need to be in the future. I look forward to hearing 
their expert testimony.
    At this time, I recognize our distinguished Ranking Member, 
Mr. Hall, for his opening statement.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    It is my pleasure to welcome everyone this morning to this hearing 
of the Committee on Science and Technology on the critical importance 
of science and technology in the 21st century global economy. I want 
especially to welcome and to thank our distinguished panelists for 
taking the time to appear before us today.
    In 2005, I joined Senators Bingaman and Alexander and Congressman 
Boehlert in asking the National Academy of Science to study the urgent 
challenges facing the United States in maintaining global leadership in 
science and technology.
    In response, the Academy formed an all-star committee and issued 
their report entitled ``Rising Above the Gathering Storm: Energizing 
and Employing America for a Brighter Economic Future.'' That committee 
was chaired by Mr. Augustine and included Mr. Barrett, both of whom are 
here as witnesses today.
    It has become an enormously influential report, not only owing to 
the grave dangers it predicts if we are complacent but also owing to 20 
constructive action items it spells out that will lead to continued 
American leadership and prosperity.
    I am an enthusiastic advocate of the report and, after studying its 
recommendations, I drafted legislation in the 109th Congress to 
implement each and every action item that fell within the Science 
Committee's jurisdiction.
    Sadly, little of that competitiveness agenda made its way into law.
    But in the 110th Congress that will change. There is a bipartisan 
consensus that investing in education and research along the lines of 
the Gathering Storm report is necessary. That is why I re-introduced 
H.R. 362 and H.R. 363 in the first days of this new Congress.
    H.R. 362 is the ``10,000 Teachers, 10,000,000 Minds'' Science and 
Math Scholarship Act. This bill addresses the critical shortage of 
certified science and math teachers in the U.S. It will produce a new 
corps of outstanding science and math teachers who are dedicated to and 
well prepared for teaching.
    This is not an experiment. We know the model works. President Dynes 
on our panel today can tell us about the successful ``CalTeach'' 
program, which uses the same approach.
    H.R. 362 also addresses the needs of current science and math 
teachers, through summer institutes and Master's degree programs 
focusing on content knowledge that are targeted just for them. We're 
not talking about old-fashioned professional development programs. We 
are talking about sustained programs focusing on disciplinary knowledge 
of teachers that will create a network of 50,000 teacher leaders across 
the country.
    H.R. 362 places these education programs at the National Science 
Foundation. Dr. Lane on our panel today can explain why the National 
Science Foundation is the right agency for this job.
    Leaders of the business community, such as Mr. McGraw and Ms. 
Wince-Smith on today's panel, can explain to us why the full breadth of 
the corporate sector takes an interest in pre-college math and science 
education.
    In order to produce the most innovative scientists and engineers in 
the world, our children must be the highest achieving science and math 
students in the world. But the pathway that leads to innovation in the 
global economy doesn't end at the 12th grade or with college 
graduation. We also need to support the research and development 
enterprise in science and technology to maintain our world leadership 
in these areas.
    That brings me to the second bill, H.R. 363, which this committee 
reported unanimously and should be before the full House next month.
    H.R. 363 is the Sowing the Seeds Through Science and Engineering 
Research Act. This bill will strengthen long-term basic research in 
physical sciences, mathematical sciences, and engineering.
    It directs funding toward graduate students and early-career 
researchers in these critical areas. It also establishes a presidential 
innovation award to stimulate scientific and engineering advances in 
the national interest. Investing in scientific education and research 
along these lines is necessary if the United States is to maintain its 
position as a global leader in technology and innovation.
    Now I don't claim that these bills do everything. There are all 
kinds of good ideas out there addressing issues of national 
competitiveness, and this committee is going to be the ``committee of 
good ideas.''
    Even though these bills don't address every recommendation in the 
Gathering Storm report, they do address what seems to me to be the 
highest priority concerns that have bipartisan support.
    Today, we've asked our distinguished panelists to address the 
reasons why the promotion of science and technology is so critical to 
America's prosperity; where we stand today; and where we need to be in 
the future. I look forward to hearing their expert testimony.

    Mr. Hall. Thank you, Mr. Chairman, and I understand that 
you had a well attended press conference, and I am sorry I 
missed it. I always enjoy hearing what our leader says, and Mr. 
Augustine, and Norm, nice to have you here again. You have been 
here many times, and I have quoted your statement that we can't 
be 911 to the whole world a lot of times. I always got good 
response on it.
    And I say to Dr. Neal Lane that I might be your President 
if I had answered the letter correctly I received, that I was 
in the top ten in consideration to be President of Rice 
University. And I simply sent them back a copy of my 
transcript, and a press release that said that I had made four 
Fs and a D one time, and my dad punished me for spending too 
much time on one subject. So, I have got both those letters in 
my office up there. I have not heard back from them. So----
    But I always--I am on the positive side. All of you who 
were there will be spared listening to my being repetitive. My 
message for this hearing is the same. If America is going to 
remain on top of the evolving world economy, we have to be 
dedicated to improving our workforce. We don't have time to 
stop for a breather, because countries like China and India are 
breathing down our necks, pumping out doctors and pumping out 
engineers, through great difference in numbers, probably not 
quality, but in numbers alone.
    Today, we are--today's workers increasingly require a solid 
academic foundation in science and math, as well as technical 
know-how, in order to succeed in today's high-tech workplace. 
Despite these growing demands nationally, only one out of every 
fifty high school graduates will ever obtain an engineering or 
technical degree. Further, most American high school graduates 
are either not sufficiently prepared or not sufficiently 
motivated to pursue advanced study in science, math, 
engineering, or technology fields, and this is a real problem.
    While there are no quick fixes, we can take steps now to 
reexamine and improve how teachers teach, and how students 
learn math and science, and I am pleased to see the Science 
Committee doing just that. Mr. Chairman, I salute you for that, 
and I thank you for that.
    As a part of the H.R. 362, which I believe is on the agenda 
for today, I am particularly pleased to see that we are using 
University of Texas, UTeach, not UT, that would be University 
of Texas, or some say University of Tennessee, but UTeach is a 
program that they use as a basis for scholarship programs for 
the STEM students, who commit to teaching K-12 science and math 
classes after graduation. This program has been replicated and 
expanded to University of California, and I look forward to 
hearing more about it from Dr. Dynes.
    Along with improving education, Congress should also work 
to promote competitiveness by increasing Federal R&D funding, 
while simultaneously stimulating private sector R&D. The 
Administration's American Competitiveness Initiative is working 
to do just that on the federal level, but there is still some 
room for creativity on how to increase private sector basic 
research. The government's role for the latter should be to 
create a system of incentives.
    As the President said, and I quote, ``The role of 
government is not to create wealth. The role of our government 
is to create an environment in which the entrepreneur can 
flourish, in which minds can expand, and in which technologies 
can reach new frontiers.'' Encouraging private sector 
innovation through tax credits and other such programs will 
improve the American economy, make us more competitive 
globally, and also bring new products to the American people.
    I have seen firsthand America's innovative capabilities, 
and I know we can do better. America's preeminence in the 
global economy depends on what all of us do today, each of us, 
all levels of government, industry, academia, parents and 
students, has an important role to play in keeping America 
competitive and ahead of the innovative curve.
    I look forward to working closely with you, Mr. Chairman, 
on these competitiveness issues, and to hearing what our 
esteemed witnesses have to say on the subject.
    And with that, I yield back my time, and I thank you, sir.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you Mr. Chairman, and good afternoon. We just wrapped up a 
press conference to highlight the importance of innovation and the role 
that Congress and others can play in promoting American 
competitiveness. I have not changed my mind in the last few minutes, so 
I think I will stick with the same message. It's pretty simple.
    If America is going to remain on top in the evolving world economy, 
we must be dedicated to improving our workforce. We don't have time to 
stop for a breather because countries like China and India are 
breathing down our necks, pumping out doctors and engineers.
    Today's workers increasingly require a solid academic foundation in 
science and math, as well as technical know-how, in order to succeed in 
today's high-tech workplace. Despite these growing demands nationally, 
only one out of every 50 high school graduates will ever obtain an 
engineering or technical degree. Further, most American high school 
graduates are either not sufficiently prepared or not sufficiently 
motivated to pursue advanced study in science, math, engineering or 
technology fields.
    This is a problem.
    While there are no quick fixes, we can take steps now to re-examine 
and improve how teachers teach and students learn math and science, and 
I am pleased to see the Science Committee doing just that.
    As a part of H.R. 362, which I believe is on the agenda for today, 
I am particularly pleased to see that we are using the University of 
Texas UTeach program as a basis for a scholarship program for STEM 
students who commit to teaching K-12 science and math classes after 
graduation. This program has been replicated and expanded at the 
University of California, and I look forward to hearing more about it 
from Dr. Dynes.
    Along with improving education, Congress should also work to 
promote competitiveness by increasing Federal R&D funding, while 
simultaneously stimulating private sector R&D. The Administration's 
American Competitiveness Initiative is working to do just that on the 
federal level, but there is still room for creativity on how to 
increase private sector basic research. The government's role for the 
latter should be to create a system of incentives.
    As the President said, ``The role of government is not to create 
wealth; the role of our government is to create an environment in which 
the entrepreneur can flourish, in which minds can expand, in which 
technologies can reach new frontiers.'' \1\ Encouraging private sector 
innovation through tax credits and other such programs will improve the 
American economy, make us more competitive globally, and also bring new 
products to the American people.
---------------------------------------------------------------------------
    \1\ President George W. Bush, May 2001.
---------------------------------------------------------------------------
    I have seen first-hand America's innovative capabilities, and I 
know we can do better. American preeminence in the global economy 
depends on what all of us do today. Each of us. . .all levels of 
government, industry, academia, parents and students. . .has an 
important role to play in keeping America competitive and ahead of the 
innovation curve.
    I look forward to working closely with you, Mr. Chairman, on these 
competitiveness issues and to hearing what our esteemed witnesses have 
to say on the subject.

    Chairman Gordon. Thank you, Mr. Hall. I ask unanimous 
consent that all additional opening statements submitted by the 
Committee Members be included in the record. Without objection, 
so ordered.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman.
    Multiple indicators tell us our nation is falling behind, when it 
comes to world competitiveness in science, technology, engineering and 
math.
    I have seen a few examples in which a concerted effort by industry, 
or by a university, or even a scholarship program really makes a 
difference in student achievement.
    Townview High School in Dallas comes to mind. Or the UTeach program 
at the University of Texas.
    However, I have also seen many more schools struggle, with teachers 
feeling constrained with rigorous curricula but few resources to bring 
that curriculum to life for their students.
    Despite the Federal Government's best efforts, young Americans are 
being ``left behind.'' Many of these students are in high-need school 
districts, in poor urban and rural areas.
    I appreciate the work that went into the report called Rising Above 
the Gathering Storm. I feel it is a definitive science policy 
guidebook.
    However, the report isn't comprehensive. I feel that high-need 
schools are still getting left behind.
    I also would like to see more attention given to encouraging women, 
Blacks and Hispanics to enter STEM fields and obtain advanced degrees. 
I'll be interested to hear your recommendations on this issue.
    I welcome today's witnesses and appreciate your candid feedback on 
legislation we are developing in the Committee on Science and 
Technology.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Carnahan follows:]
           Prepared Statement of Representative Russ Carnahan
    Mr. Chairman, thank you for hosting this hearing to address the 
importance of science and technology to the global competitiveness of 
our nation.
    I share the concerns of many of you here today. Our nation's 
standing as the global leader in science and technology has slipped in 
recent years and I believe we need to counteract this worrying trend.
    Last year I received a letter, from a mother in New Jersey whose 
14-year-old daughter was not satisfied with her education. This girl 
wanted permission from her parents to move to Beijing for high school 
because she felt her counterparts in China were getting ahead. To me, 
this story underscores the need for our nation to strengthen its 
investment in education. In particular, America must commit to 
education in math, science and engineering to promote innovation and 
technological advancement. I request that this letter be submitted to 
the record.
    I am pleased that the National Academy of Sciences has provided us 
with an excellent report, Rising Above the Gathering Storm, to focus on 
these crucial issues. I am similarly pleased that the Chairman has 
introduced legislation to implement the recommendations of the report. 
Last August, Mr. Gordon visited St. Louis for an outstanding panel 
discussion on innovation. Mr. Chairman, I can assure you that your 
visit sparked a conversation about competitiveness, STEM education and 
innovation that continues with enthusiasm in St. Louis. I look forward 
to working with the Committee and participating in the ongoing debate.
    I want to thank all of the witnesses for being here today and I 
look forward to hearing the testimony.

    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    To remain competitive in the global economy, America needs 
technological innovation.
    Today's hearing focuses on the education and research 
recommendations of the National Academy of Science's (NAS) report 
Rising Above the Gathering Storm: Energizing and Employing America for 
a Brighter Economic Future.
    The question is how to increase the number of innovators. We must 
encourage and inspire well-trained STEM educators--educators to inspire 
a new generation of scientists and engineers.
    If the number of students studying science and technology continues 
to decrease, American competitiveness will also decline.
    If we don't invest now and invest well, we will fall even further 
behind. Students today will be the innovators keeping American 
companies and their operations here tomorrow.
    I yield back the balance of my time.

    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    It is wonderful to have such a distinguished panel with us today. 
Each of you is an expert in the relationship between our national 
economic competitiveness and science and technology. I am pleased that 
the Chairman has scheduled this hearing early in the 110th session and 
I appreciate his commitment to action on the recommendations of the 
Gathering Storm report.
    As we work to ensure that our best and brightest students will be 
attracted to science, technology, engineering and math fields, we also 
must make sure we focus on improving math and science literacy for all 
of our students. I am pleased that H.R. 362 includes provisions 
supporting the training and retention of STEM teachers, and feel very 
strongly that teachers have a tremendous impact on student enthusiasm 
and interest in these subjects. Our system must foster a desire to 
explore the unknown, ask good questions, and equip our citizens with 
quantitative skills that will be useful in all parts of the workforce. 
There is no substitute for the inspiration provided by a teacher who 
has a passion for the subject they are teaching. Such passion is 
impossible without a solid foundation in pedagogy and content.
    Finally, I would also like to note that one of the recommendations 
of the Gathering Storm report was to ensure that the United States is a 
hospitable location for innovative companies. While many of the 
recommended implementation steps to achieve this goal lie outside of 
the jurisdiction of this committee, I would note that the panel cited 
manufacturing and marketing as key activities related to innovation. 
The National Institute of Standards and Technology (NIST) works very 
closely with industry on programs to implement innovative technologies 
from the laboratory into the field. I want to make sure the Committee 
values NIST's important contribution to our national competitiveness, 
and look forward to working with my colleagues on an upcoming 
authorization bill for the agency.

    Chairman Gordon. Now, I am pleased today to welcome this 
illustrious panel of academic, business, and government leaders 
to testify before the Committee.
    First, Mr. Norm Augustine. As Mr. Hall has said, he has 
been before our committee many times, and we are the better off 
for it. He is the retired Chairman and CEO of Lockheed Martin. 
He is also a member of the Advisory Board to the Department of 
Homeland Security, and served for 16 years on the President's 
Council of Advisors on Science and Technology. In the 1970s, he 
served as Under Secretary, and then Acting Secretary of the 
Army. And Mr. Augustine chaired the National Academies 
committee that wrote the Gathering Storm. Mr. Augustine.

   STATEMENT OF MR. NORMAN R. AUGUSTINE, CHAIR, COMMITTEE ON 
PROSPERING IN THE GLOBAL ECONOMY OF THE 21ST CENTURY, COMMITTEE 
ON SCIENCE, ENGINEERING, AND PUBLIC POLICY, DIVISION ON POLICY 
AND GLOBAL AFFAIRS, THE NATIONAL ACADEMIES; FORMER CHAIRMAN AND 
                CEO, LOCKHEED MARTIN CORPORATION

    Mr. Augustine. Mr. Chairman and Members of the Committee, 
thank you very much for this opportunity to speak with you 
about a topic that I deem to be one of the most important 
facing America today.
    Mr. Chairman, with the Committee's permission, I would like 
to submit a formal statement for the record and briefly 
summarize it here. Thank you.
    As you pointed out, it was my privilege to chair the 
National Academies committee that wrote the Gathering Storm 
report, and you were kind enough or polite enough not to 
mention that it was really because of your efforts and those of 
your colleagues that the Academies began this effort in the 
first place.
    It was an effort that, of course, joined those of many 
other organizations, including the Council on Competitiveness. 
Our committee included 20 members who were nonpartisan. The 
membership was broad, and included CEOs of major corporations, 
presidents of universities, three Nobel laureates, a former 
state superintendent of schools, and a number of former 
Presidential appointees. Our findings were essentially 
unanimous, and I will briefly summarize them in a moment.
    The underlying principle behind our work was what has been 
called the death of distance, which refers to the notion that 
many transactions that, in the past, required people to be in 
proximity to one another no longer do. And that means that, for 
example, when you have a CAT-scan to be read, it may be read by 
a physician in Australia; when you need software, it may be 
written by an engineer in Bangalore, and when you need your 
income tax prepared, it may be prepared by an accountant in 
Costa Rica.
    Tom Friedman has said, in his marvelous book about the 
Earth being flat, that globalization has accidentally made 
Bangalore, Beijing, and Bethesda next-door neighbors, and when 
it comes to seeking jobs, that is certainly true. At the end of 
the Cold War, over three billion new would-be capitalists 
entered the world job market, and it is a world job market. 
Those three billion people are highly motivated, increasingly 
well educated, and willing to work for a fraction of what 
American workers at all levels are willing to work for, or at 
least have been accustomed to working for.
    That suggests that we have a major competitiveness 
disadvantage that we have to find a way to offset. It has been 
the view of virtually every study with which I am familiar, 
certainly our recent National Academies study, that that offset 
will have to come from being the world's best innovators and 
first to market.
    There are a number of indications that things are not going 
particularly well in that regard. Although our overall economy 
looks good in many respects, Americans, with five percent of 
the world's population, produce 28 percent of the world's goods 
and services. We have created two million net new jobs each 
year in recent years. Household net worth just passed $50 
trillion, but there are a lot of worrisome signs, the gathering 
storm, if you will.
    For example, of new R&D facilities that are to be built in 
the world, in the next few years, 77 percent are scheduled to 
be in India or China. You are all familiar with the fact that 
the world-renowned Bell Labs, I think unarguably, once the 
finest corporate research facility in the world was recently 
sold to the French, or what was left of that lab. The R&D 
investment in the physical sciences has been stagnant for 20 
years in this country in real dollars. Of course, it is good 
things that others prosper, but the National Academies' goal is 
to insure that America continues to prosper.
    Our committee's findings were straightforward. The first 
was that our standard of living, and indeed, our security, in 
the years ahead, will depend on people having high-quality jobs 
in America. Second, to have high-quality jobs, we are going to 
have to be exceptional in science and technology, because those 
are the fields that underpin, to a very large degree, 
innovation, which is likely to be our primary competitive 
advantage.
    Of recommendations we have made that have to do with 
science and technology, the first is that the federal 
investment in basic research be doubled in real dollars over 
the next seven years.
    Second, a series of special grants should be set up for 
young researchers. Many of the great technical and scientific 
breakthroughs have been by young people, but because of the 
constraints on funding, and conservatism in grant funds, first 
grants, on the average, go to a person 42 years old.
    Third, $500 million a year should be devoted to modernizing 
the instrumentation and equipment infrastructure of scientific 
research labs in this country.
    Fourth, eight percent of the R&D budget should be set aside 
for discretionary application by the heads of local 
laboratories, the people who know best where the promise of 
future innovation lies, with a focus on high-risk high-payoff 
research.
    Fifth, we proposed creating the equivalent of an Advanced 
Research Project Agency (ARPA) in the Department of Energy. 
ARPA was successful in most people's eyes, in helping the 
Department of Defense. Our hope is that ARPA-E can do the same 
thing in the Department of Energy.
    Finally, we suggested, and you referred to this, Mr. 
Chairman, in your remarks, a National Award for Innovation.
    The reaction of the media and the public to our 
recommendations has been astonishingly favorable. I have a 
collection of op-eds, several from each state in the union, 
almost all supporting our findings. Because of its length, I 
won't submit it for the record, but if the Members would like a 
copy, I would be happy to see that you get it.
    And with that, Mr. Chairman, again, thank you for this 
opportunity to address your committee.
    [The prepared statement of Mr. Augustine follows:]
               Prepared Statement of Norman R. Augustine

                     Can America Compete for Jobs?

Mr. Chairman and Members of the Committee:

    I appreciate the opportunity to participate in this hearing which 
addresses one of the most significant challenges facing America today: 
our nation's ability to preserve, and hopefully enhance, the standard 
of living and quality of life enjoyed by America's citizens. 
Unfortunately, because of absent decisive action on the part of our 
nation's leaders, there is a very real likelihood that today's adult 
generation will leave to its children, for the first time in our 
nation's history, a sustained, substantially lower standard of living 
than it enjoyed.
    I would like to begin my testimony by thanking you, Mr. Chairman, 
for your courageous leadership in placing science and engineering on 
the Nation's agenda. I believe that there has been a broad awakening in 
America as to the impact of science and technology and the consequences 
of its neglect. You and the Members of this committee were among the 
first to sound the alarm.
    As you may be aware, it was my privilege to serve as Chair of the 
National Academies' assessment of our nation's future competitiveness. 
This committee, whose report became known as the ``Gathering Storm'' 
report, has completed its assigned task and, in keeping with the 
Academies' policies, been disbanded. Given that circumstance, the views 
I express today will be my own, speaking as a private citizen. However, 
I believe that my remarks are generally reflective of the views of my 
colleagues on the National Academies' committee. The committee's 20-
person membership consisted of former presidential appointees, CEO's, 
Nobel Laureates, a State Superintendent of Schools, and several 
university presidents. . .one of whom has recently found new employment 
as Secretary of Defense. I should note that many other individuals and 
organizations have devoted enormous talent and energy to helping 
address the competitiveness challenges our nation faces, including the 
Council on Competitiveness, the Business Roundtable, the National 
Association of Manufacturers, the American Association of University 
Presidents, the Chamber of Commerce, the National Association of State 
Universities and Land-Grant Colleges, the American Physical Society, 
the American Association for the Advancement of Science, and numerous 
others.
    It was through the encouragement of Members of the Senate and House 
of Representatives that the National Academies' project was initiated, 
and in particular Senators Alexander and Bingaman and Representatives 
Boehlert and you, Mr. Chairman, requested that an assessment be 
conducted. It would be difficult to cite a finer example of bipartisan 
cooperation in addressing a problem of critical importance to America's 
citizenry than that which took place following the release of the 
National Academies' ``Gathering Storm'' report and involving the White 
House and Cabinet Officers, the House of Representatives, and the 
Senate. The initial legislation to implement the Academies' 
recommendations had 70 co-sponsors in the Senate--35 Democrats and 35 
Republicans. Similar support has been found in the House.
    I have with me a collection of editorials and op/eds from 
newspapers in all 50 states. Virtually all indicate support for the 
Academies' findings and recommendations. I will, because of the 
document's length, not request that it be included in the record, but 
if any of the Members would like a copy I would be pleased to have one 
delivered to your office.
    Having examined a great deal of evidence, the committee concluded 
that America's ability to compete for jobs in the years ahead will 
depend heavily upon our ability to maintain a strong position in the 
fields of science and engineering. It will be these fields that will 
underpin the innovation that in turn will create quality jobs for 
Americans. And to fill those jobs, all our citizens will need the basic 
tools required to function in a high-tech world. Eight different 
studies conducted in recent decades indicate that public investments in 
science and technology have produced societal returns that range from 
20 to 67 percent per year. Various other studies have concluded that 
between 50 and 85 percent of the Nation's growth in GDP per capita 
during the last half-century can be attributed to science and 
engineering progress. In fact, one would be hard-pressed to find a 
better investment than research and education.
    While a great deal has been accomplished, much remains to be done. 
The Academies' estimate of the incremental cost, at the federal level, 
of putting the Nation in a position to compete, will grow from $9B per 
year to $19B per year over the next five years. This is not a one-year 
competition in which we find ourselves--it is a seismic change, 
comparable to that the Nation underwent when it encountered a shift 
from 84 percent of its workers being involved in agriculture in the 
early 1800's to about one percent today. The transition to a globalized 
economy will, however, be markedly faster, with three billion would-be 
capitalists having entered the global job market in the past two 
decades alone and the number of nations actively participating in that 
market suddenly increasing from 25 to 66. These job candidates are 
highly motivated, willing to work for a fraction of the compensation 
U.S. workers receive, and are increasingly well educated. Furthermore, 
they span the employment spectrum from laborers and assembly workers to 
medical doctors, accountants and engineers.
    It has been 17 months since the Academies' report was issued and 
while substantial preparatory work is now in place, including the FY07 
continuing resolution, little impact of this effort has yet to be felt 
where it matters: in America's factories, schools, and research 
laboratories. The year ahead will be decisive in this regard, a period 
that one day may be looked back upon as a ``tipping point''--one way or 
the other. The question is whether we have the staying-power to sustain 
the efforts which have now been initiated.
    During the months since the Academies' report was issued, the world 
has, unfortunately, not been standing still waiting for us: An entire 
new generation of semiconductor integrated circuits, the mortar of the 
modern electronics revolution, has been introduced; Toyota now has 
eight times the market capitalization of General Motors and Ford, 
combined; the remnants of what was once the world's greatest industrial 
research lab, the legendary Bell Labs, the home of the transistor and 
the laser and numerous Nobel Laureates, has now been sold to a French 
firm; for the first time the most capable high-energy particle 
accelerator in the world does not reside in the United States; another 
$650 billion has been spent on our public schools which, according to 
recent standardized tests in science, was accompanied by a moderate 
improvement in performance in the lower grades and further 
deterioration in the 12th grade--suggesting that the longer our 
children are exposed to our schools, the worse they fare. In addition, 
U.S. investors put more new money into foreign stock funds than U.S. 
funds; 77 percent of the new research laboratories currently planned to 
be built in the world will reside in just two countries--neither of 
which is the United States; American firms once again spent more on 
litigation than on research and development; U.S. undergraduate 
engineering enrollment remained generally flat according to the latest 
data; nearly all the major Initial Public Offerings in the world during 
the period took place outside the United States; the German firm which 
not long ago purchased one of America's Big Three automakers, Chrysler, 
has now, upon closer inspection, decided it doesn't want it after all; 
the Academies' recommendation to add $9 billion to the federal budget 
was debated as U.S. citizens gambled $7 billion on the Super Bowl; our 
children continued to spend more time watching television than in the 
classroom; and the World Economic Forum in Geneva precipitously lowered 
its rating of U.S. competitiveness from first place to sixth.
    A particularly troublesome aspect of the challenge we face is that 
there has been and will be no sudden wake-up call--no Sputnik, no 9/11, 
no Pearl Harbor--rather, the situation is much more analogous to the 
proverbial frog being slowly boiled. The economy is of course doing 
quite well, and it has to be considered a major positive that other 
nations are prospering. The challenge for America is to continue to be 
among those nations that prosper--and in this regard virtually all the 
warning trends are headed in the wrong direction.
    As Tom Friedman concluded in The World is Flat, globalization has 
``accidentally made Beijing, Bangalore and Bethesda next door 
neighbors''--a neighborhood wherein able candidates for jobs which have 
traditionally resided in the United States are now just a mouse-click 
away.
    It should be noted that while the Academies' committee focused on 
creating and sustaining jobs, the impact of the competitiveness race on 
our nation's physical security could be even more profound. Several 
years ago it was my privilege to serve on the bipartisan Hart-Rudman 
Commission on National Security, one of the two primary findings of the 
group being, ``. . .the inadequacies of our system of research and 
education pose a greater threat to U.S. national security over the next 
quarter century than any potential conventional war that we might 
imagine.'' Indeed, the consequences of current trends are particularly 
acute for defense firms, which must rely upon U.S. citizens for much of 
their engineering force and cannot simply shift work overseas as does 
much of the commercial sector.
    The National Academies' report offers four recommendations and 20 
specific implementing actions to begin the process of assuring 
America's future competitiveness and security. The four recommendations 
address strengthening our K-12 public schools, significantly increasing 
the Nation's investment in basic research, encouraging more of the 
Nation's ``best and brightest'' to become engineers and scientists; and 
reconstituting the Nation's innovation ecosystem in such areas as 
patent policy, tax policy, litigation policy, and immigration policy. 
The Academies' report proposes undertaking these tasks within an 
overall framework that focuses upon reducing the Nation's energy 
dependence, since that is a task of the utmost importance and is 
closely coupled to the attainment of advancements in science and 
engineering.
    The two highest priorities cited in the National Academies' report 
are, first, to increase the number of K-12 teachers with university 
degrees in the physical sciences, math or engineering, and, second, to 
substantially increase the basic research budget in math, engineering 
and the physical sciences while, at a very minimum, preserving the 
purchasing power of the Nation's on-going investment in the 
biosciences. The growth in recent years in funding of the health 
sciences is already paying significant dividends.
    The Academies' specific recommendations with regard to science were 
presented in ``The Gathering Storm'' report under the heading, ``Sowing 
the Seeds'' and focused on strengthening the Nation's traditional 
commitment to long-term basic research through:

        <bullet>  Increasing federal investment in research by 10 
        percent per year (real growth) over the next seven years, with 
        primary attention devoted to the physical sciences, 
        engineering, mathematics, and information sciences--without 
        disinvesting in the biological sciences.

        <bullet>  Providing research grants to early career 
        researchers.

        <bullet>  Instituting a National Coordination Office for 
        Research Infrastructure to oversee the investment of an 
        additional $500M per year for five years for advanced research 
        facilities and equipment.

        <bullet>  Allocating at least eight percent of the existing 
        budgets of federal research agencies to discretionary funding 
        under the control of local laboratory directors.

        <bullet>  Creating an Advanced Research Projects Agency-Energy 
        (ARPA-E), modeled after DARPA in the Department of Defense, 
        reporting to the Department of Energy Under Secretary for 
        Science. The purpose of this entity would be to support on a 
        competitive basis the conduct of long-term ``out-of-the-box,'' 
        transformational, generic, energy research by universities, 
        industry and government laboratories.

        <bullet>  Establishing a Presidential Innovation Award to 
        recognize and stimulate scientific and engineering advances in 
        the national interest.

    It is critical that we assure the existence of a long-term talent 
base to pursue the needed science and engineering activity, which 
together comprises the underpinning of much of America's innovation 
enterprise. Warranting particular emphasis is the matter of encouraging 
women and minorities, now widely under-represented in the science and 
engineering community, to pursue careers in these fields. America, 
already handicapped in this global competition by its wage scale, 
cannot afford to fail to avail itself of the talents of over half its 
citizenry. The committee recommended, under the heading, ``Best and 
Brightest'':

        <bullet>  Establishing 25,000 competitive science, mathematics, 
        engineering, and technology undergraduate scholarships and 
        5,000 graduate fellowships in areas of national need for U.S. 
        citizens pursuing study at U.S. universities.

        <bullet>  Providing a federal tax credit to employers to 
        encourage their support of continuing education of their 
        employees.

        <bullet>  Providing a one-year automatic visa extension to 
        international students who receive a science or engineering 
        doctorate at a U.S. university and meet normal security 
        requirements, and providing automatic work permits and the 
        opportunity for expedited residence status if these students 
        are offered employment in the U.S.

        <bullet>  Instituting a skill-based, preferential immigration 
        option.

        <bullet>  Reforming the current system of ``deemed exports'' so 
        that international students and researchers have access to 
        necessary non-classified information and research equipment 
        while studying and working in the U.S.

    Absent decisive steps, America's business base is almost certain to 
migrate to other, more competitive countries in the years ahead--in 
fact, it is already doing so. Under such a circumstance our nation 
could find itself with some of the world's richest investors living in 
a sea of unemployment. The consequences of this for stability and 
prosperity are evident.
    Fortunately, it is not yet too late. . .but it is getting late. 
With the strong involvement of our nation's leaders, including the 
continuing support of the Members of this committee, we can assure that 
our science base remains vigorous, our K-12 educational system is 
rebuilt, our innovation infrastructure once again becomes the most 
attractive in the world--and our children are assured of an opportunity 
for a life even better than most of us have enjoyed.
    Thank you again for permitting me to address this important topic. 
I would of course be pleased to answer any questions you might have.

NATIONAL ACADEMIES ``GATHERING STORM'' COMMITTEE BIOGRAPHIC INFORMATION

NORMAN R. AUGUSTINE [NAE*] (Chair) is the retired Chairman and CEO of 
        the Lockheed Martin Corporation. He serves on the President's 
        Council of Advisors on Science and Technology and has served as 
        Under Secretary of the Army. He is a recipient of the National 
        Medal of Technology.

CRAIG BARRETT [NAE] is Chairman of the Board of the Intel Corporation.

GAIL CASSELL [IOM*] is Vice President for Scientific Affairs and a 
        Distinguished Lilly Research Scholar for Infectious Diseases at 
        Eli Lilly and Company.GQ02
STEVEN CHU [NAS*] is the Director of the E.O. Lawrence Berkeley 
        National Laboratory. He was a co-winner of the Nobel prize in 
        physics in 1997.

ROBERT GATES is the President of Texas A&M University and served as 
        Director of Central Intelligence.*

NANCY GRASMICK is the Maryland State Superintendent of Schools.

CHARLES HOLLIDAY JR. [NAE] is Chairman of the Board and CEO of DuPont.

SHIRLEY ANN JACKSON [NAE] is President of Rensselaer Polytechnic 
        Institute. She is the immediate Past President of the American 
        Association for the Advancement of Science and was Chairman of 
        the U.S. Nuclear Regulatory Commission.

ANITA K. JONES [NAE] is the Lawrence R. Quarles Professor of 
        Engineering and Applied Science at the University of Virginia. 
        She served as Director of Defense Research and Engineering at 
        the U.S. Department of Defense and was Vice-Chair of the 
        National Science Board.

JOSHUA LEDERBERG [NAS/IOM] is the Sackler Foundation Scholar at 
        Rockefeller University in New York. He was a co-winner of the 
        Nobel Prize in physiology or medicine in 1958.

RICHARD LEVIN is President of Yale University and the Frederick William 
        Beinecke Professor of Economics.

C.D. (DAN) MOTE JR. [NAE] is President of the University of Maryland 
        and the Glenn L. Martin Institute Professor of Engineering.

CHERRY MURRAY [NAS/NAE] is the Deputy Director for science and 
        technology at Lawrence Livermore National Laboratory. She was 
        formerly the Senior Vice President at Bell Labs, Lucent 
        Technologies.

PETER O'DONNELL JR. is President of the O'Donnell Foundation of Dallas, 
        a private foundation that develops and funds model programs 
        designed to strengthen engineering and science education and 
        research.

LEE R. RAYMOND [NAE] is the Chairman of the Board and CEO of Exxon 
        Mobil Corporation.

ROBERT C. RICHARDSON [NAS] is the F.R. Newman Professor of Physics and 
        the Vice Provost for research at Cornell University. He was a 
        co-winner of the Nobel Prize in physics in 1996.

P. ROY VAGELOS [NAS/IOM] is the retired Chairman and CEO of Merck & 
        Co., Inc.

CHARLES M. VEST [NAE] is President Emeritus of MIT and a Professor of 
        mechanical engineering. He serves on the President's Council of 
        Advisors on Science and Technology and is the immediate Past 
        Chair of the Association of American Universities.

GEORGE M. WHITESIDES [NAS/NAE] is the Woodford L. & Ann A. Flowers 
        University Professor at Harvard University. He has served as an 
        adviser for the National Science Foundation and the Defense 
        Advanced Research Projects Agency.

RICHARD N. ZARE [NAS] is the Marguerite Blake Wilbur Professor of 
        Natural Science at Stanford University. He was Chair of the 
        National Science Board from 1996 to 1998.

    * subsequently became Secretary of Defense

                   Biography for Norman R. Augustine
    NORMAN R. AUGUSTINE was raised in Colorado and attended Princeton 
University where he graduated with a BSE in Aeronautical Engineering, 
magna cum laude, and an MSE. He was elected to Phi Beta Kappa, Tau Beta 
Pi and Sigma Xi.
    In 1958 he joined the Douglas Aircraft Company in California where 
he worked as a Research Engineer, Program Manager and then Chief 
Engineer. Beginning in 1965, he served in the Office of the Secretary 
of Defense as Assistant Director of Defense Research and Engineering. 
He joined LTV Missiles and Space Company in 1970, serving as Vice 
President, Advanced Programs and Marketing. In 1973 he returned to the 
government as Assistant Secretary of the Army and in 1975 became Under 
Secretary of the Army, and later Acting Secretary of the Army. Joining 
Martin Marietta Corporation in 1977, he served as Chairman and CEO from 
1988 and 1987, respectively, until 1995, having previously been 
President and COO. He served as President of Lockheed Martin 
Corporation upon the formation of that firm in 1995, and became its CEO 
in January 1996, and later Chairman. Upon retiring from Lockheed Martin 
in August 1997, he joined the faculty of the Princeton University 
School of Engineering and Applied Science where he served as Lecturer 
with the Rank of Professor until July, 1999.
    Mr. Augustine was Chairman and Principal Officer of the American 
Red Cross for nine years, Chairman of the National Academy of 
Engineering, President and Chairman of the Association of the United 
States Army, Chairman of the Aerospace Industries Association, and 
Chairman of the Defense Science Board. He is a former President of the 
American Institute of Aeronautics and Astronautics and the Boy Scouts 
of America. He is a current or former member of the Board of Directors 
of ConocoPhillips, Black & Decker, Procter & Gamble, of which he is 
Presiding Director, and Lockheed Martin and is a member of the Board of 
Trustees of Colonial Williamsburg, a Trustee Emeritus of Johns Hopkins 
and a former member of the Board of Trustees of Princeton and MIT. He 
is a member of the Advisory Board to the Department of Homeland 
Security, was a member of the Hart/Rudman Commission on National 
Security, and has served for 16 years on the President's Council of 
Advisors on Science and Technology. He is a member of the American 
Philosophical Society and the Council on Foreign Affairs, and is a 
Fellow of the National Academy of Arts and Sciences and the Explorers 
Club.
    Mr. Augustine has been presented the National Medal of Technology 
by the President of the United States and received the Joint Chiefs of 
Staff Distinguished Public Service Award. He has five times received 
the Department of Defense's highest civilian decoration, the 
Distinguished Service Medal. He is co-author of The Defense Revolution 
and Shakespeare In Charge and author of Augustine's Laws and 
Augustine's Travels. He holds 21 honorary degrees and was selected by 
Who's Who in America and the Library of Congress as one of ``Fifty 
Great Americans'' on the occasion of Who's Who's fiftieth anniversary. 
He has traveled in over 100 countries and stood on both the North and 
South Poles of the Earth.

    Chairman Gordon. Thank you, Mr. Augustine, for your 
testimony, more importantly, your long-term commitment to our 
country.
    Next, Mr. Harold Terry McGraw III is Chairman, President, 
and CEO of McGraw-Hill Companies. I guess when your name is on 
the front door, you can do whatever you want. He does it well, 
and is also the Chairman of the Business Roundtable, as well as 
the President of the Committee Encouraging Corporate 
Philanthropy.
    Thank you, Mr. McGraw, for joining us today.

   STATEMENT OF MR. HAROLD MCGRAW III, CHAIRMAN AND CEO, THE 
      MCGRAW-HILL COMPANIES; CHAIRMAN, BUSINESS ROUNDTABLE

    Mr. McGraw. Well, thank you, Mr. Chairman, and Ranking 
Member Hall, and Members of the Committee, and thank you for 
the leadership and the ideas that are embodied in H.R. 362 and 
H.R. 363. The CEOs of the Business Roundtable are very much in 
support of your work.
    In 2005, the Business Roundtable and 14 other national 
business associations created the Tapping America's Potential 
campaign, with the goal of doubling the number of American 
science, technology, engineering, and mathematics graduates by 
2015. We believe that expanding the talent pool is the critical 
element of the innovation agenda that America must pursue in 
order to remain competitive, and it is all about 
competitiveness.
    America has a tremendous record of success and growth any 
way that you look at it, in economic terms, in technological 
terms, medical terms, any way. The United States has a $13.2 
trillion economy, which is bigger than any other country by a 
wide margin. But to keep moving ahead in our changing and 
increasingly very competitive world, everyone, young and old, 
needs a roadmap to find their way.
    Business and government together need to help every 
American locate avenues to continually upgrade their skills and 
knowledge so that they can succeed. Education and lifelong 
learning are essential for a better life and a brighter future 
for America. Census data tells us that people with bachelor's 
degrees can earn more than twice as much as those with only a 
high school diploma, and three times more than a high school 
dropout.
    Alliance for Excellent Education research shows that if the 
dropouts from the class of 2006 earned diplomas instead of 
dropping out, our economy would see an additional $309 billion 
in wages over those students' lifetimes. The economic impact of 
increasing our graduation rate is staggering to the individual 
and the economy as a whole. Johns Hopkins University research 
shows that half of our dropouts, half of our dropouts in this 
country come from 2,000 of our 14,000 high schools. We can get 
at half that problem if we just focus on those 2,000.
    Your committee has been working on two important bills that 
would provide critical support for the foundation of America's 
innovation system. We endorse those bills, and let me tell you 
why. Our economy stands at a critical juncture. The United 
States is still, again, the world's economic leader, but that 
lead could slip. Powerful economic rivals have emerged, and 
these competitors are investing in innovation. Meanwhile, our 
federal support for research has declined, relative to the size 
of our economy.
    In business, research is an investment pegged to sales or 
revenues, but federal funding for R&D has declined from 1.25 
percent of GDP to 0.75 percent today. Imagine if a high-tech 
company invested in R&D at such a rate. Should we be investing 
in our children's future at a high-tech rate, or at least a 
greater rate than we do now, and if so, what should that rate 
be?
    Also, demands of the workplace are increasing. The number 
of jobs requiring technical training is growing at five times 
the rate of non-technical jobs, but the U.S. education system 
is not keeping pace. More than half of the U.S. students 
entering college drop out before earning a degree, and the most 
recent data from the National Assessment of Educational 
Progress exams, NAEP, reveals that high school seniors' reading 
performance over the past decade actually declined, and 
according to NAEP, less than one quarter of seniors perform at 
their grade level or above in math.
    The American people understand that the competitive 
landscape is changing. Today's challenge is about maintaining 
the higher standard of living Americans have come to expect. 
That means creating more high wage jobs in high value-added 
industries here in America. And it means preparing all of our 
citizens to compete and to succeed in the global economy. The 
key to our competitiveness challenge is innovation. Innovation 
drives productivity growth, creates new products, even whole 
new industries, and generates high wage employment and a higher 
standard of living for all Americans.
    Productivity gains have created a new economic paradigm, 
enabling the Fed to maintain a generally accommodative interest 
rate policy in the face of strong economic growth, without 
triggering inflation. It is time to implement the 
recommendations of the Gathering Storm report, and Tapping 
America's Potential report. We appreciate the work this 
committee is doing to press forward.
    And finally, innovation is all about talent. In a world 
where natural resources, capital, and unskilled labor are all 
globally available, it is the well educated, skilled, and 
creative individual who will make the difference in economic 
performance. That is why the business community's innovation 
recommendations focus on education.
    Today, American business and higher education leaders 
released the American Innovation Proclamation, urging Congress 
to double basic research at key federal science agencies, 
increase the funding of proven programs and incentives for math 
and science teacher recruitment and professional development, 
welcome highly educated foreign professionals, particularly 
those holding advanced science and technology degrees, 
especially from U.S. universities, by reforming our visa 
policies, and of course, our H-1B visa programs, and make 
permanent a strengthened R&D tax credit to encourage continued 
private sector innovation investment. And I am proud to be a 
signatory on this Proclamation, along with so many other 
business leaders who believe so much in what you are doing.
    And in conclusion, it is worth noting that the forces 
driving economic integration and global competition were all 
invented here. America is in the best position to take 
advantage of the changing landscape and to continue to lead the 
world in these areas, so long as we recognize the challenges we 
face, we maintain the right focus on education, and invest 
where necessary to ensure that Americans succeed in the new 
environment.
    Mr. Chairman, it is up to us to ensure that the 21st 
Century is the next American Century, and with your help and 
the Members of this committee, we will do just that.
    Thank you.
    [The prepared statement of Mr. McGraw follows:]
                Prepared Statement of Harold McGraw III
    Mr. Chairman, Ranking Member Hall, Members of the Committee. Good 
afternoon. My name is Terry McGraw, Chairman, President, and CEO of The 
McGraw-Hill Companies.
    I welcome the opportunity to appear before you today to address the 
vitally important issues of innovation and competitiveness not only on 
behalf of The McGraw-Hill Companies, but also as Chairman of Business 
Roundtable.
    The McGraw-Hill Companies is a global information services provider 
headquartered in New York. We employ 20,000 people in 280 offices in 40 
countries worldwide. You know us best through the McGraw-Hill imprint 
in education, Standard & Poor's, J.D. Power and Associates and Business 
Week.
    Business Roundtable (www.businessroundtable.org) is an association 
of chief executive officers of leading U.S. companies with $4.5 
trillion in annual revenues and more than 10 million employees. Member 
companies comprise nearly a third of the total value of the U.S. stock 
markets and represent over 40 percent of all corporate income taxes 
paid. Collectively, they returned $112 billion in dividends to 
shareholders and the economy in 2005.
    Roundtable companies give more than $7 billion a year in combined 
charitable contributions, representing nearly 60 percent of total 
corporate giving. They are technology innovation leaders, with $90 
billion in annual research and development spending--nearly half of the 
total private R&D spending in the U.S.
    Both McGraw-Hill and Business Roundtable are passionate about 
innovation. In 2005, Business Roundtable, together with fourteen other 
national business associations, created the Tapping America's Potential 
campaign, or TAP, with the goal of doubling the number of American 
science, technology, engineering and mathematics graduates with 
Bachelor's degrees by 2015. We believe that expanding the talent pool 
is a critical element--perhaps the critical element--of the innovation 
agenda that America must pursue in order to remain competitive in the 
21st Century.
    The McGraw-Hill Companies has a deep commitment to education and 
lifelong learning. In our rapidly changing and highly competitive 
world, every individual--young and old alike--needs a roadmap, a Global 
Positioning System if you will, to find their way. Not to find a 
location on a map or to provide driving directions, but to chart a 
course to succeed in our increasingly globalized society. Both business 
and government need to help every American locate avenues to 
continually upgrade their skills and knowledge. But it is a two-way 
street--every American also needs to recognize the importance of 
lifelong learning. For students it is particularly important to help 
them understand the important role that science, technology, 
engineering and math play in keeping routes open in their own global 
positioning system.
    The McGraw-Hill Companies believe that education and lifelong 
learning are essential for a better life for all Americans. In the 
broader sense, education also is essential for a brighter future for 
America. U.S. Census data tells us that people with Bachelor's degrees 
have more than twice the average annual earnings of those with only a 
high school diploma and three times more than high school dropouts.
    Business Roundtable endorses the Science and Technology Committee's 
bills, H.R. 362, ``10,000 Teachers, 10 Million Minds'' Science and Math 
Scholarship Act, and H.R. 363, Sowing the Seeds Through Science and 
Engineering Research Act. These bills, if enacted, would provide 
critical support for the foundations of America's innovation system. 
They represent essential components of a broader innovation and 
competitiveness agenda that Business Roundtable believes must be 
enacted this year. I commend the Committee for moving the legislation 
forward. Now, let me tell you why I think that is so important.
    The U.S. economy stands at a critical juncture. While the United 
States is still the world's economic leader, that lead is slipping.

        <bullet>  Powerful global economic rivals have emerged, some of 
        which were minor competitors only a decade ago.

        <bullet>  These competitors are investing in innovation. For 
        example, China more than doubled its research and development 
        spending as a percentage of gross domestic product (GDP) from 
        0.6 percent in 1995 to 1.4 percent today. This, during a time 
        of very rapid GDP growth.

        <bullet>  Meanwhile, in the United States, federal support for 
        research has declined relative to the size of the economy. In 
        business, we think of research as an investment that should be 
        pegged to sales or annual revenue, but federal funding for 
        research and development has declined from 1.25 percent of GDP 
        in 1985 to 0.75 percent today. Imagine if a high tech company, 
        for example, invested in R&D at such a rate. Shouldn't we be 
        investing in our children's future at a high tech rate, or at 
        least at a greater rate than we do now?

        <bullet>  The demands of the workplace are increasing. The 
        number of jobs requiring technical training is growing at five 
        times the rate of non-technical occupations.

        <bullet>  But the U.S. educational system is not keeping pace. 
        More than half of U.S. students entering college will drop out 
        before earning a degree. The United States ranks 17th in the 
        world in the proportion of the college-age population earning a 
        science or engineering degree.

        <bullet>  And just a few weeks ago, the most recent data from 
        the National Assessment of Educational Progress exams revealed 
        that high school seniors' reading performance over the past 
        decade actually declined. And according to the NAEP, less than 
        one quarter of seniors perform at their grade level or above in 
        math.

    The American people understand that the competitive landscape is 
changing. A poll commissioned by Business Roundtable in late 2005 
showed that Americans are confident about the competitive position of 
the United States today, but unlike a decade ago when they believed 
that the United States would continue to be the world's economic 
leader, Americans now think that the United States will lose its 
competitive advantage in the future.
    Like the public at large, Business Roundtable CEOs do not take 
America's leadership position for granted. Because our companies' 
operations are global, we see firsthand how rapidly other countries are 
improving their competitive position. Business Roundtable is confident 
of America's ability to compete and win in global markets but we know 
that past success is no guarantee of future performance.
    Today's competitiveness challenge is about maintaining the higher 
standard of living Americans have come to expect in a flatter world 
with more nimble competitors. That means creating more high-wage jobs 
in high-value-added industries here in America. And it means preparing 
all of our citizens to compete and succeed in the global economy.
    The key to America's competitiveness challenge is innovation. 
Technological innovation drives productivity growth. It creates new 
products and processes--even whole new industries--thereby generating 
high-wage employment and a higher standard of living for all Americans. 
Productivity gains have enabled the U.S. economy to grow in recent 
years at rates that previously had been considered likely to trigger 
inflation. The recent strong growth, low inflation environment is 
attributable to the extraordinary gains in productivity that the U.S. 
economy has enjoyed since the mid 1990s.
    Economists estimate that fifty percent of productivity growth comes 
from innovation. A study by economists Kevin Hassett and Robert 
Schapiro found that the value of ideas and innovation generated by the 
U.S. economy is more than $5 trillion a year--some 42 percent of our 
GDP.
    The wellsprings of innovation require constant nurturing, and 
maintaining U.S. innovation leadership demands hard work and 
investment.
    We can meet this challenge.
    Frankly, as a nation we have been too complacent. It has been 18 
months since the National Academies released the Gathering Storm 
report. In addition, nearly two years ago, Business Roundtable and 14 
other national business associations issued the Tapping America's 
Potential report that contained recommendations to double federal 
investments in fundamental research, reform visa and green card 
policies to welcome the best and the brightest from around the world, 
and improve U.S. K-12 math and science education by focusing on 
recruiting and training a greater number of qualified teachers.
    As I mentioned earlier in my testimony, the Tapping America's 
Potential campaign adopted one strategic and overarching goal: to 
double the number of science, technology, engineering and mathematics 
graduates with Bachelor's degrees by 2015.
    It is time to pass legislation and start implementing the 
recommendations. We appreciate the good work this committee is doing to 
press forward.
    Innovation is all about talent. In a world where natural resources, 
capital, and unskilled labor are all globally available, it is well-
educated, skilled, and creative individuals who make the difference in 
economic performance. That is why Business Roundtable and our TAP 
campaign partners have focused on education as the first among equals 
of the key elements of the business community's innovation 
recommendations. More than any other aspect of our innovation system, 
education is the potential Achilles heel for future U.S. economic 
competitiveness.
    Mr. Chairman, as you know, America's competitiveness challenge has 
galvanized the business community. Just this afternoon, a broad 
coalition of American business and higher education leaders released 
the American Innovation Proclamation, which calls upon Congress to 
enact an innovation agenda to:

        <bullet>  One, renew America's commitment to discovery by 
        doubling basic research at four key federal science agencies.

        <bullet>  Two, improve U.S. student achievement in math and 
        science through increased funding of proven programs and 
        incentives for math and science teacher recruitment and 
        professional development.

        <bullet>  Three, welcome highly educated foreign professionals, 
        particularly those holding advanced science, technology, 
        engineering, or mathematics degrees, especially from U.S. 
        universities, by reforming U.S. visa policies. We need to boost 
        the number of H-1B visas beyond the very low level of only 
        65,000.

        <bullet>  And four, make permanent a strengthened R&D tax 
        credit to encourage continued private-sector innovation 
        investment.

    I am proud to be a signatory on this proclamation, along with some 
of my fellow panelists here. I believe that it embodies the right 
agenda for America. It is a positive agenda, which, if enacted, would 
open up new opportunities for America and her citizens. Of course, 
there are additional agenda items that Congress must address to ensure 
U.S. competitiveness. They include opening access to new markets, 
reducing health care costs, and reauthorizing a strengthened No Child 
Left Behind Act, among others. However, I will save that discussion for 
another day.
    It is worth noting that the forces driving economic integration and 
global competition were all invented here. More than any other country, 
the United States created the conditions for global economic growth 
driven by accelerated technological innovation. America is in the best 
position to take advantage of the changing competitive landscape as 
long as we recognize the challenges we face and make the investments 
required to succeed in the new environment.
    Mr. Chairman, it is up to us to ensure that the 21st Century is the 
next American Century. With your help, and the help of all of the 
Members of the Committee on Science and Technology, we will do just 
that.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Biography for Harold McGraw III
    Harold McGraw III was elected Chairman of The McGraw-Hill Companies 
in December 1999; Chief Executive Officer in 1998; and President and 
Chief Operating Officer in 1993. He has been a member of The McGraw-
Hill Companies' Board of Directors since 1987.
    Mr. McGraw has led a transformation of the Corporation, 
consolidating 15 diverse units into three focused business segments, 
each one a market leader. In Financial Services, Standard & Poor's is 
the world's leading provider of financial analyses and risk 
assessments. In Education, McGraw-Hill Education is a leader in the 
U.S. K-12 education market as well as in the higher education and 
professional markets. And in Information & Media, the Corporation is a 
preeminent provider of essential news, information, analysis and 
solutions globally through Business Week, J.D. Power and Associates and 
leading portals for the energy, construction and aviation industries.
    The McGraw-Hill Companies had sales of $6.3 billion in 2006. The 
Corporation has a strong history of growth. Over the last 10 years, it 
has outperformed the S&P 500, producing an annualized total return of 
21.5 percent versus 8.4 percent for the S&P 500.
    Mr. McGraw, 58, joined The McGraw-Hill Companies in 1980 and has 
held a number of positions with increasing responsibilities, including 
Vice President, Corporate Planning; publisher, Aviation Week & Space 
Technology; President, McGraw-Hill Publications Company; and President, 
McGraw-Hill Financial Services Company.
    He serves on the Board of Directors of United Technologies and 
ConocoPhillips. He is Chairman of Business Roundtable, Chairman of the 
Emergency Committee for American Trade (SCAT) and a member of the 
Business Council. Mr. McGraw is a member of the State Department's 
Advisory Committee on Transformational Diplomacy and he also served as 
a member of President George W. Bush's Transition Advisory Committee on 
Trade.
    Mr. McGraw is Chairman of the Committee Encouraging Corporate 
Philanthropy. He is also Co-Chair of Carnegie Hall's Corporate 
Leadership Committee and a member of its Board of Trustees. 
Additionally, Mr. McGraw serves on the boards of the National Council 
on Economic Education, New York Public Library, National Organization 
on Disability, National Academy Foundation, Partnership for New York 
City, and Prep for Prep.
    Mr. McGraw received an M.B.A. from the Wharton School of the 
University of Pennsylvania in 1976 and a B.A. from Tufts University in 
1972.

    Chairman Gordon. Thank you, Mr. McGraw.
    And now we have Dr. Robert Dynes, who is President of the 
University of California. Dr. Dynes is also Professor of 
Physics and Material Science at the University. And before 
coming to the University of California, he had a 22-year career 
at the AT&T Bell Laboratories and, in 1989, was elected to the 
National Academies of Science.
    Thank you, Dr. Dynes.

  STATEMENT OF DR. ROBERT C. DYNES, PROFESSOR OF PHYSICS AND 
     MATERIAL SCIENCE; PRESIDENT, UNIVERSITY OF CALIFORNIA

    Mr. Dynes. Good afternoon, Mr. Chairman. Mr. Chairman, 
Ranking Member Hall, and other Members of the Committee, thank 
you for the opportunity to testify on this important issue of 
science and technology leadership in the 21st Century.
    I want to first specifically recognize Chairman Gordon and 
Norm Augustine for their leadership in bringing us to this 
point. It is an honor to be with these distinguished folks on 
the panel. My written testimony, which I have submitted for the 
record, outlines the University of California's vision for 
ensuring strong competitiveness in California and in the U.S. 
My job is to keep California competitive.
    My vision rests on three planks. One, fueling innovation 
and boosting the Nation's economy by leading in RD&D, research, 
development, and a second D: delivery, which is the delivery of 
the products of the university to society, and delivery of 
educated, motivated innovators to our society.
    Two, forging strategic alliances with the best and 
brightest minds around the world to solve global problems that 
confront all societies for our benefit. Three, enhancing the 
quality of California's future workforce by tackling the crisis 
in K-12 education. This afternoon, I will provide a snapshot of 
a program at the University of California that speaks to the 
third plank.
    This exciting program, which we call the Science and Math 
Initiative, or 1,000 Teachers, a Million Minds, is one of the 
models for your national program, the 10,000 Teachers, 
10,000,000 Minds, which was outlined in the National Academies 
report and your legislation, H.R. 362.
    My own motivation for this priority came from my many 
travels throughout California, where I encountered entire 
schools and entire school districts where there wasn't a single 
credentialed science and math teacher in the school.
    Mr. Chairman, you have called upon us to recognize the 
challenges we face in research, and most especially, in 
education of our youth in mathematics and science. Your 
legislation creates an excellent model for research 
universities, and I say research universities, to implement 
that vision. And we at the University of California are 
stepping up to that plate to create a pipeline of math and 
science innovators for the Nation's future, and teachers for 
the Nation's future.
    The Science and Math Initiative is one of my highest 
priorities as President of the University of California. It has 
personal significance for me, because I was a first generation 
college student, transformed by math and science education way 
back in the Sputnik era. The components of the University's 
initiative are described in more detail in my written 
testimony, but essentially, we must pay attention to three 
elements to develop good teachers.
    One, recruit UC students who are majoring or considering 
majoring in science and math to be teachers. Two, provide these 
students with innovative curricula that rely on the expertise 
of our faculty in science, math, and education. Three, offer 
incentives to attract and retain these students as teachers, 
including a streamlined path to certification and financial 
incentives, such as loan forgiveness and paid summer 
internships. (We need to support these young people, even after 
they are in the teaching workforce.)
    The University of California Deans who direct the Campus 
Science and Math Initiative, along with the faculty of science 
and mathematics departments and our departments of education 
are energized, are committed, and are working together. This 
may sound like a no-brainer to you, but it is quite novel to 
have the science faculty working with the School of Education 
on teacher training.
    Attached to my written testimony is an example from UC-
Berkeley of the new curriculum they are developing, which 
blends cutting-edge content knowledge in the sciences, 
including lab and field experiences, with distinctive new 
pedagogy, specifically suited to convey this knowledge to young 
students. We supplement the program with a field experience 
course. We actually put freshmen out in teaching environments. 
These field experiences continue for four years, where students 
work in local schools, under the supervision of mentors or 
master teachers, and they meet regularly in small seminars to 
discuss the experiences, and learn from each other.
    Our early research on this field-experience course has 
demonstrated that it has a profound effect on student 
aspirations. Many intensify their commitment to teaching, and 
many find that their interest deepens in various aspects of 
their own science and math, as they work with students. 
Teaching science motivates a deeper understanding of science, 
and everybody in the University knows that. Some of them also 
discover that teaching is not for them, which is important to 
learn as early as possible.
    One of the strengths of the California Higher Education 
Master Plan is that many students transfer to UC from the 
community colleges, and this provides a rich source for future 
teachers. This academic year, as many as 100 community college 
freshmen are involved in the same field experiences as our UC 
freshmen. These parallel experiences allow them to transition 
smoothly when they transfer to UC later. We are now in the 
second year of the SMI program, developing our model 
simultaneously on all nine of our general campuses. 
Collectively, our campuses provide an excellent laboratory for 
testing different approaches to meet our program goals. We are 
inventing this as we go along, and by the year 2010, we are 
committed to producing 1,000 science and math teachers per year 
for the State of California.
    While each of the campuses approaches this program 
differently, there are several common elements that we believe 
will lead to success, and those are described in my written 
testimony. We learn best practices from looking at all nine 
campuses.
    At all the campuses, the students gain a deep grounding in 
their math and science majors, and every student has early 
field experience, and an expeditious pathway to teacher 
certification. To date, more than 600 students are enrolled in 
the SMI on our campuses, nearly 1,000 student placements have 
occurred in schools for field experiences, and we are involved 
with 467 teachers, 174 schools, and 41 districts across 
California. This is now the second year we are into it. It is 
growing rapidly.
    I am also happy to report that the Science and Math 
Initiative has attracted enormous enthusiasm and support from 
both the public and the private sectors. The vigorous support 
of Governor Schwarzenegger and the state legislature has been 
instrumental in the program's strong start, and to date, 
corporate and foundation funding is over $4 million. I am 
especially grateful to several of our corporate major sponsors, 
including Intel, and I personally thank Craig Barrett for 
leading Intel to support us on this program.
    I want to thank you for introducing H.R. 362, and I offer 
the University's support for your efforts. This bill will 
greatly assist programs like ours, and we look forward to 
working with your staff on a few modifications that we believe 
are necessary to make this as flexible as possible.
    As a physicist, I look for things that are scalable. This 
program is scalable. It can work in school districts, it can 
work in the State, it can work in the Nation. H.R. 362 will 
allow expansion of the Science and Math Initiative concept from 
California to the Nation, and also, focus more broadly on other 
elements essential to improving K-12 math and science 
education.
    H.R. 362 is premised on students graduating with a science 
or math degree and teaching credential within four years. 
However, as we have developed down this path, many of our best 
students take a little longer to complete a science and math 
degree. The Science and Math Initiative streamlines the 
credentialing process, but because of varying teacher licensure 
requirements, especially in California, additional postgraduate 
training is often necessary.
    We would like to see the legislation amended to allow 
flexibility in creating integrated programs that streamline the 
process to obtaining a Bachelor's or Master's degree and a 
teaching credential.
    We look forward to working with you and your staff to enact 
this legislation. In addition, we need the Congress and the 
President to address federal resources in this endeavor. UC 
can, and I emphasize will, increase the number of science and 
math teachers who are trained, qualified, skilled, and equally 
importantly, passionate about science and mathematics. However, 
we need sustained, long-term commitment from our current 
partners and the Federal Government to realize our intended 
effects.
    Finally, let me give you an example of the value of this 
program, and I share the words of one of our Science and Math 
Initiative students, who is out in the classroom. ``After 
completing field work in the classroom, I knew teaching was for 
me. It made me realize the passion I had to help others, and at 
that point, I knew I wanted to make it a career.''
    Thank you.
    [The prepared statement of Dr. Dynes follows:]
                 Prepared Statement of Robert C. Dynes

UC's Missions as a Land-Grant University

    Chairman Gordon, Ranking Member Hall, and other Members of the 
Committee, I am Robert C. Dynes, President of the University of 
California. I want to thank you for inviting me to testify, and I want 
to give special thanks to Chairman Gordon and Norm Augustine for their 
leadership and support in seeking to enhance U.S. competitiveness 
through targeted investments in university research and in science and 
mathematics education. I am pleased to have this opportunity to share 
the University of California's vision in this crucially important task.
    Mr. Chairman, your invitation asked me to comment on your 
legislation that implements recommendations from the National Academy 
of Sciences' report ``Rising Above the Gathering Storm'' and also to 
describe the University of California's Science and Mathematics 
Initiative, which is one of the models for the recommendation to create 
a national program called ``10,000 teachers, 10 million minds.''
    The report rightly and forcefully draws our attention to the 
challenges we face in research and most especially in the education of 
our youth in mathematics and science. In the past, America's colleges 
and universities have played a vital role in stimulating the innovation 
and creativity that drives economic development. This role of higher 
education in the future is likely to be even greater as the world 
becomes even more competitive.
    As one of the Nation's most distinguished land-grant universities, 
the University of California has always had a tradition of employing 
its research and teaching capacity to address our state's and nation's 
economic and social challenges. In the 19th century, those challenges 
were in agriculture and mining (food and resources). Today, 
universities must build our nation's capacity for innovation, with 
greater urgency than ever before. Innovation in science and technology 
is the engine that will drive the 21st century economy, and the 
University of California is poised to play a major role in this effort.

Looking Ahead: Vision for Future of UC and California

    My vision for how the University of California will do its part to 
keep the U.S. and California competitive in the new global knowledge-
based economy builds on the land-grant research university's tripartite 
mission of research, education, and public service. A simple way to 
describe those three missions is:

        <bullet>  Research: Create new ideas.

        <bullet>  Education: Create new leaders and creators.

        <bullet>  Public service: Put these creations and people to 
        work to benefit all citizens.

    We believe that in carrying out these three missions--through 
research, education, and public service--the University must continue 
to contribute, as it has done to such great effect in the past, to 
California's ongoing achievement as one of the world's most creative 
laboratories for new ideas and better lives for the entire Nation.
    At UC, we have been undertaking new efforts at long-range thinking 
and planning, trying to envision what the University should be in 2025 
and what we need to do now to get there. That process has led to a 
number of initiatives within the University to build on the advantages 
we have as the Nation's largest research university with multiple 
campuses and a multitude of institutional and disciplinary strengths.
    My own vision for the future of the University of California--and 
the State of California--focuses on three main efforts where we can 
harness the promise and power of our 10 campuses as one university most 
effectively. Those efforts are:

        <bullet>  RD&D Innovation: First, we will fuel innovation and 
        ramp up the State's economy by leading the Nation in RD&D--
        research, development, and delivery of new products to end-
        users for society's benefit.

        <bullet>  Strategic Global Alliances: Second, we are forging 
        strategic alliances with the best and brightest minds around 
        the globe to solve problems that confront all societies. In the 
        process, we will lure some of those best and brightest to the 
        University so they can work for the benefit of California and 
        the Nation.

        <bullet>  Improving K-12 Education, especially in Science and 
        Math: Third, we will enhance the quality of California's and 
        the Nation's future workforce by tackling the crisis in K-12 
        education--not just bemoaning it, but actually doing something 
        about it.

    The Science and Mathematics Initiative (SMI) or ``Cal Teach'' is an 
important piece of this last effort. We need many more science and 
mathematics majors to choose teaching in K-12 schools as their ultimate 
career. However, it is not the only piece. Public research universities 
must do more to transform math and science teaching in ways that will 
ensure future generations of Americans are offered educational 
opportunities that exceed those of past generations.
    In this testimony, I will further describe these three initiatives, 
and I will point out which of the recommendations from The National 
Academy of Sciences' ``Rising Above the Gathering Storm'' report and 
the Chairman's legislation can help us in each of these efforts.

RD&D Innovation

    We entered the era of research, development, and delivery on 
September 11, 2001, when we watched first responders trying--and 
failing--to communicate with each other at the World Trade Center. As a 
techie, I knew we had the communications technology. But the fire crews 
and the police and the rescue workers were never given that technology.
    As UC President, I have vowed that this University will lead the 
Nation in RD&D advancements. That leadership is centered in our four 
California Institutes for Science and Innovation. They are changing the 
way universities operate, and they represent a new algorithm for 
university tech transfer.
    Each Institute embodies ``the promise and power of our 10 
campuses'' by linking two or more UC campuses with industry partners to 
focus on an area with vast RD&D potential, like nanotechnology, 
biotechnology, information technology, and telecommunications.
    Each Institute is briefly described below.

        <bullet>  The California Institute for Quantitative Biomedical 
        Research (QB3): UC-San Francisco leads this partnership with 
        UC-Berkeley and UC-Santa Cruz. QB3 is developing new 
        technologies and new areas of research for drug discovery and 
        for the diagnosis and treatment of cancer, arthritis, and other 
        diseases through the convergence of mathematics, engineering, 
        and physical sciences with biomedical and genome research.

        <bullet>  The California NanoSystems Institute (CNSI): UCLA 
        leads this partnership with UC-Santa Barbara. CNSI is creating 
        laboratories for research, education and technology development 
        in the emerging field of nanoscience--the study and design of 
        materials and functional machines at the level of individual 
        molecules and atoms.

        <bullet>  The California Institute for Telecommunications and 
        Information Technology (Calit2): UC-San Diego leads this 
        partnership with UC-Irvine that has built effective inter-
        campus collaborations and new paradigms for performing multi-
        disciplinary research and education. Calit2 is defining 
        worldwide and community-based networking scenarios to serve a 
        broad spectrum of RD&D areas and global societal needs.

        <bullet>  The Center for Information Technology Research in the 
        Interest of Society (CITRIS): UC-Berkeley leads this 
        partnership with UC-Davis, UC-Santa Cruz, and UC-Merced. CITRIS 
        is changing the way researchers collect, share, and utilize 
        data, and it will transform decision-making in government and 
        commerce by delivering new kinds of vital data for rapid 
        analyses to save lives and dollars. The original focus of this 
        research center was on six societal-scale applications of 
        information technology--energy efficiency, transportation, 
        earthquake preparedness, environmental monitoring, health care 
        and education--but it was recently expanded to include special 
        initiatives in Homeland Defense and Cultural Research.

    In partnership with the State and with industry, including more 
than 400 companies, the four Institutes engage UC's world-class faculty 
directly with California companies in tackling large-scale issues 
critical to California's economy and to its citizens' quality of life. 
Information technology, telecommunications, nanotechnology, biology, 
health care, traffic congestion, environmental management, homeland 
security, and novel energy systems are among the areas of focus for new 
research within these Institutes. The Institutes are taking ideas 
beyond theory into practice, shortening the time to product development 
and job creation.
    On December 27, our RD&D mission received a huge boost with the 
news of California Governor Arnold Schwarzenegger's Research and 
Innovation Initiative. Governor Schwarzenegger proposed nearly $95 
million in the State budget--$25 million from the general fund and $70 
million from lease revenue bonds--for the four Institutes and for other 
major UC projects that will boost our economy and preserve our 
environment through RD&D of new innovations.
    Specifically, the Governor's Budget proposed $30 million in lease 
revenue bonds to the Helios Project, run by the University's Lawrence 
Berkeley National Laboratory to create sustainable, carbon-neutral 
sources of energy, including the next generation of super-efficient 
solar energy technology that will help reduce greenhouse gases and oil 
dependency.
    It also included $40 million in lease revenue bonds for UC in the 
event that one of its campuses won the global competition for British 
Petroleum's $500 million grant to build and operate an Energy 
Biosciences Institute. The Institute will focus on converting biomass 
materials into fuels, converting fossil fuels to energy with less 
environmental damage, and maximizing oil extraction from existing wells 
in environmentally sensitive ways. February 1 brought more good news 
with the announcement that UC-Berkeley and the Lawrence Berkeley 
National Lab, in partnership with the University of Illinois at Urbana-
Champaign, did win this global competition. Their new venture has the 
potential to revolutionize energy usage in this country.
    I should emphasize here that, in all these undertakings, RD&D is 
being carried out by faculty AND students. UC students learn to be 
innovators by taking part in the creative process as students, both 
graduate students and undergraduates. That is the best kind of 
education you can give to a bright young person.

The National Academy of Sciences' ``Rising Above the Gathering Storm'' 
                    Report/H.R. 363 recommendations that will help 
                    research universities carry out RD&D:

    I will not go into detail about each of the recommendations that is 
now in H.R. 363, but let me note here that implementation of that 
legislation would be of tremendous assistance in helping public 
research universities like ours. Annual 10 percent increases in federal 
support for peer-reviewed competitive research would help provide 
needed stability to plan future research endeavors.
    In particular, the University strongly supports the provision that 
would designate a percentage of funding dedicated to high-risk, high-
payoff research projects. While undefined in the bill, the term ``high-
risk, high-payoff'' is widely understood and supported in the 
scientific community. This approach generally refers to research that 
has the goal of exploring concepts that have the potential for huge 
impacts but that might also have a chance of failure.
    Any successful enterprise that grows in size will tend to stick to 
proven methods. However, as global competition increases, we need to 
make sure the U.S. does not become overly complacent in how it funds 
research. Encouraging the federal research funding agencies to support 
cutting-edge research that pushes the boundaries of disciplines is a 
wise long-term strategy. Inevitably, there will be many examples where 
taking such chances does not pay off, but in the long run, just as 
high-tech industry depends on venture capital to progress, we need to 
create the resources for scientists to take risks that lead to major 
advances in science and technology.
    Similarly, we need to take risks on promising individuals in the 
sciences. I strongly support the proposals to provide large awards to 
the most promising researchers. This will ensure that some of the best 
and brightest minds stay in academia long enough to make a difference 
in the overall enterprise.
    And of course, we strongly support more federal support for 
research infrastructure--for facilities and specialized 
instrumentation.

Strategic Global Alliances

    I believe we must view the progress of other nations as an 
opportunity for our own nation's development and not as a threat. We 
must harness the best minds from different societies to tackle common 
problems.
    On the international front, the UC's push to forge strategic global 
alliances is driven in large part by leaders from industry and 
government who want California to maintain its competitive edge. You 
don't do that by building walls and staying in your own yard. You do 
that by being open to new ideas from people of diverse cultures and 
different perspectives.
    The University of California is expanding its global presence as 
close as Canada and Mexico and as far away as China, India and Africa. 
Other societies grapple with the same problems we do in public health, 
energy and transportation, and the environment. Top universities in 
those societies are putting their best minds to work on these problems. 
Shouldn't we harness our best minds with theirs to tackle these 
problems and create innovative solutions?
    This concept has taken me to China twice to launch a ``10 + 10'' 
alliance of our 10 UC campuses and China's top 10 universities. On both 
trips, I brought along at least two Chancellors and many campus 
representatives.
    I just returned from India where I was developing a ``UC-India 
Initiative'' to expand research and educational collaboration with 
academic, government, and industrial partners. The tour included a 
special meeting with Indian President Abdul Kalam, who delivered the 
keynote speech via high bandwidth streaming video at last fall's UC-
India Summit at Calit2 at UC-San Diego.
    As with all our international alliances, the emphasis is on RD&D 
innovation that crosses the disciplines in areas of vital importance to 
both nations, areas like information technology, energy resources, and 
public health.

``Rising Above the Gathering Storm'' recommendations related to 
                    strategic global alliances

    Although not specifically addressed in Chairman Gordon's 
legislation, we also wish to express our support for recommendations in 
the National Academy of Science's report, ``Rising Above the Gathering 
Storm,'' that would facilitate entry of international students and 
scholars to the United States. There is a significant and ongoing need 
to facilitate institutions' efforts to attract and retain high-caliber 
U.S. and foreign students and researchers. With growing competition 
from other nations for international talent, the U.S. needs to make 
changes to the current visa system in order to compete. The current 
U.S. visa system increasingly prevents U.S. businesses, universities, 
medical institutions, and research centers from competing for needed 
talent.
    Like many institutions around the country, UC has seen a decrease 
in international enrollments, which are crucial at the graduate level. 
In fall 2002, for example, UC enrolled 7,532 international graduate 
students. In fall 2005, that figure declined to 6,988--a drop of 7.2 
percent.

Improving K-12 Education

    The University is moving forward in addressing shortcomings in K-12 
education. This task may hold the greatest potential for economic and 
societal impact, but in many ways, it may present our most difficult 
challenges. In my travels throughout California to meet with 
constituents, I have found this to be our most urgent problem by far. 
Mathematics and science achievement in California is lagging, and the 
ramifications for our state are alarming. Let me cite a few specifics:

        <bullet>  On the 2000 National Assessment of Educational 
        Progress (NAEP), nearly half of California's eighth grade 
        students scored ``below basic'' in science and math.

        <bullet>  National testing data (Trends in International 
        Mathematics and Science Study) reveal that California's 
        children are among the worst in the U.S. in their knowledge and 
        abilities in both mathematics and science. U.S. children are 
        falling further behind children of other countries in their 
        knowledge of and abilities in mathematics and science.

        <bullet>  Statewide, 25 percent to 35 percent of California's 
        science and mathematics teachers either have no credentials or 
        are not qualified, i.e., they have neither a major nor minor in 
        the subject area they are teaching. The situation is much worse 
        in lower performing schools where as many as 80 percent of 
        science and mathematics teachers are not qualified.

        <bullet>  The National Center for Education Statistics found in 
        its 2002 report that at least 60 percent of high school science 
        classes are taught by ``out-of-field'' teachers. In middle 
        school, the problem is even more acute.

        <bullet>  At present, nearly 25,000 teachers in California are 
        teaching with emergency credentials, meaning they do not meet 
        the current requirements in the federal No Child Left Behind 
        legislation.

        <bullet>  Projections indicate that more than 30 percent of 
        California's teacher workforce will be eligible to retire in 
        the next decade.

        <bullet>  For the first time in many years, California 
        experienced a decrease in the number of credentialed teachers 
        entering its workforce in 2005-06.

        <bullet>  This year, California has a shortage of more than 
        2,000 mathematics teachers, 1,000 life science teachers, and 
        1,000 physical science teachers.

        <bullet>  Little or no science is being taught in many of 
        California's K-5 classrooms.

    The one experience that really brought this home to me in my 
travels up and down the state was visiting entire schools and even 
school districts that did not have a single qualified mathematics or 
science teacher.
    Having been in the sciences my whole career, I know first-hand that 
great K-12 teachers are indispensable to the future scientific interest 
and success of students.
    Without any doubt, some of these problems are due to the shortage 
of teachers with deep content knowledge in mathematics and science. 
California's supply of mathematics and science teachers falls far below 
the number needed. The state barely produces half of the necessary 
credentialed teachers to cover the demand.
    In May 2004, UC and California State University (CSU) entered into 
a compact with Governor Schwarzenegger that offered us stability in 
State funding in exchange for meeting certain state accountability 
goals and addressing state needs. The compact called for a new UC 
initiative to address the shortage of trained K-12 teachers in science 
and math.
    In May 2005, in consultation with Governor Schwarzenegger and 
Chancellor Charles Reed of the CSU system, we launched a bold program. 
UC made a commitment to quadruple the number of students trained to be 
science and math teachers from 250 per year to 1,000 a year. We called 
the program ``Cal Teach'' or the UC Science and Mathematics Initiative 
(SMI). CSU committed to 1,500 science and math teachers a year for a 
combined total of 2,500.
    The basic elements of SMI as we envisioned it were:

        <bullet>  Recruiting UC students to be math and science 
        teachers from students who are majoring or considering majoring 
        in those fields.

        <bullet>  Providing these students the training they need by 
        drawing on the expertise of our faculty in those fields, both 
        in the disciplines and in advances in pedagogy specific to 
        science and math education.

        <bullet>  Offering financial incentives to retain these 
        students as teachers.

    As this process has developed, two interesting things have happened 
on the campuses. First, the SMI campus directors are deans in the 
sciences, so they carry a lot of clout. They are committed to the 
success of this program, and they are energized about it.
    Second, we are seeing faculty in science and mathematics 
departments team up with faculty in education departments. Now they are 
collaborating on entirely new curricula for preparing science and math 
undergraduates to be master teachers. Included with this testimony is 
an example from UC-Berkeley of this new curricula, blending cutting-
edge content knowledge in the sciences, including field and lab 
experiences, with distinctive new pedagogy specifically suited to 
conveying this knowledge.
    As the campuses develop these new curricula, and as they come back 
together to pool their ideas, I predict we are going to see real magic 
happen. Because your committee is considering a similar program for the 
Nation, I want to include a significant amount of detail in the rest of 
this testimony on what we have done to date.
    As we provide this detail about our program, I think it is 
important to remember that we need flexibility in implementation. SMI 
at each of our campuses will look different to account for local campus 
and regional circumstances.

UC's Unique Resources for Addressing the Teacher Deficit

    As the Nation's largest public research university, the University 
of California has an extraordinary array of intellectual and other 
resources for addressing issues such as the achievement gap in K-12 
education. I believe that no issue so commands the application of those 
resources as does improvement in the achievement of our youth. Let me 
add that I believe we must do everything we can to identify and 
encourage K-12 student talent to study and work in the fields of 
science, technology, engineering, and mathematics (STEM).
    So what can a research university like UC bring to this issue?

        <bullet>  The University produces almost half of all the 
        students earning baccalaureate degrees in science and math in 
        California. Research universities tend to have higher 
        concentrations of students in the science and math disciplines.

        <bullet>  UC students constitute our state's highest achievers, 
        and they have the potential to make enormous contributions as 
        science and math teachers, as well as in all other fields.

        <bullet>  UC has a faculty unmatched in the depth and breadth 
        of their expertise in science and math. We can apply this 
        expertise in advancing the subject matter mastery of these 
        students as well as the skills and content knowledge of 
        teachers already in the field.

        <bullet>  Yet, in the past, the University and most other top 
        research universities have not tapped their potential for 
        attracting science and math students into the teaching force. 
        Addressing that issue energetically and effectively may be the 
        very best way that UC and peer institutions can contribute to 
        the improvement of public schools and their students.

    So how are we proposing to organize these resources to address this 
urgent problem?

SMI Model--The University

    UC's response, working in partnership with K-12 schools, CSU 
Chancellor Reed, Governor Schwarzenegger, the California Legislature, 
and California industry leaders, has been to launch the SMI in Spring 
2006 at the nine UC general campuses. The goal of the program is the 
goal the Governor and I agreed to the year before--to quadruple the 
number of math and science teachers the University produces from 250 in 
2005-2006 to 1,000 by 2010-2011, as CSU doubles its output to 1,500 by 
2010-2011. This is a bold challenge to our faculty, staff, and 
students. But the crisis is real, and we must take dramatic action to 
address it.

Quantity and Quality in the Teaching Force

    Of course, quantity is only one of the goals of SMI. We also are 
committed to improving the preparation of teachers in ways that will 
result in superior teaching and learning, and that will attract some of 
our most talented and high-achieving science and math majors into a 
teaching career. Specifically, SMI is developing better methods for 
preparing these students as science and math teachers so that they have 
an extraordinary command of their discipline and more refined 
pedagogical skills in their fields. UC will attract to the teaching 
force more of its undergraduate majors in science, math or engineering, 
and we are creating curricula that focus on newly developed teaching 
techniques specifically geared to science or math learning.
    UC is developing the SMI program in consultation with a broad 
spectrum of stakeholders: faculty members, inter-segmental education 
partners, industry leaders, foundations, and state and national 
organizations specializing in science, math, engineering, technology 
and teaching. We are building upon the Community Teaching Fellowships 
in Mathematics and Science program, which began at UC-Berkeley over 20 
years ago, as well as a model pioneered in 1997 at the University of 
Texas, Austin, which has prepared hundreds of new math and science 
teachers since its inception, in response to the same pressures we feel 
in California today.

Program Growth and Development--First Steps

    SMI is now in its second year of operation. UC campuses began by 
establishing Resource Centers in their schools of sciences and 
mathematics for advising, as well as for placement, student 
recruitment, and coordination with schools. Making math and science 
departments the locus of the program emphasizes the centrality of 
subject matter mastery, and in the preparation of new teachers, it more 
directly involves those faculty most attuned to the scientific ideas 
and knowledge that our citizens should master. Concurrently, UC 
education faculty are collaborating with scientists and mathematicians 
in new ways to identify pedagogies appropriate to various disciplines 
and students.
    A second benefit of locating SMI in math and science units is that 
this promotes student recruitment and clearly demonstrates the 
interdisciplinary aspects of the program--learning science/math and 
teaching techniques as a blended effort. Having the program in the 
science and math departments demonstrates this is clearly right in the 
place where the students ``live.''
    We supplement the program recruitment with a ``field experience'' 
course, beginning at the freshman level, called CaT1 courses, where 
students work in local schools under the supervision of mentor teachers 
and meet regularly in small seminar groups to discuss experiences and 
learn from one another. These courses bring potential teachers into 
direct contact with schools and students immediately so they can 
experience the exhilaration of guiding students in their field while 
they experience the challenges of teaching and test their own 
capacities. These CaT courses extend throughout the student's 
undergraduate experience.
    Our early research on the outcomes of this field experience course 
has demonstrated that it has a pronounced effect on student 
aspirations. Many intensify their commitment to teaching, and many find 
that their interest deepens in various aspects of their own science and 
math learning as they work with their students' learning patterns. And 
some discover that teaching is not for them, which we know is 
important.

Community College Component

    During this past year, UC has also expanded SMI to the California 
Community Colleges. Students who transfer from community college 
campuses comprise about 30 percent of UC graduates and about two-thirds 
of CSU graduates. Community college students who intend to transfer to 
UC or CSU represent a rich source of future teachers for California's 
schools since many return to their home communities after completing 
undergraduate degrees.
    The University began its SMI community college work with the 
Foothill-De Anza Community College district, extending its first- and 
second-year SMI courses to students who plan to transfer. This project 
has since expanded to include 16 community colleges (five in southern 
California, three in the Santa Barbara region, five in the Silicon 
Valley area, and three in the Santa Cruz/Monterey Bay region). This 
academic year, as many as 100 community college freshmen are 
participating in a field experience at a local school accompanied by a 
follow-up seminar at their home community college.

SMI-Second Year-Current Program Components and Organization

    We are now well into our second year of operation, and the model is 
still evolving. At Texas, UTeach originated on just one campus. At UC, 
to help address the enormous needs of California, the program is being 
developed simultaneously on all nine of our general campuses. Each UC 
campus has a distinctive curriculum and a different set of local 
schools and educational issues, so our various campuses provide an 
excellent laboratory for testing different approaches to the goal of 
increased teacher numbers and improvements in preparation. Some 
campuses have developed education minors with a math or science 
emphasis, and faculty from across the disciplines have collaborated to 
develop math and science education courses. Common elements of the 
model include:

        <bullet>  Development of new curricula, which combines cutting-
        edge content knowledge in the sciences, including field and lab 
        experiences, with distinctive new pedagogy specifically suited 
        to conveying this knowledge.

        <bullet>  Student recruitment, focusing on freshmen and 
        community college transfers, but providing student entry at all 
        levels of the undergraduate program.

        <bullet>  Lower-division academic program elements that combine 
        field experiences (CaT 1, 2, and 3) with seminar participation 
        and ``Master Teacher'' supervision, encompassing as subject 
        matter California's standards-based instruction, learning 
        assessment tools, classroom management, diversity, and learning 
        theory.

        <bullet>  Upper-division program elements that form a bridge to 
        the credential program by building upon the early field 
        experiences and math and science subject matter preparation to 
        connect with the University or district internships.

        <bullet>  Alignment of subject matter preparation with 
        educational course work to assure prompt and timely completion 
        of an undergraduate degree, a preliminary teaching credential, 
        and a Master's degree in five years.

        <bullet>  Summer STEM institutes to develop distinctive 
        pedagogy for teaching math, biology, physics, chemistry, and 
        geosciences.

        <bullet>  Financial incentives for student participation.

    There are a number of ``paths to teacher certification,'' and I am 
including illustrations from two of our campuses, UC-Irvine and UC-
Santa Barbara, to display the wide variety of ways in which students 
will earn certificates and the many different paths that students may 
follow when they enter the SMI program--whether as a freshman, a 
transfer, or a junior or senior at a UC campus.
    These two patterns also illustrate graphically:

        <bullet>  the capacity for students to gain deep grounding in 
        the knowledge and methodology characteristic of a major in math 
        or science gained at a research university level;

        <bullet>  early field experience in the classroom, combined 
        with seminars for reflection and analysis of the field 
        experience; and,

        <bullet>  multiple entry points to the ``pathway'' at different 
        times in a student's academic career, and expeditious progress 
        to gaining teacher certification via a number of different 
        routes.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

Enrollment in SMI

    Initial student interest in SMI has been very enthusiastic. 
Campuses made initial projections of enrollment in the CaT (seminar), 
and in some cases, interest has considerably surpassed the estimates. 
At the UC-Berkeley campus, the number of students enrolled in the 
program far exceeded projections and greatly increased the number 
previously headed for math/science teaching careers. Based on 
experience to date, campus SMI directors anticipate an enrollment of 
1,184 students in the second CaT (seminar), and they project that 
science and math teachers matriculating from UC programs will reach 800 
by 2010.
    We are exploring many avenues to raise that figure to our goal of 
1,000. To that end, we are focusing on the issues of recruitment and 
retention. Possible strategies include:

        <bullet>  Increasing recruitment of community college freshman 
        students who plan to major in STEM fields and who will transfer 
        into UC STEM credentialing programs. These students represent a 
        rich vein of potential candidates.

        <bullet>  Creating pathways for ``career changers.''

        <bullet>  Developing on-line materials to enable non-STEM 
        credentialed teachers to prepare and pass subject-specific 
        exams in STEM fields.

        <bullet>  Integrating, where appropriate, the California 
        Subject Matter Projects (CSMP) in math and science, ISME, the 
        California State Summer School for Mathematics and Science 
        (COSMOS), Teacher Fellow program, and other STEM professional 
        development experiences to help prepare and retain STEM 
        teachers.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Student enrollment in SMI shows a roughly 2-to-1 ratio of women to 
men, a welcome story for young women excelling in math and science. The 
ethnicity of students participating in this program conforms very 
closely to the ethnic distribution of UC's undergraduate population. 
Our premise that students would enter the program at all academic 
levels is proven true. The number of SMI students majoring in 
mathematics and biology far exceed numbers in other majors. Demand for 
physics teachers is somewhat lower than in other fields. Larger numbers 
of future teachers of chemistry would be valuable.

Participating Schools

    To date, nearly 1,000 student placements have occurred in schools 
for field experiences. This process has involved 467 teachers and 174 
schools in 41 districts. We believe this will have positive outcomes 
for all who are participating. We are tracking the socioeconomic 
characteristics and academic performance of schools where students are 
placed, and to date, they represent a wide spectrum. And, because 
students bring observations back to their university classes for 
discussion, they are able to compare and contrast different experiences 
from different sites.

What the University Has Learned Thus Far and How It Will Respond to 
                    Evidence Collected as Program Develops--Research 
                    and Learning Via SMI

    SMI leadership consists of a consortium of campus SMI officials 
headed by Dr. Fred Eiserling, Associate Science Dean and Professor of 
Microbiology at UCLA. The group meets via teleconference once a month, 
and members are in regular contact by e-mail. Campus Faculty Program 
Directors and Academic Coordinators also confer by teleconference 
biweekly and are actively sharing information on program progress.
    SMI is being implemented at our nine general campuses as a system-
wide program, one that provides flexibility for each individual campus 
to grow the program within its own unique environment and curriculum. 
This is a highly unusual opportunity to test the program's basic tenets 
in diverse settings. Similar teaching programs have been developed at 
other universities, but none has encompassed the number and type of 
institutions involved in this effort. Outcomes will provide a rich 
source of insights for future work in this area.
    As this work develops, implementation is being approached 
deliberately as a project for study.

Data Collection and Research

    UC is collecting data systematically on each step of the program, 
including student interviews and close monitoring of each participant. 
For this tracking, UC has developed an on-line ``My California Teach'' 
portal. The system:

        <bullet>  tracks all student participants, including hours in 
        the classroom and other activities;

        <bullet>  provides students the opportunity to assess the 
        usefulness of their own activities in class;

        <bullet>  provides students an on-line journal to write about 
        their experiences and to begin developing their teacher 
        professional portfolio;

        <bullet>  provides programmatic information and on-line advice 
        to students;

        <bullet>  tracks all K-12 teacher participation; and,

        <bullet>  pays students and teachers for in-class work.

    This extensive data base will allow the University to track and 
study a large number of teachers as they move through the pipeline over 
a period of five years. Data will provide information to allow better 
testing of hypotheses about teaching and teacher preparation, including 
the effect of various types of field experiences and course work that 
are newly developed for this effort.
    In particular, UC will study the effects and effectiveness of field 
experiences and the patterns of course work being offered via SMI. 
Questions that will be studied include how field experiences impact 
teacher preparation and how particular courses in major fields of math 
and science and also in education affect the quality and number of 
teacher aspirants and graduates.

Funding

    SMI has attracted financial support from the public and private 
sectors. Governor Schwarzenegger and the California Legislature are now 
funding the program at both UC and CSU. In 2005-06, the State provided 
UC with $750,000, which was matched by $750,000 in University funds, to 
support the initial infrastructure needed to implement the new 
initiative. In 2006-07, the State provided an additional $375,000, 
again matched by University funds, for a total of $2.25 million for the 
program. These funds are being used to develop resource centers on UC 
campuses to operate the program. Using a combination of State and 
University funds, each campus resource center has at least $250,000 for 
program operations.
    In addition, The Regents of the University of California initially 
secured pledges totaling $4,024,850 from 19 foundations and 
corporations toward SMI.
    The bulk of those funds came from two major underwriters: the Intel 
Corporation, which pledged $2 million over four years in $500,000 
increments, and SBC (now AT&T), which pledged $1 million over five 
years. Since those original commitments, other funds have been pledged 
to other campus sites, the largest being an endowed chair for over $2 
million at UC-Irvine.
    Private funding agents have expressed great interest in providing 
support that will help attract and retain student engagement in the 
program. They also are interested in supporting teachers who either 
directly mentor these students or who serve as master teachers.
    The University will need to secure support for intern-credentialed 
teachers from states, school districts and other sources. UC also will 
need to secure ongoing funding, public and private, to make the program 
affordable for under-served populations. Working with a variety of 
partners will be crucial to the program's ultimate success.
    The Governor's budget also proposes funding 600 assumable loans for 
SMI students, loans that would be forgiven in exchange for a teaching 
commitment.

H.R. 362 would greatly assist programs such as SMI

    The University supports federal legislation such as H.R. 362, which 
would boost funding for federal competitive grant programs that support 
higher education efforts to improve the development of K-12 math and 
science teachers, as well as undergraduate STEM programs. H.R. 362 
would seek to expand the SMI concept from California across the Nation, 
and also to focus more broadly on other elements essential to improving 
U.S. math and science education.
    H.R. 362 is modeled on our original idea of having students 
graduate in a science and math discipline and receive their credential 
within four years. However, we are finding that this stipulation runs 
counter to the goal of increasing the number of highly-qualified 
teachers in science and math. Even many of our best students take 
slightly more than four years to complete a science or math degree. SMI 
does integrate education courses long before completion of the 
Bachelor's degree and streamlines the credentialing process. However, 
varying teacher licensure requirements, especially in California, mean 
that additional post-Bachelor of Science degree training will be 
needed.
    We would like to see the legislation amended to delete reference to 
a four-year completion period under the Robert Noyce Scholarship 
Program. Instead, we hope for flexibility in creating integrated 
programs that result in a Bachelor's or even a Master's degree and a 
teaching credential or license. We want to reduce the time to obtain 
both the degree and the license, but we need the flexibility because of 
the varying teacher licensure requirements within and across each of 
the 50 states.
    Two UC campuses, Irvine and Los Angeles, are current recipients of 
Noyce Scholarship Program funding, and at least two other campuses, 
Riverside and Santa Cruz, are preparing to respond to the latest 
request for proposals. Our campuses are collaborating with local school 
districts and community colleges to provide support for future math and 
science teachers. Continued access to these funds would help us 
implement SMI and achieve our goal of 1,000 teachers by 2010.
    In the Noyce Scholarship program, in years where appropriations 
fall below $70 million, no more than 15 percent of appropriations may 
be used for capacity-building activities. These include academic 
courses, early field teaching experiences, and stipend programs. Our 
campuses have indicated that this 15 percent cap hinders program 
effectiveness, and we therefore request that the cap be removed from 
the program.

Conclusion

    Let me conclude by reiterating my gratitude to Chairman Gordon and 
the Members of this committee for addressing an issue that is so 
crucial to the future of the Nation. The University strongly supports 
the recommendations of the National Academy of Science's report, 
``Rising Above the Gathering Storm.'' I feel certain that we need to 
take bold action. As this testimony has charted, we have taken bold 
action with SMI. In California, we were willing to take the necessary 
steps to address the shortage of science and math teachers. As we build 
SMI, we will find better ways to do this. As we refine this program, we 
urge you to make sure that legislation provides the necessary 
flexibility for national implementation, because conditions will vary 
in different states and localities within states.
    And we must recognize that one initiative is not enough. We need 
more engagement across the board between our research universities and 
our K-12 public schools. We need partnerships with community colleges, 
state universities, private universities, business, and industry, as 
well as State and Federal Government. The University of California has 
the capacity to take a leadership role in improving K-12 student 
learning and achievement. It is my belief that, as a land grant 
university, we have the responsibility to do that. Our campuses have 
the expertise to unlock the reasons why so many young people--the 
future workforce and the future hope of this country--are not being 
prepared to participate fully in the economic and civic life of our 
country. I believe we can change that. I know you share my belief. I 
thank you again for this opportunity to speak with you.

ATTACHMENT #1

             BERKELEY CAL TEACH SUMMER INTENSIVE INSTITUTE

                    IN PARTNERSHIP WITH BERKELEY LAB

    Berkeley Lab has offered to provide a summer institute for Cal 
Teach students the summer following their Junior Year.
    The Berkeley Cal Teach Program goals for the summer institute are 
to:

        <bullet>  Deepen student's content knowledge

        <bullet>  Develop student's pedagogical skills to transfer the 
        summer experience into the classroom.

    Berkeley Lab developed and implemented a ten week summer 
undergraduate Pre-service Teacher Intensive Research Institute in 2002 
to 2005. The first of the ten weeks included orientation to the lab, 
safety training, a course on journal writing and tours of research 
facilities. The core experience of the institute consisted of four two-
week consecutive sessions. Each session consisted of a small group of 
five to six students preparing for an experiment, collecting and 
analyzing data, developing a science presentation and creating a lesson 
translating the experience to the classroom. A lead Berkeley Lab 
scientist typically taught the students scientific principles needed 
for the experiment in the morning. An experienced teacher joined the 
students as a coach. Afternoons were spent in the lab setting with the 
lead scientist and his or her group. Examples of two week sessions 
include, micro fingerprint analysis at the ALS Infrared beam line, A 
neutron activation analysis with irradiation at a nuclear reactor, 
building and testing a cosmic ray coincidence detector, and gamma ray 
analysis of terrestrial radio activities as related to anti-terrorism. 
The final week students prepared for their final presentations and 
reports. Students received a stipend of $400/week and were expected to 
work 40 hours each week.
    Students all participated in:

        <bullet>  Weekly Friday afternoon seminar on translating 
        experience to the classroom

        <bullet>  Subject matter knowledge self assessment

        <bullet>  Job Hazards Questionnaire and Safety Training

        <bullet>  Journal/Research notebook

        <bullet>  Short scientific paper writing assignment with peer 
        review

        <bullet>  Weekly one on one meeting with a Master Teacher(s)

        <bullet>  Weekly ``Summer Lecture Series'' at noon and Lab 
        tours

    Weekly seminars were held on Friday afternoon. Topics included:

        <bullet>  Favorite lessons from in-service teachers

        <bullet>  Vernier probe-ware workshop

        <bullet>  Model inquiry based lessons and instructional 
        materials design (Lawrence Hall of Science)

        <bullet>  National Board Certification requirements presented 
        by a NBC teacher

        <bullet>  Issues for New Teachers

        <bullet>  Scientific Inquiry and Inquiry Based Teaching and 
        Learning

        <bullet>  Professional Recognition and Grant Opportunities

Outline for Berkeley Cal Teach Summer Intensive Research Institute

Design Criteria

        <bullet>  50 students per summer

        <bullet>  eight- to ten-week program

        <bullet>  Exposure to scientists and engineers at UCB and 
        Berkeley Lab

        <bullet>  Access to and use of scientific resources of the UCB 
        and Berkeley Lab

        <bullet>  Small group learning opportunities (5 students per 
        group)

Goals

        <bullet>  Deepen content knowledge for each student in four 
        areas--Earth, life, physical science and engineering (prepare 
        for breadth on the CSET Test)

        <bullet>  Transfer content knowledge to classroom setting

        <bullet>  Develop understanding of scientific inquiry and 
        engineering design and construction

        <bullet>  Encourage Understanding of the interconnection and 
        relationship between science disciplines

        <bullet>  Introduce frontier science and technology topics

        <bullet>  Instill view of science teaching as integral to the 
        scientific and engineering enterprise

Strategies (experiences common to all students)

        <bullet>  Orientation to research, safety, journaling and 
        course requirements.

        <bullet>  Four two-week research activities, one in earth, 
        life, physical science and engineering (72 hours for each two-
        week session)

        <bullet>  Weekly seminars (four hours/wk) with master teacher 
        and in-service teachers on translating the research experience 
        to the classroom.

        <bullet>  Daily mentoring by scientist and resource teacher 
        with expertise in subject area (e.g., an experienced physical 
        science teacher would participate with the students in the two 
        week research experience led by scientist or engineer as 
        content coach.)

        <bullet>  Berkeley Cal Teach student subject matter knowledge 
        assessments based on high school student standards and 
        expectations.

        <bullet>  Science short paper to show understanding of research 
        programs.

        <bullet>  Power Point presentation to teacher and scientists 
        colleagues based on summer experience.

        <bullet>  Standards-based science lesson based on summer 
        experience.

Supporting Structures

        <bullet>  Program administrator responsible for organizing, 
        monitoring, documenting and evaluating the summer intensive 
        research institute.

        <bullet>  A master teacher for each strand, earth, life, 
        physical science and engineering.

        <bullet>  A teacher coach for each group of 10 students.

        <bullet>  Four lead research investigators each willing to 
        dedicate two weeks in the summer to teach and lead students in 
        research for each group of five students (one in Earth, life, 
        physical science and engineering for each group of five 
        students).

        <bullet>  $4,000 of stipend funds for each student.

        <bullet>  Program administrative funds.

        <bullet>  Advanced workshops for lead investigators to assist 
        them in developing learning objectives and resource materials.

Feasibility and cost.

    With 50 students it is possible that in any one week 10 groups of 
five students would be working with a lead investigator. We expect that 
the program coordinator could find five of these investigators at 
Berkeley Lab and five on campus.
    The total annual cost of the program would be about $350K. Of this 
amount $200K for Berkeley Cal Teach Student Stipends and $100K for 10 
in-service teacher coaches. $25K for the Teacher Coordinator salary, 
$12K for the Master Teacher and $13K for materials, supplies and other 
expenses.

                     Biography for Robert C. Dynes
    Robert C. Dynes is the 18th President of the University of 
California, a post he has held since October 2, 2003. A first-
generation college graduate and a distinguished physicist, President 
Dynes served as the sixth Chancellor of UC's San Diego campus from 1996 
to 2003. He came to UC-San Diego in 1990 after a 22-year career at AT&T 
Bell Laboratories, where he served as Department Head of semiconductor 
and material physics research and Director of chemical physics 
research. His numerous scientific honors include the 1990 Fritz London 
Award in Low Temperature Physics and his election to the National 
Academy of Sciences in 1989.
    Robert C. Dynes also is a Professor of physics at UC-Berkeley, 
where he directs a laboratory that focuses on superconductivity and 
incorporates postdoctoral and graduate students in physics and 
materials science as well as undergraduates. As a Professor of physics 
at UC-San Diego, he founded an interdisciplinary laboratory where 
chemists, electrical engineers, and private industry researchers 
investigated the properties of metals, semiconductors, and 
superconductors. He subsequently became Chairman of the Physics 
Department and then Senior Vice Chancellor for Academic Affairs.
    President Dynes is active in the national scientific arena. He is a 
fellow of the American Physical Society, the Canadian Institute for 
Advanced Research, and the American Academy of Arts and Sciences. He 
serves on the Executive Committee of the U.S. Council on 
Competitiveness. He is a Fellow of the California Council on Science 
and Technology and as a member of the Business-Higher Education Forum. 
He serves on the California Commission for Jobs and Economic Growth and 
the Governor's Nurse Education Initiative Task Force, and is a member 
of the Oakland CEO Council.
    A native of London, Ontario, Canada, and a naturalized United 
States citizen, Robert C. Dynes holds a Bachelor's degree in 
mathematics and physics and an honorary doctor of laws degree from the 
University of Western Ontario and Master's and doctorate degrees in 
physics and an honorary doctor of science degree from McMaster 
University. He also holds an honorary doctorate from L'Universite de 
Montreal.

    Chairman Gordon. Thank you, Dr. Dynes. We are going to be 
marking this bill, H.R. 362, in two weeks, so we would very 
much like to hear your recommendations during that period, so 
that if we can perfect this, we certainly want to.
    Mr. Dynes. Thank you.
    Chairman Gordon. Now, our next witness is Craig Barrett. He 
is Chairman of the Board of Intel Corporation. He also served 
on the National Academies committee that wrote the Gathering 
Storm report. Before joining Intel, Mr. Barrett, or Dr. Barrett 
served on the Stanford University faculty, and is currently the 
Chairman of the National Academies of Engineering.
    Thank you, Dr. Barrett.

STATEMENT OF DR. CRAIG R. BARRETT, CHAIRMAN OF THE BOARD, INTEL 
                          CORPORATION

    Mr. Barrett. Mr. Chairman, Mr. Hall, other Members of the 
Committee, I would like to first say that I am in violent 
agreement with the three commentaries from my right, even 
though Dr. Dynes represents the University of California, and I 
am a Stanford graduate. That shows what cooperative spirit can 
do.
    I applaud the recognition by the Science Committee of the 
challenges the United States faces, and the introduction of 
H.R. 362 and H.R. 363, to promote higher quality and quantity 
of math and science teachers in K-12, and to promote increased 
federal support of basic research and our research 
universities, I think are critical to U.S. competitiveness 
going forward.
    I noticed that in H.R. 362, one aspect of that bill is, in 
fact, to strengthen the Noyce Scholarship Program, which was 
authorized under the NSF Authorization Act of 2002, and named 
after Bob Noyce, who is a founder of Intel Corporation. I had 
the opportunity to work closely with Bob through most of my 
professional career at Intel, and I think he is, perhaps, 
emblematic of what the committee is pondering, and what the 
witnesses before you are talking about today.
    Bob Noyce was an exceptional man, and when he was an 
undergraduate at Grinnell University, his interest in 
technology was really sparked by a physics professor, who was 
very engaging, but also had contacts with Bell Laboratories, 
and was able to get a few of the first transistors that Bill 
Shockley and his group produced, bringing those back to 
Grinnell and working with Bob Noyce, the physics professor was 
able to get Bob intrigued in this topic.
    Bob subsequently left Grinnell, went to MIT, received his 
doctorate, emigrated to the West, went to work at Shockley 
Transistor initially, but left there, founded Fairchild 
Semiconductor, left there, and founded Intel Corporation in 
1968. Parenthetically, Bob would have been a Nobel recipient, 
aside from his unfortunate death in 1990, before Jack Kilby at 
TI, co-inventor of the transistor with Bob, was awarded the 
Nobel laureate.
    I think Bob's career is emblematic. An engaged student, an 
engaged professor, probing the edge of technology in 
association with a topflight research laboratory, also probing 
the edge of technology. Combining those three things together 
really is what promotes U.S. competitiveness and innovation. It 
is the sort of thing we have taken for granted years and years, 
which is now becoming challenged as the world becomes a much 
smaller place, and other countries are copying our leadership 
activities.
    By the way, if you want to see some wonderful examples of 
innovation, I might invite any of you who are interested to the 
Intel Science Talent Search finals, which are here in 
Washington at the Reagan Building tonight. You will see 40 of 
the brightest high school kids in the world, all of their 
research projects makes my Ph.D. dissertation look like child's 
play.
    But there are wonderful examples of innovation still in the 
United States. There are wonderful research universities still 
in the United States, but we need to do more. Rising Above the 
Gathering Storm was published about 18 months ago. Since then, 
not much has happened, although we have increased the R&D 
budget in some of the basic research activities this year, and 
we are grateful, and we think that is a great first step. H.R. 
362 and H.R. 363 have the opportunity to take that much 
further.
    We have been advocating, both at Intel and the high-tech 
community, for some time, the things necessary to be 
competitive in today's knowledge-based world: a wonderful K-12 
education system, especially in mathematics and science; a 
university system that prepares the talent for the next 
generation; federal support of basic research, which is really 
the seed corn for the ideas for the next generation of 
products, goods, and services, and companies; a patent system 
which is fair, and promotes invention in the United States; a 
tax system which promotes investment in innovation in the 
United States. All of these things are necessary for us to 
succeed. The two bills we are talking about today are a good 
first start in this particular area.
    I would leave you with one other thought. I have heard 
people comment sometimes that this is just another sky is 
falling routine. In the 1980s, many of us complained about 
Japanese companies, and the potential competition from Japan. 
If you recall, Japan emphasized quality and manufacturing, and 
required the entire United States manufacturing industry to 
accommodate those two trends in order to compete effectively 
with Japan. We did so. Since that time, the rest of the world 
has recognized that it is not a manufacturing future, it is an 
innovation future. And they have seen what we have done well, 
and they are copying that.
    And the challenge for us is to recognize that they are 
copying what we did well for the last several decades. Our 
challenge is to do what is necessary to be successful for the 
next several decades. H.R. 362 and H.R. 363 are a good first 
step in that direction, and should be applauded.
    Thank you.
    [The prepared statement of Dr. Barrett follows:]
                 Prepared Statement of Craig R. Barrett
    Mr. Chairman, I appreciate the opportunity to appear today before 
the Committee to discuss the broad challenges facing the U.S. economy 
from the new dynamics of global competition. I am pleased to add my 
voice in support for your initiatives, H.R. 362 and H.R. 363, which 
build upon prior work done in this Committee in the vital areas of K-12 
teacher preparation in math and science (H.R. 362), and increased 
funding for basic research in the physical sciences conducted through 
the programs of the National Science Foundation, the Department of 
Energy, NASA, NIST, and the Department of Defense (H.R. 363).
    I note that one of the key components of H.R. 362 is strengthening 
the impact of the Noyce scholarship program, established by the NSF 
Authorization Act of 2002, to create incentives for colleges and 
universities to improve the training of STEM teachers and increase 
scholarships provided for science, math and engineering majors who 
pursue teaching credentials.
    I worked closely with Bob Noyce for many years and want to reflect 
briefly upon his life and experience, and his contributions to 
innovation in America, which are emblematic of what it is all of us 
here on this panel are trying to communicate in the strongest possible 
terms.
    Bob Noyce thrived in the environment of learning created by a 
superb and dedicated Physics Professor at his alma mater, Grinnell 
College in Iowa. That professor had obtained two of the very first 
transistors produced by William Shockley and his team at Bell Labs 
through his relationship with the President of Bell Labs. Noyce became 
enthusiastic about this new field of research, and furthered his 
education at MIT, emigrated to California, and went to work for 
Shockley Semiconductors. Later of course, he went on to be one of the 
founders of Fairchild Semiconductor and Intel Corporation, and 
acknowledged as one of the co-inventors of the integrated circuit along 
with Jack Kilby of TI.
    Here's the point: a good teacher, a research lab, an engaged 
student--the resources that are critical to innovation, the creation of 
new technologies, and new industries. America has always taken for 
granted that these foundations of innovation will be there, providing 
the basis for American economic success.
    But we can no longer take those things for granted, which is why 
the Innovation Agenda announced by the new Democrat leadership in the 
House, the President's American Competitiveness Initiative, and your 
legislation, are so important.
    The Gathering Storm report has now been out for about 18 months. 
The proclamation we released just before this hearing is another 
attempt to focus the Congress on the need for action. We've had enough 
reports--perhaps now that elections have passed, Congress can get down 
to business. Your bills are important first steps, in education and 
research. The recently approved, substantial FY '07 funding increases 
for NSF, NIST, and DOE represent a critical down payment on the need 
for expanded research in the physical sciences, and I thank our 
Democrat leadership in Congress, particularly Speaker Pelosi, for 
making that happen.
    Intel has been pushing hard for these things for many years, long 
before the Gathering Storm report. All the pieces of the innovation 
system have to work right together--

        <bullet>  K-12 education, with good teachers well prepared in 
        math, science, and engineering

        <bullet>  University research and teaching programs that build 
        talent for the future

        <bullet>  Government-funded basic research that provides seed 
        corn for new technologies

        <bullet>  Ability to hire and retain the highly talented 
        foreign students who study in the U.S.

        <bullet>  a strong, balanced patent system that produces 
        quality patents and fair results in the courts

        <bullet>  A tax system that fosters investment in applied 
        research, and creation of new manufacturing capabilities in 
        America.

    Those are the keys to long-term American economic success. And it 
is, I think, indisputable that we have allowed these important 
foundations of innovation to erode.

        <bullet>  We have come close to having critical research 
        facilities--such as the Brookhaven heavy ion collider--close.

        <bullet>  We have had close calls on funding for the Focus 
        Center Research Program, which is key to expanding the 
        frontiers of knowledge in semiconductor manufacturing.

        <bullet>  And university graduate programs are threatened for 
        lack of research funds and U.S. students.

    Some say ``we've heard this before--Japan was going to overtake us 
in the 80's.'' And this is the most important point, one I hope all 
Members of the Committee will take away from this hearing.
    In the 80's, the challenge was quality in manufacturing. We rose to 
that challenge in the decades of the 80's and 90's. Today, however, the 
challenge is knowledge creation--and which countries will be the 
leaders in discovery and speeding discoveries into the marketplace. The 
rest of the world has caught on to our strengths--and is imitating what 
we have done right for the past century.
    The real question before us today is, will we do it right in the 
next century?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Gordon. Thank you very much, Dr. Barrett.
    Next, we have Dr. Neal Lane, a Malcolm Gillis University 
Professor at Rice University, and Senior Fellow at the James 
Baker Institute for Public Policy. Dr. Lane is a former 
Director of the National Science Foundation and Director of the 
White House Office of Science and Technology Policy. Dr. Lane 
also chaperoned a two week trip that former Chairman Jim 
Sensenbrenner and I took to the South Pole. I sometimes wonder 
whether that was a science experiment, just having us together 
for two weeks, but I am--and we are glad you are here.
    So, thank you, Dr. Lane.

     STATEMENT OF DR. NEAL LANE, MALCOLM GILLIS UNIVERSITY 
    PROFESSOR, AND SENIOR FELLOW OF THE JAMES A. BAKER III 
          INSTITUTE FOR PUBLIC POLICY, RICE UNIVERSITY

    Mr. Lane. Thank you very much, Mr. Chairman, and Ranking 
Member and fellow Texan, Ralph Hall, Members of the Committee.
    I also want to thank you for your support, in the effort 
the NSF was making at that time to secure the funds to rebuild 
the South Pole Research Station, which I think has happily come 
to pass. It takes a while to build things at the South Pole. We 
greatly appreciate that. That was very important for science 
and for the Nation.
    Thank you, also, for inviting me to join this very 
distinguished panel to address a matter of considerable 
urgency, as the Gathering Storm report, I think, made quite 
clear. And that report put forward some bold, and I think very 
reasonable specific actions, and I applaud you, Mr. Chairman, 
and your fellow co-sponsors, for legislation, House Bill 362 
and 363, which will move much of that bipartisan agenda along.
    And I say that not on behalf of the science community, but 
rather, out of concern for my four grandchildren, aged four to 
sixteen, and their happiness and their well-being in the Nation 
that they will inherit. Our generation, happily, has enjoyed 
the fruits of six decades of considerable public and private 
investment in research, much of it carried out in our 
universities, which produce cutting edge science discovery, 
path-breaking technologies, and a science and engineering 
workforce second to none, including many talented men and women 
who have come here from other parts of the world. Thank God we 
invited them to come.
    But in recent years, the U.S. has been reluctant to make 
the kind of long-term investments necessary to secure a bright 
future for Americans. We seem to have other priorities. My 
grandchildren and their generation will inherit a different 
America, and they think, perhaps, a bit worn-out or used-up 
America, and that doesn't seem fair, somehow.
    I was privileged to work for President Bill Clinton, who 
was fond of saying there is nothing wrong with America that 
cannot be cured by what is right with America, and indeed, 
there are things that we can do, and we can do them now, to 
assure our young people the future they deserve. We should not 
fail them.
    So, Mr. Chairman, that then brings me to the specific 
legislation you have put forward to address some of these 
matters. In H.R. 363, you authorize substantial increases for 
basic research in the physical and mathematical sciences and 
engineering for the National Science Foundation, Department of 
Energy's Office of Science, NIST, NASA, and the Department of 
Defense. These agencies have supported excellent research, much 
of it in universities. Increasing funding for their research 
programs will pay big dividends in the future, as it has done 
in the past.
    NSF has the broadest mission of these agencies, to promote 
progress in all areas of science, mathematics, and engineering; 
and studies in social, behavioral, and economic sciences can be 
just as relevant as the physical sciences to the process of 
innovation and American industrial competitiveness, by helping 
us understand people and organizations. NSF should be given the 
flexibility to set its priorities among all its directorates 
and programs.
    In addition to these agencies, I believe your bill should 
also include NOAA, which in a fundamental way, is also relevant 
to innovation and competitiveness. NOAA supports much of the 
research on weather and climate change, and its National 
Weather Service applies the latest science and observations, 
including data and weather satellites, to make weather 
forecasts. Accurate forecasts can save lives, and they can save 
money. Katrina cost us well over $120 billion and immeasurable 
human costs. These costs are likely to be higher in the future.
    Funding for NOAA should be increased, and its planned 
cutbacks in university support should be reversed. The same is 
true for NASA. Furthermore, NASA, the agency with the 
capability to design and launch satellites, should not be 
allowed to define away its responsibility by dropping Earth 
observations from its mission statement.
    Now, turning to your second bill, H.R. 362. I want to 
commend the committee and you, Mr. Chairman, for your 
leadership in moving forward to address the serious problem of 
K-12 science education and math education. We will not be able 
to address the workforce need without improving our schools and 
teaching in those schools.
    In your letter, Mr. Chairman, you asked me specifically to 
address the appropriateness of the proposed role of the 
National Science Foundation in administering the science, 
technology, engineering, and mathematics programs contained in 
H.R. 362. So, let me give you three reasons, Mr. Chairman, why 
I consider NSF to be the right agency for this important task.
    First, NSF has decades of experience working with school 
districts and teachers, for example, through the much-heralded 
Summer Institutes, such as the ones you propose. Department of 
Energy is also in a good position to organize excellent teacher 
institutes. Second, NSF has funded much of the pedagogical 
research that has been done in this country, and can, I 
believe, best connect the products of that research with the 
teachers and the classrooms. Third, NSF has a close 
relationship with most of the Nation's researchers in the 
physical sciences and engineering, and colleges and 
universities where our science and math teachers get their 
education, and can best influence the quality of teacher 
education. And I should add a fourth, namely, that the NSF 
program uses competitive peer review to select only the most 
meritorious proposals for funding.
    Mr. Chairman, this committee has long been a bipartisan 
voice of reason, for advocacy for high standards in research 
and education, and in the defense of integrity of science, and 
I thank you for that, all of you, and I congratulate you for 
moving forward with this important legislation.
    I have one last request, Mr. Chairman, something I would 
like to see the committee put on its future agenda, and that is 
to study how the whole federal science and technology apparatus 
works, and how government-wide research priorities are actually 
set in science, engineering, and education. And the NIH, that 
has seen flat budgets for four years running, should be a part 
of that discussion. And I recognize this committee has an 
oversight responsibility for many agencies, including NIH. I 
would like the Committee to address the question, in our 
current system, is the whole really greater than the parts? I 
personally believe America can do better, our grandkids deserve 
better, and given the urgent tone of the Gathering Storm 
report, we may not have all that much time.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Lane follows:]
                    Prepared Statement of Neal Lane
    Chairman Gordon, Ranking Member (and fellow Texan) Ralph Hall, 
Members of the Committee:

    Thank you for inviting me to testify today in this important 
hearing ``Science and Technology Leadership in the 21st Century Global 
Economy,'' which deals with a matter of considerable urgency.
    This committee has long been a champion for U.S. science and 
technology and research and education. It has been a bipartisan ``voice 
of reason'' in Washington. I particularly appreciated the guidance and 
support this committee gave me when I was NSF Director and during my 
time as Director of OSTP. It is always a pleasure to appear before you.
    I also feel very honored to be part of today's distinguished panel.
    Norm Augustine, who chaired the committee that wrote the National 
Academies' report, ``Rising Above the Gathering Storm,'' has been 
ringing alarm bells throughout this town and the Nation about the 
enormous challenges our country faces in this century. The findings in 
that report are frightening and the recommendations are both bold and 
compelling. I join many others who believe that there is great urgency 
in putting those recommendations into action.
    And I applaud you, Mr. Chairman, and your fellow co-sponsors of 
legislation (H.R. 362 and H.R. 363) to move much of that agenda along 
by authorizing significant growth in the research budgets of several 
agencies and funding for several innovative programs to improve the 
teaching of science, technology, engineering and mathematics (STEM) in 
this country.
    I might also mention that the ``Gathering Storm'' report has gotten 
the attention of many in my state of Texas. The Academy of Medicine, 
Engineering, and Science of Texas (TAMEST) has, with the encouragement 
of Senator Kay Bailey Hutchinson, taken on the task of determining how 
the education recommendations of the report might be implemented at the 
State level. I suspect other states are doing the same.
    Earlier, I used the word ``urgency.'' So, let me tell you why I 
believe the Congress should waste no time in moving this and other 
relevant legislation along. And, I ask your indulgence to let me 
personalize my testimony. Since the Chairman has talked about his five-
year-old daughter, expressing some concerns similar to my own, I hope 
you will indulge me as I talk about my four grandchildren, Jessica, 
Matthew, Allia, and Alex, ages four to 17.
    Over the past 60 years, my generation--and the baby boomers who 
came behind us--have enjoyed the fruits of considerable public and 
private investment in research, much of it in universities, where 
millions of bright young men and women have learned how to think, how 
to discover and invent--how to turn knowledge into wealth, jobs, and a 
standard of living for Americans that is the envy of the world.
    No less important, as a part of this success, were the thousands of 
men and women who came to America from other parts of the globe to 
obtain their education in our universities. And many of them stayed and 
became a critical component of the most highly skilled science, 
engineering and technical workforce in the world. Thank God we welcomed 
them to our communities.
    Well, the baby-boomer scientists and engineers are beginning to 
retire; and the pipeline does not have sufficient numbers to replace 
them. Furthermore, fewer of the brightest young people from other parts 
of the world are choosing to study and make their careers in America. 
They are finding excellent opportunities elsewhere.
    These past six decades have been a golden age for America, in part 
due to our leadership in science and technology. But, looking to the 
future, things do not look so golden. Much has changed in recent 
decades. And many, if not most, of the factors that enabled the United 
States to be so successful no longer apply.
    The ``Gathering Storm'' report presents frightening statistics and 
logical implications that should be a ``wake up'' call to all 
Americans.
    My grandchildren, and your grandchildren and children, are 
wondering how their lives will compare to the lives we have enjoyed. I 
think they are concluding that they may not have it so good.
    Their generations are looking at a very different world than the 
one I saw as a naive physics student in the 1960's.
    When I was a teenager, we didn't worry about the energy supply. It 
seemed to be endless. Well, today, we realize that it is not.
    When I was a teenager, we couldn't imagine that humans could be 
changing the climate, and along with it, the weather for future 
generations. Well, today we realize that the energy we use and the fuel 
we burn are changing the climate. And our concerns grow more serious 
with each passing day.
    When I was a teenager, it seemed that the United States would 
always be the unrivaled economic power on the globe. Well, today, we 
realize that we could well lose that position. In many ways, the 
handwriting is on the Great Wall.
    And I think it would never have occurred to us that our performance 
in school would rank well down the list of nations, by almost any 
measure you could name.
    So, my grandchildren face enormous challenges. But, the news is not 
all bad. There are things we can do right now to help--and it would be 
irresponsible not to do them.
    The reality, of course, is that there is no simple solution, no 
magic bullet, as the ``Gathering Storm'' report points out. Progress 
will require a number of difficult strategic decisions and investments 
of taxpayers' money. It will take vision, political leadership, perhaps 
even courage. My hunch, however, is that the American people know that 
we're in big trouble, and they are willing to do their part, provided 
their government tells them the truth and puts forward sensible plans.
    Fortunately--and it is a big plus--we have the strong institutions 
needed to implement the recommendations in that report and contained in 
your proposed legislation.
    We have outstanding state and private colleges and universities all 
across the country that collectively make up what is by far the 
strongest system of higher education in the world. And one of the 
principal reasons for this success is decades of federal investment in 
research and higher education. I do not believe that these institutions 
can remain strong if that investment is allowed to continue to slide 
downward.
    And we have many outstanding federal agencies, which, given the 
resources, flexibility and effective leadership can do their part.
    So, Mr. Chairman, that brings me to the specific legislation you 
have put forward to address some of these matters. In H.R. 363, you 
authorize increases of 10 percent per year (for five years) for basic 
research in the physical and mathematical sciences and engineering for 
NSF, DOE's Office of Science, NIST, NASA and DOD with special emphasis 
given to: early career development, integration of research and 
education, interdisciplinary research, and infrastructure enhancement. 
In the case of NSF, you also authorize increased funding to promote 
research on the process of innovation and teaching inventiveness, which 
would involve NSF's social sciences and educational research programs.
    I want to state unequivocally that if this bill passes and funds 
are appropriated for these important efforts, and provided the agencies 
are given flexibility in implementing them, America's future 
competitive position in the world will look much brighter than it does 
today. Our grandkids should be pleased.
    Let me comment, specifically, on NSF, DOE/OS and NIST. What do 
these three agencies have in common? In a word ``excellence'':

        <bullet>  Excellence, in the research they support (all have 
        garnered Nobel Prizes);

        <bullet>  Excellence in the quality of their programs and 
        staff; and

        <bullet>  Excellence in their contributions to advancing the 
        Nation's position of leadership in science and technology over 
        the past half century.

    In the case of DOE, the agency has the mission and wherewithal to 
connect the research results of the researchers it supports with the 
future carbon-free energy and fuel needs, as well as the security, of 
our country.
    In the case of NIST, the agency has the mission and wherewithal to 
provide U.S. industry: (a) with appropriate support to bring high-risk 
emerging technologies closer to market and (b) well researched and 
tested industrial standards that reflect the results of excellent 
research and the latest technological innovations.
    In the case of the NSF, the agency has the relationship with our 
institutions of higher education to effectively integrate research and 
education to deliver new knowledge at the frontiers of science and 
engineering and tomorrow's technically trained workforce so vital for 
the future of the Nation.
    Your bill also addresses DOD and NASA. I believe it should also 
include NOAA.
    DOD has, in the past, been a prime investor in basic research. 
Indeed defense agencies invented the process of competitive peer review 
that is the hallmark of excellence in research. In recent times, 
however, defense priorities have shifted to short-term mission-specific 
goals. Your legislation sends a strong signal that this situation 
should be reversed.
    NASA has made extraordinary contributions to science in such fields 
as astronomy, astrophysics, space, planetary, and Earth science, 
including satellite observations of the Earth's atmosphere, land and 
sea. The recent shift in NASA priorities has placed science well down 
the list in order to make room for an aggressive drive to go back to 
the Moon, and perhaps beyond. Whether returning to the Moon is a good 
idea or not, sacrificing critically important science to do it clearly 
is unwise.
    That brings me to one more issue I would like the Committee to 
consider--how one understands and frames innovation and 
competitiveness. It is in this context that I mention NOAA.
    One of the major costs of doing business is weather and weather-
related events--storms (hurricanes and tornadoes), blizzards, floods, 
droughts, and other disruptive acts of nature. We already suffer 
billions of dollars a year in losses due to weather events. Hurricane 
Katrina cost well over $120 billion and immeasurable human loss. These 
financial and human costs could be considerably reduced with more 
accurate and timely forecasts. The management of Jet Blue could 
probably attest to that need based on the problems they and their 
customers suffered during the ice storms of Valentine's Day last month.
    Furthermore, global warming and climate change will alter the 
patterns of the past and may lead to more frequent and more disastrous 
events. We need the research to improve our understanding of climate 
and weather, provide better forecasts, as well as invent the 
technologies to cope with the impacts.
    In addition to the research supported by NSF and DOE's Office of 
Science, the work of NOAA and NASA are central to our understanding of 
climate and weather. NOAA, in particular, the National Weather Service, 
has the responsibility to produce official forecasts, and NOAA experts 
need the observational data and computer modeling capability to this 
well.
    NASA is the agency with the capability to design and launch the 
satellites that provide much of that observational data. It is 
incomprehensible to me that NASA would remove ``Earth observations'' 
from its mission statement at a time when we are facing staggering 
future weather-related costs and when our weather satellites are aging 
and the plans to replace them are not going well.
    It is also disturbing that both NASA and NOAA are cutting back on 
their extramural research support, where the competitive process of 
peer review can be used to select the most meritorious and promising 
ideas. Moreover, the kind of research these agencies support (for 
example, the geosciences, or climate science) in universities involves 
students in complex problem solving that trains them to work in 
interdisciplinary teams. This is precisely the kind of technical 
workforce industry says they need. Cutting back on university support 
in these disciplines does not bode well for the future.
    The recently released National Academies' report Earth Science and 
Applications from Space: National Imperatives for the Next Decade and 
Beyond raised alarm bells about our deteriorating system of weather and 
climate observations and ability to protect our nation's citizens and 
businesses from natural disasters. The report has received an enormous 
amount of attention.
    Both NOAA and NASA's science and Earth observation programs will 
need your support for the additional funding required to meet these 
critical societal needs, as well as your continued protection of those 
agencies from earmarks that in the past have made it hard for them to 
do their jobs.
    Before I leave the topic of federal support for research, I would 
be remiss if I did not mention that many federal agencies have 
important research programs that deserve attention and increased 
support. Even though NIH is not strictly under the jurisdiction of this 
committee, it is important to note that its budget has been essentially 
flat for four years running. That can't be good public policy.
    Now, turning to your second bill (H.R. 362), I want to commend the 
Committee--and you, Mr. Chairman for your leadership--in moving forward 
to address the serious problem this country has in K-12 education.
    Your bill, H.R. 362, addresses the critical need to improve the 
quality of the teaching of science, technology, engineering and 
mathematics (STEM) in our schools, colleges and universities. The 
programs you authorize with this legislation are important steps to 
take as the Nation deals with this enormous educational challenge. The 
bill should be strongly supported by all Members of Congress.
    Mr, Chairman, in your letter you asked me to specifically address 
the appropriateness of the proposed role of the National Science 
Foundation in administering the science, technology, engineering and 
mathematics education programs contained in H.R. 362.
    Let me give three reasons why I consider that to be the right 
decision:

        <bullet>  First, NSF has decades of experience working with 
        school districts and teachers, for example, through much 
        heralded summer institutes such as the ones you propose. (I 
        cannot count the number of occasions when teachers came up to 
        me and said the most important thing that happened to them 
        during their early teaching years was the NSF summer science 
        institutes.)

        <bullet>  Second, over the years, NSF has funded much of the 
        pedagogical research that has been done in this country. Only 
        by getting the researchers, themselves, into contact with the 
        schools and teachers will it be possible to apply what has been 
        learned to improve teaching and learning.

        <bullet>  Third, NFS (and DOE's science program) have a close 
        relationship with most of the researchers in the physical 
        sciences and engineering in colleges and universities where our 
        science and math teachers get their education. Given the green 
        light and the funding, these agencies, working with 
        universities and colleges, can dramatically improve the 
        education (and re-training) of future math and science 
        teachers.

        <bullet>  And, I should add a fourth: namely, that the NSF and 
        DOE's science program use a process of competitive peer review 
        to select only the most meritorious proposals for funding. They 
        keep the standards high. And I want to emphasize that I am not 
        criticizing the Department of Education, which has an excellent 
        staff and a hard job to do. But it is a different job. They 
        have neither the experience nor the staff to take on the role 
        of NSF and DOE's Office of Science.

    In summary, I congratulate the Committee for moving forward with 
this important legislation and want to express my appreciation for 
holding this hearing and allowing me to share my views.
    Thank you, Mr. Chairman.

                        Biography for Neal Lane
    Dr. Neal Lane is the Malcolm Gillis University Professor at Rice 
University. He also holds appointments as Senior Fellow of the James A. 
Baker III Institute for Public Policy, where he is engaged in matters 
of science and technology policy, and in the Department of Physics and 
Astronomy.
    Prior to returning to Rice University, Dr. Lane served in the 
Federal Government as Assistant to the President for Science and 
Technology and Director of the White House Office of Science and 
Technology Policy, from August 1998 to January 2001, and as Director of 
the National Science Foundation (NSF) and member (ex officio) of the 
National Science Board, from October 1993 to August 1998.
    Before becoming the NSF Director, Dr. Lane was Provost and 
Professor of Physics at Rice University in Houston, Texas, a position 
he had held since 1986. He first came to Rice in 1966, when he joined 
the Department of Physics as an assistant professor. In 1972, he became 
Professor of Physics and Space Physics and Astronomy. He left Rice from 
mid-1984 to 1986 to serve as Chancellor of the University of Colorado 
at Colorado Springs. In addition, from 1979 to 1980, while on leave 
from Rice, he worked at the NSF as Director of the Division of Physics.
    Widely regarded as a distinguished scientist and educator, Dr. 
Lane's many writings and presentations include topics in theoretical 
atomic and molecular physics and science and technology policy. Early 
in his career he received the W. Alton Jones Graduate Fellowship and 
held an NSF Doctoral Fellowship (University of Oklahoma), an NSF Post-
Doctoral Fellowship (while in residence at Queen's University, Belfast, 
Northern Ireland) and an Alfred P. Sloan Foundation Fellowship (at Rice 
University and on research leave at Oxford University). He earned Phi 
Beta Kappa honors in 1960 and was inducted into Sigma Xi National 
Research Society in 1964, serving as its National President in 1993. He 
served as Visiting Fellow at the Joint Institute for Laboratory 
Astrophysics in 1965-66 and 1975-76. While a Professor at Rice, he was 
two-time recipient of the University's George R. Brown Prize for 
Superior Teaching. Dr. Lane has received numerous prizes, awards, 
including the AAAS Philip Hauge Abelson Award, the AAAS William D. 
Carey Award, the American Society of Mechanical Engineers President's 
Award, the American Chemical Society Public Service Award, the American 
Astronomical Society /American Mathematical Society/American Physical 
Society Public Service Award, and many honorary degrees.
    Through his work with scientific and professional organizations and 
his participation on review and advisory committees for federal and 
State agencies, Dr. Lane has contributed to public service throughout 
his career. He is a fellow of the American Physical Society, the 
American Academy of Arts and Sciences (member of its governing 
council), the American Association for Advancement of Science, the 
Association for Women in Science and a member of the American 
Association of Physics Teachers. He serves on several boards and 
advisory committees.
    Born in Oklahoma City in 1938, Dr. Lane earned his B.S., M.S., and 
Ph.D. degrees in physics from the University of Oklahoma. He is married 
to Joni Sue Lane and has two children, Christy Saydjari and John Lane, 
and four grandchildren, Allia and Alex Saydjari, and Matthew and 
Jessica Lane.

    Chairman Gordon. Thank you very much, Dr. Lane.
    Interesting that you mentioned that. We are in a period of 
scarce resources or limited resources, and I have been 
concerned, whether it is the National Labs, or different 
agencies that are maybe trying to do the same thing, are we 
really focusing our money best? And I think that does need to 
be an area of review. I don't want to micromanage, but we do 
want to get our best bang for the buck, and I think we need to 
find out where we can get our best synergy. And we will be 
having that oversight hearing in the future.
    Now, we have Ms. Deborah Wince-Smith, who is President of 
the Council of Competitiveness. She was the former Assistant 
Secretary of Technology Policy in the Department of Commerce, 
and served as an Assistant Director at the Office of Science 
and Technology Policy.
    Welcome, Ms. Wince-Smith.

STATEMENT OF MS. DEBORAH L. WINCE-SMITH, PRESIDENT, COUNCIL ON 
                        COMPETITIVENESS

    Ms. Wince-Smith. Mr. Chairman, Ranking Member Hall, Members 
of the Committee, thank you so much for the opportunity to 
appear before you today on the critical issues of U.S. 
competitiveness, the skills of all Americans, and ensuring that 
our nation continues to invest in R&D at the forefront of 
knowledge.
    Since the Council on Competitiveness issued its report, 
Innovate America, in December 2004, there has been a drumbeat 
for action on a national innovation and competitiveness agenda, 
with the National Academies' Gathering Storm report and the 
work of the Business Roundtable as an example. We talk about 
innovation being multi-disciplinary, and I will say that all of 
these reports really have taken the best ideas, and come 
together, really, in a very coordinated way now, to push this 
through as a very important national priority.
    I might just mention that this morning, I attended 
Secretary Paulson's summit that he has underway on 
competitiveness of capital markets, and Warren Buffett and Jeff 
Immelt, and Chairman Greenspan were all talking about the 
importance of having U.S. leadership in capital markets, access 
to liquidity, everything that fuels our innovation. And what 
was very interesting as the discussion unfolded; the three 
issues that came to the top of the agenda were the importance 
of our math and science education, the need for systemic 
immigration reform, and the importance of investing in R&D at 
the frontier.
    Mr. Chairman, I would like to really thank you and the 
Members of this committee for keeping the pressure on Congress 
to really look at competitiveness legislation as a whole. And I 
know that while the private sector is doing many, many 
important things at the end of the day, Congress and the 
Administration must act as if we are going to continue to 
ensure that our children have a legacy of prosperity in the 
years to come.
    And the Council is very much in favor of H.R. 362 and H.R. 
363. I have submitted a written statement for the record, and 
what I really wanted to do this afternoon is just very briefly 
focus your attention on four very powerful data points from the 
Council's recently released Competitiveness Index: Where 
America Stands. This is a quantitative and qualitative look at 
the state of the U.S. economy vis-a-vis our global competition, 
and the trends in the future.
    [Chart]
    The first chart that I want to show you is the importance 
of small and medium-sized businesses. These are our job 
drivers, our job creators for the future. This really shows 
that over the last two decades, 80 percent of the total net new 
jobs in this country have come from small and medium-sized 
firms. The entrepreneurial engine is what is going to drive our 
future. We know that our large global corporations are global 
enterprises, they are optimizing their investments, their 
search for talent, their R&D, all in global supply chains. And 
this adds tremendous value to the U.S. economy, but in terms of 
job creation, it is the entrepreneurial economy that will drive 
our future, and they will be the game changing innovators, just 
as Bob Noyce some years ago exemplified the entrepreneur 
creating a global enterprise such as Intel. So, clearly, STEM 
education and increased investment in basic research are the 
key drivers for entrepreneurial business development. These 
will be the assets on which our entrepreneurs will build the 
businesses of the future.
    Access to risk capital, seamless technology transfer, and 
accelerated deployment, and enhancing our collaboration between 
business, academia, and our National Laboratories, are really 
the essential building blocks that also have to be improved if 
we are going to capitalize on these investments in basic 
science, and the people that will make all of this happen.
    [Chart]
    The second chart I want to show you is how higher order 
skills are the skills of the future. The investments that we 
are talking about through these two pieces of legislation are 
really going to be the investments to develop the skills that 
are going to be important as we go forward in this 21st Century 
economy. Routine manual and cognitive skills, any job that can 
be digitized, those jobs have declined in importance, and it is 
going to be complex communication, expert thinking, judgment, 
intuition, and idea generation capacity that will create the 
innovation future for America. And again, STEM education is at 
the heart of all the jobs in the American economy.
    And I will also mention that it is these types of skills 
and higher order thinking that are going to be instrumental in 
increasing the intangible assets on which our economy also 
depends. Our work has shown that the value of intangible assets 
now is about $1 trillion, equaling that of tangible investment, 
and again, that relates to STEM education, and investment in 
R&D.
    [Chart]
    This next chart on high wage, fast growth occupations 
clearly shows that again, we have to have higher levels of 
education, and we have to have education that combines STEM 
education, literacy and engineering skills, with language, 
humanities, and social sciences, so that Americans will have 
the skills that drive creativity. The thing that is really 
important on this chart is to look at the big blue circles, 
because the big blue circles are showing high value, high skill 
jobs with high value income for American citizens.
    So, these three charts really paint a very powerful picture 
on why the legislation before this committee is so important, 
and why we must focus on the skills America needs to fuel our 
entrepreneurial economy.
    [Chart]
    And let me conclude with one last chart. This may seem a 
conundrum, but it is actually very, very interesting, that in 
the United States we have tremendous job churn. It highlights 
that our economy destroys nearly as many jobs as it creates 
each year, about 30 million. That is right, 30 million jobs are 
destroyed each year and about the same are created. This is 
creative destruction, and it is a fact of life in the American 
economy. It is a testament to the incredible ability of our 
country to destroy and create jobs at an amazing pace, as 
innovation permeates throughout the economy.
    Other countries find themselves locked and saddled with 
rigid, inflexible labor markets and high unemployment. Now, 
this job churn also is a source of tremendous anxiety, as each 
lost job represents an individual who is faced with uncertainty 
for his or her future, regarding health care benefits, and 
pension. But what it shows is the likelihood of this person 
getting another job, and that likelihood is high, but it is 
only going to be high in the future if they have the skills, 
and the skills, again, depend on our STEM education, our 
investments in R&D, accelerating our entrepreneurship, and 
ensuring that we have a society that has high performance 
correlation learning.
    So, Mr. Chairman and Members of the Committee, I urge you 
to take action on these bills and others in the panoply of 
competitiveness legislation. And I commend you for your 
leadership. And I am pleased to answer any questions.
    [The prepared statement of Ms. Wince-Smith follows:]
              Prepared Statement of Deborah L. Wince-Smith
    Good afternoon, I'm Deborah Wince-Smith, the President of the 
Council on Competitiveness. Thank you, Chairman Gordon, Congressman 
Hall, and the Members of the Committee, for this opportunity to present 
testimony on the importance of implementing a national competitiveness 
agenda, and, in particular, increasing funding for long-term basic 
research, supporting America's high performance computing capability, 
and enhancing science, technology, engineering and mathematics (STEM) 
education.
    The Council on Competitiveness is the only group of corporate CEOs, 
university presidents and labor leaders committed to the future 
prosperity of all Americans and enhanced U.S. competitiveness in the 
global economy through the creation of high-value economic activity in 
the United States. Starting at the top with our Chairman, Chad 
Holliday, the CEO of DuPont, our members recognize that the world has 
changed and America's current place as an economic superpower is not 
guaranteed. In this new conceptual economy, ideas and technological 
development will not be enough to ensure our continued success. We must 
find innovative ways to apply new knowledge, work across disciplines 
and add high value jobs. We cannot and should not seek to compete for 
low wage, low cost opportunities--that time has passed us by. An 
underpinning of strong STEM education will be critical across a myriad 
of occupations if Americans are going to thrive in this new economy. 
Yet despite spending more per student than almost any other country, 
American students perform poorly in relation to their international 
peers in math and science.
    Since the Council on Competitiveness issued its private sector call 
for action, Innovate America, in December 2004, there has been a steady 
drum beat for action on U.S. competitiveness, punctuated by similar 
proposals from the National Academies, congressional leadership, the 
Administration and the Nation's governors. All of these efforts have 
benefited from broad support by the private sector, including the 
personal involvement of many of the country's top CEOs and university 
presidents, as evidenced by the panel here today. At a similar hearing 
last year, I commented that I believed there was a critical confluence 
of support for action on competitiveness, if only policy-makers would 
take advantage and act. Some important progress has been made, but 
there remains much to be done. We are at a critical juncture as a 
nation and as a people. A scatter shot approach to innovation and 
competitiveness risks accomplishing little, while a comprehensive 
innovation agenda can set the country on a foundation for long-term 
success that will help ensure the next generation looks back with 
pride--as we do to the men and women on whose backs and minds our 
current prosperity rests.

THE CONCEPTUAL ECONOMY

    At the beginning of the 21st century, America stands at the dawn of 
a conceptual economy in which insight, imagination and ingenuity 
determine competitive advantage and value creation. To succeed in this 
hyper-competitive, fast-paced global economy, we cannot, nor should we 
want to, compete on low wages, commodity products, standard services, 
and routine science and technology development. As other nations build 
sophisticated technical capabilities, excellence in science and 
technology alone will not ensure success.
    The United States must focus on its strengths--on what it means to 
be American. We must innovate and embrace the opportunities of the 
rapidly emerging, high-value conceptual economy. It is increasingly 
clear that the most important competition is being fought in the arena 
of ideas, learning, and delivering new kinds of value to the 
marketplace. Looking back at the tremendous growth of America's gross 
domestic product over the past half century, information and ideas have 
been equally, if not more, important than materials and manpower to 
sustaining America's economy.
    In the conceptual economy, our success will be measured by our 
ability to transform industries, reshape markets old and new, stay on 
the leading-edge of technology creation, and fuse diverse knowledge, 
information and technology. This new global economy will be much 
different than the industrial economy of the 20th century, or even the 
information economy of the past two decades. The conceptual economy 
will favor nations that reach globally for markets, and those who 
embrace different cultures and absorb their diversity of ideas into the 
innovation process. It will be fueled by the fusion of different 
technical and creative fields, and thrive on scholarship, creativity, 
artistry, and leading edge thinking. The investments, infrastructure 
and talent necessary for Americans to succeed in this new global 
paradigm require public and private sector action. We cannot assume our 
past success will guarantee future prosperity.
    As my colleagues with me at the table know well, the private sector 
can and will continue to look inward to how it can best compete in 
today's global economy. We also can sound the alarm--and we have tried 
to do that to the best of our ability--but it is Congress and the 
Administration that must act if Americans are going to continue to see 
a rising standard of living in the 21st century.
    I want to call your attention to four data points from the 
Council's recently released Competitiveness Index: Where America 
Stands, which is a comprehensive look at the state of the U.S. economy 
vis-a-vis our international competition.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This first chart highlights the importance of small and medium-
sized businesses as job creators in the United States. This is not to 
say that large corporations do not generate value to the U.S. economy--
they unquestionably do--but job creation is coming from smaller 
enterprises and the power of entrepreneurship. Central to the ongoing 
success of these smaller firms is to leverage and accelerate the 
entrepreneurial spirit that so defines the American way of life; and 
that has been so central to our country's history of discovery, 
creativity and transformational value. Clearly enhanced STEM education 
and increased investment in basic science research are key drivers of 
small business development and key assets for entrepreneurs, but they 
must be supported by an innovation infrastructure that enables value 
and job creation and market penetration. Access to capital, seamless 
technology transfer, mentoring and strategic business/academic 
collaboration are essential building blocks that must be constantly 
improved to take full advantage of our nation's investments in science 
and people this committee is considering.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    And make no mistake; those investments are exactly what is needed, 
as this next chart demonstrates. Routine manual and cognitive skills 
have declined in importance since the late seventies, while complex 
communication and expert thinking have increased markedly. Again, the 
importance of STEM education as a grounding for so many jobs in the 
American economy is emphasized by this data. This chart is a visual 
representation of the challenges policy-makers face in helping to 
prepare Americans for the jobs that employers are seeking to fill over 
the next two, five or 10 years. The skills that are valued are not 
those of the 20th century assembly line or the commoditized textile 
factory and that is not where the comparative advantage or opportunity 
lies either.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The blue circles in the upper right hand corner of this chart are 
the circles that matter, as they represent high wage, high growth jobs. 
Here is why what this committee is working on is so important and why I 
and my colleagues at the table are so committed to leading this 
imperative. High wage, high growth jobs require higher skills! That's 
STEM education. That's language skills and humanities and social 
sciences. That's entrepreneurship. The orange circles are yesterday's 
economy. Will those jobs disappear or become irrelevant to our day-to-
day lives? No. But we do a disservice to the American people if we 
spend our time fighting for the orange circles, when a world of 
opportunity is within our grasp if we harness the potential of 
innovation to power our future.
    Taken together, these three charts paint a very clear picture as to 
why this committee and the Congress in general must focus on U.S. 
competitiveness and the skills Americans will need to compete and 
prosper.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The job churn chart highlights that the U.S. economy destroys 
nearly as many jobs as it creates each year--about 30 million. Talk 
about creative destruction. Churn is a fact of life in the American 
economy. It is healthy. It is a testament to the incredible ability of 
our country to destroy and create jobs at an amazing pace as innovation 
permeates throughout the economy. Other countries are saddled with 
rigid, inflexible labor markets and high unemployment.
    But, job churn also is the source of tremendous anxiety as each 
lost job represents an individual who is now faced with uncertainty for 
his or her future. Uncertainty regarding health care benefits, and 
retirement. The chart shows that the likelihood of this person getting 
another job is very high, but it does not say how long it might take 
and whether it will pay as well. This again should reinforce the 
Committee's focus on STEM education as critically important, because it 
recognizes that the American people will be better prepared to handle 
these transitions, if they have the foundation to engage in lifelong 
learning and higher order skills necessary for the jobs of the future.

THE INNOVATION ECOSYSTEM

    The Innovation Agenda outlined in the Council's Innovate America 
report and echoed by the Rising Above the Gathering Storm report, the 
President's American Competitiveness Initiative, the Democratic 
Innovation Agenda, and many other important initiatives, recognized 
that there are three foundational platforms or building blocks to 
innovation--Talent, Investment and Infrastructure. This comprehensive, 
or ecosystem, approach to innovation best ensures a return on 
investment for the American people in the form of jobs, social benefits 
and wealth creation.
    Talent addresses our human capital needs including building the 
base of scientists and engineers by enhancing K-16 STEM education, 
pioneering an extensive portable graduate fellowship program and 
attracting the best and the brightest students and workers from around 
the world by reforming our immigration system. We also must empower 
workers to succeed in the global economy by reforming federal job 
training programs to enable them to have the flexibility to target the 
skills needed for the jobs of the 21st century.
    Investment in innovation addresses the balance between risk and 
reward and the incentives--or disincentives--for people and 
institutions to invest in innovation. Priorities here should be to 
revitalize frontier and multi-disciplinary research by increasing 
federal funding of basic research, making the R&D Tax credit permanent 
and seeking to catalyze Innovation Hot SpotsTM at regional locations 
across the United States through public-private partnerships explicitly 
focused on supporting regional innovation.
    Investing in innovation also demands adherence to two fundamental 
principles: a willingness to accept risk and a willingness to wait for 
the return on investment. Although America's entrepreneurial economy 
understands and embraces these principles, the much larger financial 
mainstream may be now moving in the opposite direction. Investment time 
horizons are getting shorter. Long-term innovation strategies remain 
under-valued. And business executives in publicly held companies now 
face a regulatory climate that is blurring the line between business 
risk and legal risk. Intangible assets, which represent an increasingly 
large percentage of the value of corporations, still don't show up on 
the balance sheet, reducing incentives to invest in creating more 
value. How we measure innovation remains a challenge without a 
solution.
    Innovation infrastructure covers not only the physical 
infrastructure that supports innovation but also the political, 
regulatory and legal infrastructure that facilitates innovative 
behavior. We must create a 21st century intellectual property regime, 
strengthen America's advanced manufacturing capacity and put in place a 
national, coordinated innovation policy with representatives from the 
public and private sector.
    It is with great optimism that as I testify here today that a 
tremendous amount of progress has been made in the past two years, but 
we are still far from the finish line.

A GOOD BEGINNING

    The Council--under the leadership of its Chairman, Chad Holliday, 
its Vice Chairmen, Wayne Clough, President of Georgia Tech and Doug 
McCarron, President of the United Brotherhood of Carpenters and 
Joiners; and with the support of Craig Barrett, Intel Chairman, and 
William Brody, President of Johns Hopkins, who head our National 
Innovation Leadership Council--have invested substantial time and 
energy to ensure that the recommendations of Innovate America and 
subsequent reports do not gather dust on the shelf. Thanks to the 
strong leadership of Members of Congress and many people in the 
Administration we can look back today at several encouraging steps that 
have been taken to better position the United States to compete in the 
21st century global economy.

        <bullet>  With the passage of the FY2007 Continuing Resolution 
        in February 2007, agencies including the National Science 
        Foundation (NSF), the National Institutes of Standards and 
        Technology (NIST) and the Department of Energy's Office of 
        Science received significant funding increases for long-term 
        basic research--a critical underpinning of an innovation 
        economy. The FY 2008 budget request continues this important 
        trend, though attention must be paid to other key research 
        agencies, including the National Institutes of Health and the 
        Department of Defense. Research has become inherently multi-
        disciplinary, so while an argument can be made that the 
        physical sciences have been under funded over the past several 
        years, any ``catch-up'' funding should not come at the expense 
        of the life sciences.

        <bullet>  Late in 2006, the Congress passed and the President 
        signed another extension of the R&D Tax credit that included 
        various enhancements to the credit. This important step, 
        particularly the enhancement, which updated the credit to 
        better reflect marketplace realities, should be built upon in 
        2007 and the credit should be extended permanently.

        <bullet>  Both in the House and Senate, a number of bills have 
        been introduced that would implement various pieces of the 
        innovation/competitiveness agenda. Many of these bills have 
        received strong bipartisan support and this committee has 
        already acted on a number of them.

        <bullet>  Consistent with the call in Innovate America for 
        better integration between workforce and economic development 
        programs, in early 2006, the Department of Labor awarded $195 
        million in grants to thirteen regions across the country 
        through its Workforce Innovation in Regional Economic 
        Development (WIRED) program. The WIRED program embraces the 
        Council's focus on innovation as the key to regional economic 
        development and will foster much needed coordination among 
        regional workforces and economic development programs. The 
        WIRED program has already expanded beyond the original thirteen 
        regions and is becoming a model for regional economic 
        development and coordination. The Council serves as a technical 
        advisor to the Department on this program.

        <bullet>  Just last week, the Patent Office announced that it 
        is ``starting a pilot project that will not only post patent 
        applications on the Web and invite comments but also use a 
        community rating system designed to push the most respected 
        comments to the top of the file, for serious consideration by 
        the agency's examiners. A first for the Federal Government, the 
        system resembles the one used by Wikipedia, the popular user-
        created online encyclopedia.'' The Council's report called for 
        the patent system to be a resource for innovation and while 
        time will tell how successful it might be, this announcement is 
        an important first step in opening up the process to greater 
        transparency and collaboration.

        <bullet>  Enhancing U.S. competitiveness is not solely a 
        federal issue and states play a pivotal role. They are better 
        positioned to integrate strategies and respond to many of the 
        challenges facing Americans. In July of 2006, Governor Janet 
        Napolitano, the Chair of the National Governors Association 
        (NGA), announced that the NGA would make innovation in the 
        states its priority for her term as Chair. This recognition 
        that states and regions are the cauldrons of creativity in the 
        United States has laid the groundwork for important policy and 
        regulatory changes to be put in place that will catalyze 
        collaboration, enhance STEM education and better align 
        workforce training with workforce opportunity. The Council is 
        pleased to be a partner in this effort.

THE ROAD AHEAD

    Now is no time to rest on the laurels of past accomplishments--many 
of which require continued action or even the short-term benefit could 
be lost. There is clearly broad private sector support for a 
comprehensive innovation package as evidenced by the Innovation 
Proclamation delivered to the Hill today with over 270 organizations 
represented. In addition to those actions detailed above that must be 
taken to maintain the progress made to date, Congress must address the 
following areas:

        <bullet>  A central focus of this hearing is the importance of 
        enhancing STEM education in the United States and a cornucopia 
        of proposals have been put forward to address this critical 
        issue. Without delving into the details of any specific 
        proposal, it is a top priority of the Council's 180 private 
        sector leaders that action be taken in this area by federal, 
        State and local leaders. Enhancing STEM education is critical 
        to the ability of our citizens to compete globally and to fuel 
        the creativity that will drive American competitiveness in the 
        future. Solutions must include improving teacher quality 
        through better training and performance-based incentives.

        <bullet>  Entrepreneurship and risk taking are the bedrocks of 
        American creativity and small business development. Policy-
        makers must take into consideration the impact regulations, tax 
        policy and liability concerns have on innovation and the 
        creative process. Anecdotally, we are seeing foreign capital 
        markets attracting interest for new IPOs. Liability, health 
        care and exorbitant tort costs that now exceed our national 
        investment in research and development continue to be a concern 
        for many small- and medium-sized businesses, as the costs to 
        them are disproportionably higher. And in parallel, we place 
        significant costs burdens on U.S. global enterprises conducting 
        high value commercial activity, thereby impacting decision-
        making regarding investing in next generation manufacturing 
        facilities and operations in the U.S.

        <bullet>  While federal programs like WIRED are making strides 
        in coordinating workforce and economic development priorities, 
        much remains to be done in aligning federal and State resources 
        with the 21st century needs of the American worker. Workforce 
        resources are sub optimized and not addressing regional 
        realities. Proposals to provide greater flexibility and focus 
        in the various workforce programs have been put forward by the 
        Administration, Members in the House and Senate and by the 
        National Governors Association, but to date, no final action 
        has been taken.

        <bullet>  While most of the attention on immigration reform has 
        been placed on the issue of what to do with illegal immigrants, 
        there are several critically important provisions under 
        consideration that would encourage more legal immigrants with 
        advanced degrees in science and engineering to stay and work in 
        America. We often say that America attracts the best and 
        brightest to study and work here, but that assumption is being 
        tested around the world as research parks spring up in China 
        and top-notch universities open in India. Once the appropriate 
        background checks are completed, we should staple a green card 
        to the diplomas of those immigrants who acquire advanced 
        degrees in STEM disciplines and commit to work in America for a 
        significant period of time.

        <bullet>  Lastly, the Committee's continued support of high-
        performance computing is critical to American competitiveness 
        and I encourage you to ensure that our National Labs have these 
        critical tools. Supercomputing is an important ingredient in 
        our nation's innovation infrastructure and a linchpin to the 
        country's competitiveness. It reduces time to discovery and 
        accelerates the innovation process, and has become essential to 
        the business survival of many of our most competitive 
        companies. Unfortunately, Council research has shown that we 
        lack the talent we need to take full advantage of these 
        innovation accelerating tools. . .both within our national labs 
        and within the private sector. Advancing the math and science 
        capabilities of today's students will be vital to ensuring that 
        we, as a nation, are able to take full advantage of these 
        nationals assets.

    In conclusion, I want to urge the Committee and the Congress to 
take action this year on a comprehensive competitiveness agenda that at 
a minimum includes increased research funding, enhanced STEM education, 
high skilled immigration reform and permanent tax incentives for 
investment in research and development. State and local governments and 
leaders in the private sector must do their part as well, but setting 
the agenda for the Nation lies with the Congress and the 
Administration. One path takes us down the road of opportunity and 
continued global economic leadership while the other is a path down 
which we follow rather than lead and opportunity passes us by.
    Thank you.

                  Biography for Deborah L. Wince-Smith
    Deborah L. Wince-Smith is the innovative force behind a premiere 
group of CEOs, university presidents and labor leaders committed to 
driving U.S. competitiveness. Most notably, she has spearheaded a 
national campaign that made innovation a top-tier national policy 
issue. She is recognized in the global business community as a ``go 
to'' person for strategic counsel, as exemplified by her recent 
appointment to the Board of Directors of the NASDAQ Stock Market.
    As President of the Council on Competitiveness, Wince-Smith's 
expertise in technology policy, economic development and global 
competition is frequently sought after by government, industry and news 
media.
    She has more than 20 years of experience as a senior government 
official, including as Assistant Secretary for Technology Policy in the 
Department of Commerce during the first Bush administration. Most 
recently, she was appointed by President George W. Bush and confirmed 
by the U.S. Senate to serve as a member of the Oversight Board of the 
Internal Revenue Service. During the course of her career, she has 
testified before several committees of the U.S. House and Senate. She 
also serves on or chairs four Cabinet-level advisory groups, including 
a task force on nuclear energy for the Secretary of Energy.
    Following her government tenure, Wince-Smith became active in 
governance of various national scientific labs. She sits on the Board 
of Governors for Argonne National Laboratory and the University of 
California President's Council for Los Alamos and Lawrence Livermore 
National Laboratories. Wince-Smith was also a consultant for several 
Fortune 100 companies. Her practice focused on global competitiveness, 
R&D partnerships and international development agreements.
    She has appeared on several international broadcast networks, 
including CNN, MSNBC, C-SPAN, and Canada's Report on Business 
Television. She is regularly interviewed by major newspapers like The 
Washington Post and Wall Street Journal as an expert on economic, 
science and technology policy. Her opinion pieces have appeared in 
publications such as The Hill, a leading newspaper that covers 
Congress, and she is a regular contributor to Innovation Magazine.
    Throughout her career she has been in the vanguard of the global 
competitiveness debate. During the Reagan Administration, Wince-Smith 
served as the Assistant Director for International Affairs and 
Competitiveness in the White House Office of Science and Technology 
Policy. She designed and negotiated the landmark 1988 Head of 
Government Science Technology Agreement with Japan and developed 
President Reagan's 1988 Competitiveness Initiative. She later directed 
President George H.W. Bush's National Technology Initiative. She began 
her career as a Program Director for the National Science Foundation 
from 1976-1984 where she managed U.S. research programs with Eastern 
European countries and U.S. universities.
    Wince-Smith earned a degree in classical archaeology and graduated 
Magna cum Laude and Phi Beta Kappa from Vassar College. She earned her 
Master's degree from King's College, Cambridge University. In December 
2006 she received an honorary Doctor of Humanities degree from Michigan 
State University. She volunteers her time on the Board of Directors of 
the University of Pennsylvania Museum of Archaeology and Anthropology 
and is a trustee of the National Inventors Hall of Fame.

                               Discussion

    Chairman Gordon. Thank you so much, Ms. Wince-Smith, and 
thank all of the panelists for a very informative hearing here.
    As I told you earlier, when I introduced H.R. 362 and H.R. 
363, it wasn't a Democratic bill or a Republican bill. I wanted 
to make it a reflection of Rising Above the Gathering Storm, 
because I wanted to get something done.
    So, I have a couple of questions that I don't want you to 
think of in a partisan context, but we are at a time now of 
limited resources, so we have got to get this right. It is 
going to be hard to come back next year and say we want some 
more money. And I am very pleased that, with Sherry Boehlert 
and Vern Ehlers, they have really prodded the Administration to 
come forth with the President's American Competitiveness 
agenda, and I am glad that he has.
    But there are a couple of differences, and I just want to 
explore those today. First, in my bills, I put the emphasis on 
teacher education, trying to improve the capabilities of the 
new and in-service math teachers. The President has put 70 
percent of his money in K-12 math curriculum. Now, again, I am 
not really--I don't want to put you in an awkward position of 
taking sides, and I hope there are not really sides here. We 
are all trying to get to the same place, but I would like to 
hear from Dr. Barrett and Mr. Augustine on why, in your report, 
you put such an emphasis on teacher math/science education.
    Mr. Augustine. I will begin, and Dr. Barrett can correct 
me. The National Academies study made 20 specific 
recommendations with regard to actions to be taken, as you 
know.
    Our number one priority was to produce more teachers with 
degrees in mathematics and science. The reason for our emphasis 
on math and science teachers was fairly straightforward. Math 
and science teachers are where the leverage is. Every one of 
them affects a large number of students every year, and during 
the course of a career, there is a multiplier effect.
    We all have experience in which a teacher has changed our 
lives. It certainly was true of me. So, our basic emphasis was 
on teaching, and we think there is great room for improvement, 
because today, the chance that a child will have a teacher with 
a degree or certificate in math and science is very small. We 
take a physical education teacher, and tell them to teach 
physics. They are intimidated by it, they don't enjoy it. That 
is very contagious to the children.
    Furthermore, anecdotal evidence shows that young people who 
are turned off by math and science are turned off by the fourth 
grade, and so, the early teachers are critically important, as 
well as the ones along the way. That is why we rated it as 
number one on our list.
    Mr. Barrett. People have been teaching mathematics for 
centuries. When it is done well, it is done well with a good 
teacher. It is as simple as that. A qualified, accredited 
teacher who is motivated can motivate young children to 
succeed. Organizations like the National Science Foundation 
have many studies in place on the pedagogy of how to do this. 
There are all sorts of studies on how to do this.
    The fundamental thing is, unless you have a good, qualified 
teacher, it doesn't work, so the National Academies, I think, 
recognize that, and I think all of us have recognized that in 
our past. We have all, somewhere in our educational process, 
been impacted by a good teacher, who has driven us to exceed 
our own personal expectations on what we can accomplish. That 
is what we want for every child in the area of mathematics and 
science.
    Good teachers come first. They are the magic in the 
classroom.
    Chairman Gordon. Thank you, Dr. Barrett. You know, I was 
stunned the other day to learn that over 50 percent of the math 
teachers in this country have neither a major nor a 
certification to teach math, and over 90 percent of the 
physical science teachers have neither a certification nor a 
major.
    Now, I am going to abbreviate my, I am going to stop here. 
Let me tell you what is going on, members, if you would just 
hold your horses just a moment. We are getting ready to have 
the last votes, I think there are going to be three votes, the 
last votes of the day. I am sure some of the old-timers on our 
committee have unfortunately run into this before. What I would 
like to do is stop my questioning, let Ranking Member Hall have 
an opportunity to ask a question, because we have 15 minutes.
    After that, if the panel members that can stay, if you 
would adjourn to our cloakroom, there is some, I think some 
sandwiches that could hold you over, and all of the members 
that can come back, we would appreciate you coming back.
    Mr. Hall, you are recognized.
    Mr. Hall. For one minute.
    Chairman Gordon. Thank you, Mr. Hall.
    Mr. Hall. My time is up. I want to extend the Chairman's 
questions about capabilities and who ought to teach it, and 
what area you should begin in, and I surely agree with your 
answers there.
    I will ask all of you, I will ask Mrs. Wince-Smith, so much 
of what we are talking about today boils down just to simple 
need to strengthen education, and put an emphasis on math and 
science. But the solution doesn't seem to be as easy as 
producing more people with math and science degrees because we 
know in countries like China and in countries like India, they 
are meeting world demand with probably equally well educated, 
but a lot of lower cost workers.
    How do we compete with this, and what can our workforce 
offer in terms of added value to offset skilled but lower cost 
foreign workers, because that is a major problem. It is a major 
problem to pricing our goods, after we have taught them how to 
use the goods or produce the goods.
    Mrs. Wince-Smith, do you have a comment on that? And I will 
ask it to anyone.
    Ms. Wince-Smith. Well, my comment would be that we aren't 
going to be able to compete on commoditized work, and the 
extent to which we will succeed is when we can build higher 
value around products and services, that can command a premium 
globally. And that is why we have to really get a handle on it 
ensuring that all of our children, no matter what fields they 
go into, have quantitative skills, and have the math and 
science that is infusing virtually all activities. It is not 
necessarily that they will be research scientists, but in order 
to perform in any area, you have to have these quantitative 
skills.
    And one issue that I would say that I think needs to be out 
on the table, and perhaps at another hearing, I might recommend 
inviting the very dynamic new head of the American Federation 
of Teachers Union, Mr. McElroy, because getting some of the 
reform and innovation in that system is going to be really 
critical for pay for performance to attract these teachers that 
have the commitment to teach our young people.
    Mr. Hall. Well, I guess I was hoping I would hear, when you 
read about the statistics of the number of engineers that China 
produces, it dwarfs our engineers, or even India. I would like 
to hear that well, they are not producing the type of 
engineers, they are not the grade, they are not the quality 
engineers, they are not complete engineers as we are.
    I haven't heard that. I would like to hear it, and Dr. 
Barrett, maybe you are going to tell me that.
    Mr. Barrett. I think you have been--we have been perhaps 
not articulating this as clearly as we might. The basic 
strength the United States has is today certainly is not the K-
12 education system. Our unassailable strength today is in our 
research universities, and the quality of the education, the 
combination of research and education, and the product that 
they put out, both the student as a product, and the research 
as a product.
    It is critical to build upon that. It is critical to build 
upon it with increased funding of those research universities, 
to make them the most, keep them the most competitive in the 
world. All of the dialogue about K-12 education is to promote a 
greater capability in our inherent workforce, and also, to 
provide a greater feedstock, if you will, to our universities 
and children, who are knowledgeable and capable and interested 
in math and science.
    We will never compete on quantity alone, and should not 
expect that. We have to compete on quality. We have the best 
universities in the world. It is a national treasure. We ought 
to do everything to support them.
    Mr. Dynes. If I could add to that, I am glad that Dr. 
Barrett said it, rather than me. But in my travels around the 
world, in countries like India and China, and compare them with 
the research universities here in the United States, the 
strength that we have here is that we integrate education and 
research, so that we are actually teaching young people how to 
be innovative. We are teaching them to take risks, and that is 
something that doesn't happen in the rest of the world.
    All the discussion of science and math teaching training is 
to continue that pipeline, so that when new companies are 
created from the innovative people that come out of the 
research universities, those companies have a workforce that 
can speak the language. But our real strength is our ability to 
take risks.
    Mr. Hall. I think my time is probably up, but I am hoping 
that I hear that the huge numbers of people in China and in 
India would dwarf our numbers, and we can have an expectation 
that they would have more in numbers, but hopefully not in 
quality, and I--the Chairman is hitting my knee here just now, 
I think my time is up, and I yield. If it is not up, I want to 
yield back to you, Mr. Chairman.
    Chairman Gordon. Thank you, Mr. Hall, you are 29 over, but 
it was a good 29. Mr. Baird, would you like to try to work in 
before we go?
    Mr. Baird. Very quickly. First of all, what a distinguished 
panel we have here today. We are humbled at your presence, and 
grateful for your leadership in working on this.
    It seems one element that we haven't talked much about that 
just seems so important is sort of a cultural change in our 
society. If you talk to the average parent of young people and 
say we want them to study more math and science, they will 
probably say that is a good idea. But if those kids come home, 
and say mom or dad, can you help me with my quadratic 
equations, they will run screaming from the room and turn on a 
videogame as a distraction.
    I don't know how we address that, but I would be very 
interested in your thoughts about that, trying to change the 
culture, and especially help parents, empower parents to help 
their kids, as the kids take on more difficult subjects than 
the parents took. That would be part one.
    Part two would be: We hear a great deal from industry about 
the need to expand H-1B visas and limit the cap. I understand 
the logic for that, but I would also be interested myself in 
finding some way to link that to an increased responsibility on 
the part of businesses seeking H-1Bs to participate in the 
endeavor to train our own domestic workforce, so we need to 
rely less on H-1Bs. I fully understand the need for more H-1Bs, 
but it seems to perpetuate the problem if the businesses don't 
also invest in educating our workforce.
    And I would welcome any response to that.
    Mr. Barrett. Let me try very quickly on both. The most 
significant thing, in my opinion, to get young children 
interested in mathematics and science, and the knowledge base 
they will need for the 21st Century, is to have teachers who 
are engaged, knowledgeable, and can enthuse the children with 
the wonders of the universe. A PE coach teaching physics is not 
going to hack it. Someone who is teaching mathematics and 
doesn't understanding mathematics is not going to hack it. You 
need good teachers in the classroom.
    The second comment is on the H-1B visa issue. One of the 
beauties of our university system is that it is the best in the 
world. It attracts people from all around the world, the best 
and the brightest. That is why it is a national treasure, the 
virtual research university.
    If we are going to invite those people to come to our 
country, pay for their education at taxpayer's expense, and 
then require them to go home and compete with us, it doesn't 
make a lot of sense, so I personally think, you know, and ten 
years ago, I might have been one of the first to suggest we 
staple a green card to every advanced degree given to a foreign 
national from a U.S. university. I still think that that is 
such a simple law that even Republicans and Democrats could get 
together to pass it.
    But aside from that, the effort we are making to improve K-
12 education is to get more kids interested and qualified to 
study engineering, science, mathematics, at the university 
level, to perhaps decrease the need for H-1B visas. But I think 
the whole debate on H-1B visas and green cards is a good debate 
for us to be having, because it means we are attracting the 
best and brightest minds in the world to the United States, 
which is exactly what we need to be competitive.
    Chairman Gordon. Excuse me. We have one minute. Does 
someone else want to address that?
    Mr. Baird. Just one brief followup. I agree with that 
entirely, except that there are companies in my district that 
are working very hard to be involved in the high school and 
college education program, and frankly, they are freeloaders. 
They pay their $1,500, but if you ask them to do anything with 
the local school district to help out, they are AWOL. And 
somehow, to put some skin in the game for those companies, 
versus just go out and recruit abroad, seems to be consistent 
with your goals, and I think we might want to try to do a 
hybrid there. But I appreciate the points.
    Chairman Gordon. The committee will be in recess for 
hopefully no more than--oh, not 45 minutes, will it be? Okay, 
25, it will be at least 30 minutes, so we hope that you can 
stay.
    [Whereupon, at 2:19 p.m., the Subcommittee recessed, to 
reconvene at 2:50 p.m.]
    Chairman Gordon. In consultation with the minority staff, I 
have been given permission to start to move on. We are just 
finishing up votes, so folks will be coming in periodically. It 
was the last vote of the day, and folks are going to markups in 
other committees.
    I also know that some of you have trains, planes, and buses 
to catch, so permission is not necessary. Please leave as you 
need to. We are just grateful that you are here today.
    Let me--I will start off, and I would like to explore a 
little bit more--and maybe Dr. Lane, the NSF education 
programs, we were talking earlier, and I am disappointed that 
they have been cut almost 50 percent in the last few years. You 
might explain a little bit about what they do, and then, I 
would like the committee to give some thought to--I am not 
anti-Department of Education. I think there is probably a role 
for both, so maybe you could--we could talk a little bit about 
how that role in both agencies could help us get our goal--but 
Dr. Lane, if you would, please, start and tell us a little bit 
about those programs, and what you have seen as success or 
failures within those programs.
    Mr. Lane. Thank you, Mr. Chairman. I also would want to say 
I am not anti-Department of Education, either. They have a big 
job to do. It is a different job from that of the National 
Science Foundation. I think that is what you want me to 
address.
    The National Science Foundation has this broad mission to 
ensure the progress of science, engineering, mathematics, 
across the country, and they do that in various ways, and it is 
not limited to research. It is all about knowledge creation and 
knowledge transfer, to and among people, and to the 
marketplace, where things can be applied to benefit the 
American people in broader ways.
    So, where the NSF, I think, really shines is through its 
programs to bring innovation to the classroom, and to help 
teachers try new things, help schools try new ways of teaching. 
Summer camps that enable teachers to take the time to get 
together, learn from one another, new approaches to 
mathematics, new approaches to curriculum. They have been doing 
that for decades and decades. And then, they got involved, in 
the last 15 years or so, in systemic reform of our schools, 
where they would work in partnership with cities, school 
districts, cities, states, regions, to not tell the state or 
the region how to teach, but simply to try to connect what has 
been learned about pedagogy, what has been learned about 
teaching and learning, with on-site, large-scale 
experimentation.
    They have the authority to do that from the Congress. 
Department of Education cannot really do that. NSF uses peer 
review to review and respond to proposals, and select the best 
ideas and the best people, the best get funded, and the others 
don't. The Department of Education can't really do that. The 
National Science Foundation has this direct relationship with 
the best--many of the best scientists and engineering 
researchers in the country, and can tap into that knowledge-
base and that experience, and those skills, to try to help to 
get that in front of the teachers, help the teachers pick up 
the passion for science and for learning, that they can then 
pass along with their students.
    So, NSF is about innovation. It is about research. It is 
about high risk, if you like, taking those kinds of 
opportunities, and investing this money in a way that can then 
be evaluated, and be responsive to the American people.
    So, it is a special agency, I think, in that regard. It is 
not that it is better than the Department of Education, it is 
different, and has a different role, which I believe it does 
very well.
    Chairman Gordon. Thank you, Dr. Lane. Dr. Dynes is going to 
have to leave. If you want to make a swansong, and then, you 
could be excused.
    Mr. Dynes. Well, let me address this issue first. A 
swansong, no. No, I am not ready for my swansong, Mr. Chairman.
    But let me say something that I have said before, and I 
really believe this, and that is the strength of the American 
universities is that we integrate education and research. Those 
two are coupled together, and the more I have traveled in China 
and India, the more I have seen that until they learn to copy 
that, they are going to be behind us. And we should be leading 
with our strengths, and that is our strength.
    And insofar as the NSF nurtures that part of our mission, 
it is an important place to put resources. It is not that it 
is--that I am opposed to the Department of Energy--I am sorry, 
Department of Education--I have energy on the mind--the 
Department of Education, they have a very, very important 
mission. But we can't lose sight of the integration, of what we 
have learned in our research transferring to education.
    And with that, I will bid adieu and pledge my support for 
these bills.
    Chairman Gordon. Again, thank you for making a coastal hit 
and run. Would anyone else like to address that topic?
    If not, I am going to yield five minutes to the gentleman 
from Texas, Mr. Lampson, Chairman of our Energy Subcommittee.
    Mr. Lampson. Thank you, Mr. Chairman.
    I remember sitting in this room a few years back in another 
life and listening to testimony from one of our federal 
agencies about what we could do to keep employees at that 
agency. And most of the things that were being talked about 
were financial incentives. And I got up and walked down from 
here, and sat out in the midst of a bunch of students, who I 
asked, huddled them up, and said if you all were testifying 
right now, what would you say? And almost to a person, it was--
it wouldn't be about money, it would be about giving us 
something to dream that we can achieve. Give us something to 
work on that gives us satisfaction, to know that we are 
accomplishing something with our lives.
    So--and another part of that is that my youngest daughter 
just quit her sixth grade math teaching, she was teaching math, 
honors math classes, and she has left that. But how do we 
tackle the problem that teaching isn't an attractive career 
option in the United States? The work is hard, the pay is low, 
compared to what a strong math and science student can make 
outside of teaching. What national policy actions can turn the 
tide on this?
    Mr. Augustine. I will take a crack at that one.
    Mr. Lampson. Please.
    Mr. Augustine. Certainly one of the significant problems we 
face in encouraging young people to teach and stay in teaching 
is compensation. It seems to be a failing of our free-
enterprise system that we undervalue teachers, nurses, and 
soldiers, and overvalue CEOs, rock stars, athletes, and so on. 
That is something you probably won't solve with legislation, 
nor will I solve it by talking about it.
    I would, however, add two things. One, with regard to 
compensation, however, I don't think we will change the basic 
compensation structure of the Nation, but I do think that it is 
possible to offer some incentives to teachers at the federal 
level. We proposed some of these in Rising Above the Gathering 
Storm. For example. . .the program that is going to be 
sponsored by ExxonMobil has some incentives for teachers that 
make a difference to the math and science teacher, to the good 
teacher, to the one that remains for a long time.
    True, we who are scientists and engineers--I am an 
engineer--have failed to convey to young people the excitement 
of what we do. Part of the result is that the teachers in the 
lower grades, who are not scientists and engineers, don't have 
that fire, that passion. I look at my own career. I played a 
very small part, and I mean a small part, in sending 12 of my 
friends to the Moon and bringing them back. But how good does 
it get? How many people can say that they did something like 
that? That is heavy. And we need to convey to young people that 
this kind of thing is exciting. Certainly, we need to pay a 
decent wage, but we don't want teachers that are there only for 
the money.
    Mr. Lampson. The Gathering Storm report emphasizes the need 
for increased funding for research in physical sciences, 
computer science, engineering, and math. Why are these subjects 
seen as the priority areas, and should funding be diverted from 
other fields?
    Mr. Augustine. I will address that from the Gathering Storm 
report, and my colleagues would care to add to it. Basically, 
we looked at a large number of studies that showed that 50-85 
percent of the growth in the gross domestic product of America 
in the last half-century was attributable to math and science.
    We found that the creation of new jobs was attributable to 
math and science. The return from investments in math and 
science was huge. What we have is a shortage of mathematicians 
and scientists and engineers. Candidly, not lawyers and 
accountants and CEOs and athletes. That is why we don't want to 
underestimate for a minute the importance of such subjects as 
reading. I attended a liberal arts school to study engineering, 
and I did it for a reason; but in any case, America's future is 
going to depend to a very large degree on our prowess in math 
and science.
    Mr. Lampson. Anyone else want to make a comment? My time is 
just about up, and--Ms. Wince-Smith first, and then----
    Ms. Wince-Smith. I would just add--and I would offer as a 
model what is going on in our military academies, which I think 
have a very, very advanced process for how they are fusing 
math, science, and engineering with the liberal arts and 
humanities and languages. And so, you have young people that, 
no matter what field they are going to go into, whether it is 
history or languages, they also are coming out with engineering 
degrees, so what Norm was saying about infusing more math and 
science and engineering into the traditional undergraduate 
liberal arts curriculum in our four year colleges, I think, is 
very, very important.
    And the other thing that I would want to add on the teacher 
issue is I really do think we have to have some flexibility now 
to tap into the tremendous resources of people who are now in 
their fifties, sixties, that want to give back, and are willing 
to come in and teach in schools. I mean, I know in my case, I 
had a math teacher that was 70 years old and retired from 
Goodyear Rubber Company, and you know, he was teaching junior 
girls, a little girls school, we were doing advanced calculus, 
and you know, we loved it. We loved having him there. That is 
not really allowed in most of our schools today, so we don't 
have that flexibility, and we are losing a whole cadre of 
people who have the skills and the love, and they would like to 
be with young people.
    Mr. Lampson. Mr. Chairman, can Dr. Barrett and Dr. Lane 
both respond?
    Mr. Barrett. Two quick comments. I think the concept of 
meritocracy in the K-12 public school system is absolutely 
needed, and that is a pay for performance issue. Higher 
performance of teachers, they ought to get paid more for it, as 
opposed to just--for time and service. I think every example 
where that has been used shows that, and every study of the 
education system has suggested that as a way to motivate more 
people to participate in the K-12 teaching area.
    As far as the areas that the Rising Above the Gathering 
Storm singled out for increased R&D spending, I think that 
those are the fundamental areas that have been driving the U.S. 
economy for the last half-century, and they also are the areas 
where the funding has been flat, in an absolute dollar 
standpoint, for the last two or three decades. So, in essence, 
they have been defunded over the last 20 years, on the basis 
that the funding has been flat, and inflation has eaten into 
the investment in those areas.
    Mr. Lane. Mr. Lampson, on the issue of teacher respect, let 
me just mention something I think you know that we are doing in 
Texas. The Texas Academy of Medicine, Engineering, and Science, 
an institution that really was stimulated by the interest of 
Senator Kay Bailey Hutchinson, has taken on an education 
project, really being prompted by the Gathering Storm report, 
and the way they are addressing--we don't know how they are 
going to address K-12 education in general. They are just 
starting to have a look at it.
    But one thing they are doing is bringing teachers from the 
schools into contact with Nobel laureates, members of the 
National Academies, at their annual meetings, and having them 
sit and dine with them, hearing from them and their comments, 
making it clear that the scientists and engineers, the 
technical professionals, believe these people are important, 
that they have got an important job to do, and they care about 
what their problems are, so it doesn't involve any money in 
that particular case. I completely agree with Dr. Barrett in 
terms of merit salary considerations. This is yet a different 
kind of thing that one can also do, just to show you care, just 
to show it makes a difference.
    Mr. Lampson. There is a program, Mr. Chairman, at NASA, 
that had to do with a camera on the International Space 
Station, that could be operated by elementary school students, 
and that program, which was a minimal or almost no cost, is 
going to go away. And finding simple little things like that, I 
believe, adds to the opportunities that teachers have to 
inspire young children at the ages that we need them to be 
inspired.
    Thank you very much for your extra time.
    Chairman Gordon. Thank you.
    Mr. Lampson. And thanks to the panel.
    Chairman Gordon. The gentleman's time has expired. Looking 
to my right, I see no one, so Mr. Lipinski, you are recognized 
for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman, and thank you, Mr. 
Chairman, for holding this hearing, and bringing together this 
panel. Thank you all for your testimony.
    It is really an issue that hits close to my heart, but 
unfortunately, I just felt a little guilty there. Mr. Augustine 
was talking about the, for example, how the engineers have to 
let young people know, you know, the excitement of their 
profession, and every time I hear something like that, I think 
about the fact that I left engineering behind to go into 
political science, and then, to come here, and I sort of feel 
guilty that maybe I am not giving that, talking about that 
excitement of being an engineer, although it just didn't turn 
out to be what, the road that I was going to go down, but I 
always think that that education was the best education I could 
have gotten.
    One thing, in Mr. McGraw's testimony, you had said that the 
key to America's competitiveness challenge is innovation, and 
there is a bill that we passed on the House floor yesterday 
that I authored, to help the metals industry, steel, aluminum, 
other metals industries, by providing federal funding that 
would go to colleges, universities, other research 
institutions, and would be matched with a 70 percent federal, 
30 percent industry match, to do research and spur innovation, 
for the metals industry to be able to be more efficient, more 
environmentally friendly, and I think this is a rather unique 
way of going about funding R&D.
    And is this something that you think is a good way of going 
about it, is this a good example of what we can be doing?
    Mr. McGraw. I think it is a start. I think if you take a 
look at most successful companies, and especially on the 
technology side, they are doing a tremendous amount of 
cooperative alliances with various research universities, 
university labs and the like, and so anything that will tie the 
academic and the business world together, will let you see 
those most innovative and most creative ideas. So, anything 
that would spur that, I would think would be a good thing.
    Mr. Lipinski. And do you think this is lacking right now, 
or do you think there are any other ways we can incentivize 
this, or there--is this not the best direction to go, in terms 
of innovation?
    Mr. McGraw. Well, you know, I think you are either going to 
go there or you are going to be gone, and it is going to be 
very difficult to survive in this kind of global environment 
with the kind of competition you are facing, if you are not 
innovating. And I think you want to take a look at any company, 
in terms of how they are using their free cash flow, how do 
they generate free cash flow, and then, what are they doing 
with it?
    And now, I think we have gotten to the point where we have 
over-financially engineered some of our organizations, and I 
think some of the climate that all goes well for the short-
term, and less for the longer-term puts certain public 
companies in a very bad light.
    And, this is key, you want to take a look at what a company 
is generating in terms of organic growth. And I would say to 
you that for basic industry today, organic growth is way too 
low, and that is a result of the business climate and the 
environment and the financial markets, and less of a 
willingness to take risk, and so forth. So, yes.
    Mr. Lipinski. Sort of leads into my next question. 
Recently, BP gave a $500 million grant to build and operate an 
energy biosciences institute, and unfortunately, Dr. Dynes is 
not here any more for me to compliment. Berkeley, both 
University of California-Berkeley and the Lawrence-Berkeley 
Lab, along with the University of Illinois, have a partnership 
that was awarded this $500 million grant. They are going to 
research biomass.
    What else can we do to incentivize this type of grant 
giving, this kind of work by private companies, to help further 
with innovation?
    Mr. McGraw. On the energy sector, you are using the BP 
example? Well----
    Mr. Lipinski. Or anywhere else.
    Mr. McGraw. For a public company, you have to have enough 
balance within your overall business portfolio, such that you 
can take those kind of risks. And eventually, you have got to 
get returns out of that, so when you start talking about a $500 
million fund that BP is talking about, actually, that is not a 
very good example. They have not done a very good job at 
investing in alternatives, and yet, their core infrastructure, 
in terms of some of their oil and gas abilities, has not gone 
very well. They haven't reinvested in some of the existing 
equipment.
    But to encourage, incentivize people that way, you have got 
to have a path towards a return. Otherwise a public company, 
you know, is going to be less inclined to do that.
    Chairman Gordon. Dr. Barrett, the gentleman's time has 
expired. Mr. Rohrabacher is recognized for five minutes.
    Mr. Rohrabacher. Thank you very much. Mr. Chairman, I would 
like to congratulate you on just getting a running start in 
your new job as Chairman with this legislation, and I like the 
idea that you are moving forward, trying to provide a benefit, 
educational benefit, but at the same time, requiring some kind 
of service in exchange for the benefit, which I think is 
something that will actually be a twofer.
    Whenever you move forward, you should at least try for a 
twofer. When we are here in this job, we are not only helping 
some young person get an education, but we are also providing, 
perhaps, a service to schools that need a science or 
engineering or mathematics teacher. We are providing them 
someone who could help them for a few years.
    So, I will be looking very closely at this legislation, to 
see if it is exactly what I can support, but it is certainly 
going in the right direction, and we will see.
    With that, I, you know, a couple times during the 
testimony, I couldn't help but hear, and maybe Mr. Bilbray may 
have already brought this up, I couldn't help but over-hear and 
just sort of shoved into the discussion concepts like H-1B 
visas, and getting students from overseas here. Let me just 
note that when you take a look at the supply and demand and 
wages, and things like that, the very last thing we need to do 
to encourage our young people to get involved in science, 
mathematics, or engineering, is to provide the hundreds of 
thousands of H-1B visas, which are being asked for for 
business, in order to keep down wages.
    You know, every time we turn around, you are saying we need 
to get more immigrants into this society to do those jobs that 
Americans won't do. Well, we are talking about jobs that are 
high paying jobs that Americans should want to do, and the very 
last thing you need to do is bring the pay level down on those 
jobs, or put a lid on it by having more people come in from 
overseas.
    So, I would submit that as just for the record, as 
something that whatever, if we can talk about giving, you know, 
providing more classroom and more classes, and more science 
teachers, but unless the kids know that, in high school in 
particular, that there are good jobs that are available, that 
they can afford to live in a nice home and raise their family, 
as compared to just people who want to be lawyers, you end up, 
all the lawyers end up in the nice houses, and the engineers 
end up not being able to be renters some place in a place that 
is not so nice, you are not going to get more quality young 
people into that profession.
    So, again, I think the secret, Mr. Chairman, that we people 
always overlook, because it requires coming up against power 
structures, is pay more money to engineers and scientists and 
mathematicians, pay more money to science, mathematics, and 
engineering teachers, and you are going to get more of them. 
And if you insist on having basket-weaving and gymnasium 
teachers getting the same amount of money as someone who is 
teaching engineering and math, then you are not going to get--
you are not going to have the quality people that you want, and 
it just comes down to that.
    One last note, and again, it was just sort of thrown in 
here about, and I think it was Mr. McGraw who mentioned it, but 
maybe might have mentioned as well, something about, you know, 
we don't want kids to drop out of college. We don't want--we 
want kids to get that bachelor's degree, or the AA degree from 
a junior college. In my area, we have got a junior college of 
20,000 kids. They only have 180 kids in that program who are 
involved in the nursing or healthcare training program. Yet, 
all the kids who end up getting out are going on to get a BA, 
they can get great jobs at $30,000 or $35,000 when they get 
out, but if they get trained as a healthcare person, they can 
end up getting a $50,000 to $60,000 a year job.
    So, I would submit that we need to be training our young 
people for things that are, for jobs that are going to give 
them a good livelihood, and jobs that are necessary and pay 
well, as compared to just try to--oh, everybody is going to 
need a BA. Well, everybody--well, I don't think everybody does 
need a BA. I think we need to get some training in there, and 
anyway, those are some thoughts. I would be happy to have the 
panel shoot me down or whatever.
    Mr. McGraw. Well, let me take a quick crack.
    Mr. Rohrabacher. Yes. Yes, sir.
    Mr. McGraw. You know, it is--and I would hope, Mr. 
Chairman, that you could find a bridge to the education agenda, 
because I think there would be a lot of shared thoughts that 
could be very helpful.
    But you are talking about, you know, a landscape that is 
very, very different. When we are talking about dropout rates, 
we are talking about in our inner city schools, our largest 
inner city schools, 45 to 50 percent dropouts.
    Mr. Rohrabacher. I thought you were talking about college 
and dropping out.
    Mr. McGraw. And college as well, but coming back to your 
saying let us get more teachers and all that, you know, there 
are so many things that go into, so many socio-economic things 
that go into why that is.
    But I come back to a comment that we were talking offline 
with the Chairman about, and that is that if you really want to 
get after a more serious rigor--and we are not just talking, 
you know, the highest level of scholar and science achievement, 
we are talking about math and science skills at the high school 
level, so that you are proficient--then you have got to focus 
on reading. Because the problems are all coming back to 
reading, and that is why you see all of the emphasis in the 
early parts of No Child Left Behind focused on the reading 
achievement. Because if you lose, after a year, if I lose a 
student after a year, I have probably lost him. And if it is 
two years, it is done, on my part.
    And what we are finding now is that it is not just at the 
early childhood learning aspect, it is at the middle school, in 
particular, because most of those people are coming now with 
reading deficiencies that can't get them into the other 
disciplines. They can't get into the higher math and the higher 
science, and they don't have those comprehension levels. So, 
the focus has got to be on reading to get the higher math and 
science capabilities. One of the things that was very 
disappointing in the NAEP test that we mentioned, 35 percent of 
seniors in this country that are graduating, are not 
proficient, or 35 percent are proficient in reading, the rest 
not. At math, it was 23 percent are proficient. I mean, these 
are horrible outcomes, for you know where we are as an advanced 
nation. And we have to do a better job.
    But I would come back to you that the first thing that we 
have to focus on is the reading capability.
    Chairman Gordon. The gentleman's time has expired. I think 
Dr. Barrett wanted to address Mr. Lipinski, but we are going to 
wait just a moment, be patient. Ms. Giffords has been here for 
quite a while, and I warn you, she is ready. She has a copy of 
the Gathering Storm, and it is even tabbed and underlined, so 
she has taken her assignment very well.
    Ms. Giffords. Thank you, Mr. Chairman. Of all the committee 
hearings that I believe we are going to have this year, I 
honestly think this is probably the most important one, and so, 
I just want to appreciate you all being here. This is really 
important, and it is really serious stuff that we are talking 
about, and I just commend you, Mr. Chairman, for bringing the 
panel together, and continuing to highlight that this document 
is one of the most important documents that this Congress is 
going to face. This really is serious, this brewing crisis we 
have.
    Quick story. I was in Scotland a couple of years ago, 
actually with a group called the Global Enterprise Challenge, 
which are young high school kids who are tasked to put together 
an entrepreneurial program all across the world. Groups from, 
you know, from South Africa to Antarctica, I mean, really all 
over the planet, these high school groups competing. It was 
fantastic.
    And I met with a woman named Lady Strathmore, related to 
the Royal Family, who told me about this wonderful woman in 
Arizona, Barbara Barrett, so you even have to sometimes go to 
the other side of the world to learn about some of the 
resources that you have in your own home state. So, it is good 
to see you, Dr. Barrett.
    I am going to just throw out a couple of questions. It is 
hard with five minutes, but these are issues that are important 
to Arizona that are not addressed in the document, and I just 
want to know whether or not you have taken any of these issues 
into consideration.
    Our world is different. When I look back to the 1960s and 
1970s, President Kennedy's vision, sending a man to the Moon, 
why we pushed forward in innovation, those days are gone. 
Families are no longer like those families. Our schools are 
different. Our society is really different. So in a lot of 
ways, you know, we are looking at a totally different world. In 
Arizona, the proficiency in terms of just English, the 
proficiency in just literacy levels, I mean, the whole world is 
different. The family structure is different.
    So, my first question I have is what is going to be the new 
Apollo mission? I believe it could be energy. I mean, I keep 
trying to get people excited about the way that we heat and 
cool our homes, and we move around this planet. I really think 
that we could get that next generation of kids excited about 
that. And I am curious whether or not, you know, if you all, as 
a group, have thought about that spark, something that is 
really going to stimulate, you know, young people's minds.
    The second question, and I don't think this is addressed in 
the document, is early childhood development. All the data and 
research that I have seen shows that if you don't get kids at 
the really early levels--it is not--I am not saying it doesn't 
matter what you do at K-12, because it does, but if you don't 
get the, you know, the 0 through 3, the 0 through 5, it is 
tough to go back and take those minds, and do the developmental 
work that needs to be done.
    Third question, and there was an article just a couple days 
ago in the paper about this, women working in the United 
States, where other industrialized societies have realized that 
population growth is decreasing because more women are deciding 
to have a career. I am a good example of that. So with that, 
with professional women now choosing not to have children, we 
see populations declining, but not a big move by this 
government to realize that if we want professional people to 
have children, that we are going to have to make some 
accommodations in the workforce, because you just can't have it 
all. So, that is my third point.
    And fourth point, as we know, girls tend to drop off in 
math and science at about the sixth, seventh grade, and this, I 
don't believe this document really addresses what we can do for 
that next generation of really targeting girls in math and 
science, and re-looking, reexamining what we can do in that 
arena.
    Mr. Barrett. Could I try real quickly? Arizona, is it? 
Right on on energy. Energy is a math, science, engineering 
intensive problem, with the U.S. wanting to be independent from 
its energy requirements--program--it is a softball waiting to 
be hit by either party. I am surprised it hasn't been hit to 
date.
    Second, there is--there have been many interesting studies 
about early childhood development, and the latest one that I 
have seen is all-day kindergarten versus not. By the third 
grade, it is a wash. It turns out the longer kids stay in the 
K-12 education system, the worse they do. You either have to 
fix the K-12 education system, ultimately, or it is a perfect 
filter. It filters out the kids that we want to succeed in math 
and science going forward.
    So, there is not a simple answer anywhere, but there are 
things that I think the United States could rally around. The 
Gathering Storm suggested the DARPA energy focus, primarily 
because we thought energy could be a national focus to get 
kids, and the political air cover to get kids interested in 
math and science going forward.
    Mr. Augustine. I might just add to that. You asked a group 
of really good questions.
    What could be the spark? I agree with Craig, and that was 
the view of the National Academies as well, that energy is the 
issue. Not only is it heavily dependent on the kind of math and 
science we were promoting, but as you know, it affects 
everything from the environment to the economy to national 
security.
    With regard to your point about affecting children at an 
early age: that is critical. We found that often children were 
lost to math and science by the time they were in fourth grade. 
We can't, I am afraid, always count on parents. Today, 70 
percent of parents of high school children believe that the 
math and science their children are getting is adequate. 
Parents are comfortable. I think the teachers and the schools 
are going to have to provide that spark. Again, if we could 
bring people in that would teach those younger children, and I 
think there are a lot of people who would. In my own case, when 
I took early retirement, so I could teach, I couldn't teach in 
our public schools. I can't teach fourth graders, so I taught 
engineering in Princeton instead. There seems to be something 
wrong with that.
    My last comment is to strongly endorse your remark about 
women. Women are 18 percent of engineering graduates in this 
country. Minorities are far more under-represented: less than 
five percent. If we are going to compete in the world market, 
having over half our population not participate, it is a 
handicap we can't endure.
    Ms. Giffords. Thank you.
    Mr. Baird. [Presiding] Dr. Lane, it looked like you might 
have a comment, and then I will call on Mr. Rothman.
    Mr. Lane. And let me mention this, because we haven't 
mentioned the word technology in the context of education, I 
think, in this hearing. And Ms. Giffords, among the many things 
that have changed in the environment that our young people are 
growing up in is technology, and so, you know, my little 
grandkids and medium grandkids, they talk on cell phones, and 
they have computers, and they do all that stuff.
    I am connected with a not-for-profit in Texas called 
Reasoning Mind, that has an extraordinarily exciting online 
math technology availability that we are experimenting with in 
Houston, and it has had wonderful success. You know, it has an 
onscreen little genie, helpful, it addresses all kinds of 
different levels. My point about it is that we do, of course, 
need wonderful teachers, and we need more of them than we have 
right now, but we are probably never going to have enough of 
those teachers, but what they don't need, that some of the 
tools, that technology can deliver. And we haven't had great 
success getting technology in the classroom. I think, though, 
we should not ignore the fact that our young people are growing 
up in that kind of environment. And there are some tools, I 
think, that can be provided to even the best teachers to enable 
them to reach more students than they are currently able to do. 
So, I would put in a plug for the more innovative technologies 
that we can find to support.
    Mr. Baird. Thank you very much. Mr. Rothman, I am going to 
let Mr. Rothman proceed. Did you feel like--Ms. Wince----
    Ms. Wince-Smith. Oh, well, I just wanted to comment on the 
issue of women, and there is an initiative underway that has 
tremendous outcome metrics now for encouraging women to 
actually be involved in this entrepreneurial economy that I 
talked about, and that is professional science masters. These 
are programs that a number of schools are starting. Georgia 
Tech has one that is fantastic. Women and minorities are 
getting, in terms of the numbers, very high numbers of these 
degrees. For instance, in the Georgia Tech case, they have a 
degree in nanodevice fabrication, and then, they have 
accounting, business, all the skills you need to actually go 
out and take this knowledge and create something and deploy it 
for commercial value.
    And it is very interesting, when you look at the trends, 
that the majority of graduates of professional science masters 
are women and minorities. So, something is going on there that 
is enabling a very systemic type of thinking, and also, the 
skills that you need to go out and create something in the 
business world. I would urge you to look at professional 
science master's, and particularly the linkages with women.
    Mr. Baird. Mr. Rothman.
    Mr. Rothman. Thank you. First, let me apologize for being 
late. I have three hearings scheduled at the same time. I am 
sure I am not unusual in that regard, with the rest of my 
colleagues. So I apologize for being late, and if I have 
asked--I am about to ask a question that you have already 
answered.
    And I hope this is not too far afield from this subject, 
but you are all great scholars and successful people, so I 
thought I would ask you.
    Is there something about our culture, our American culture, 
that is preventing greater success in our public education 
system? And if you have any thoughts on that subject, I would 
like to know, or any--in particular, any suggestions as to what 
we can do to counter either the negative trends in our culture, 
or to enhance the positive aspects of our culture that would 
improve the educational performance of our student body? That 
is number one.
    Number two, you know, depending on what you read, you know, 
you have people saying oh, we are doing just fine. Our 
expectations are too high, to expect Ph.D.s from every single 
one of our children, and everything is just unreasonable. I 
would like to have your thoughts on that.
    And the third thing is the role of parents. I have five 
kids now, and the role of parents, I think, is critical, but 
not everyone has the luxury of spending the time with their 
kids, or coming in and becoming a part of the school family, 
school community, that raises the expectation level for the 
teachers and administrators, as well as their own children. So, 
what do you do about those kids whose families are not, that 
don't have that extra time to devote?
    Mr. McGraw. Well, first of all, the educational system in 
the United States worked. It gave us the largest economy in the 
world. It gave us technological excellence. It gave us the 
highest productivity levels, and so, it worked. The issue, and 
what changed, was a world grew up, and what we are seeing is a 
global economy in the works, with increasing worldwide 
competition.
    And we have come to the realization that, we have to bring 
more people along, better skills, and better capabilities, and 
we have taken our foot off the accelerator, and we have got to 
put it back on. And you just aren't going to do that overnight. 
And that is why programs like H-1B visas or anything in the 
short-term, to be able to jumpstart some of these things, is 
very important.
    I think--a conversation we had a little earlier, you know, 
it was governors in the '80s, that were running deficits in 
some of their large cities, and in their state, and it was 
them, that was--to survive politically, it was about achieving 
economic growth, and if it was about achieving economic growth, 
it was reaching out to the private sector. It was about jobs. 
It was about the right kind of skill sets, and therefore, it 
was about your education system.
    That is the first time, the first time that the achievement 
of economic growth and the education system has been linked. 
The system has been in reform, really, only a very short period 
of time, and now, with the realities of what we are facing, in 
terms of a world competition, we have to get moving again.
    And so, a lot of these things are wakeup calls, and I think 
H.R. 362 is, H.R. 363 is, but again, the tide the Chairman was 
talking about, back to the education agenda, the problems are 
enormous. You know, in 1997, only a third of the states had 
academic standards. No Child Left Behind, which was fabulous in 
terms of landmark legislation. Is it perfect? Has it put all 
the weights in the right spots? No, but it started aligning 
federal, State, and local education. Today, all 50 states have 
academic standards. It would be nice if some of them were more 
common, but all 50 have them, and what you are starting to see, 
in terms of instruction, is that standardized instruction is 
starting to go up, which means you are coalescing around 
academic standards. In other words, I am going to buy reading 
materials for every class in every school, and we are going to 
get behind research-based, proven-to-work kinds of product.
    There is no way to have everybody doing things in different 
fashions. You can do remedial and intervention, but you are 
going to get to more standardized instruction. So, I think it 
is pretty clear that if you fast forward, we are on a path 
right now that you are starting to see all the concerns and new 
thinking starting to take place, but it is going to take us a 
while. That is why I think some of the comments about 
alternative certification are interesting. I mean, the fact 
that Norm can't teach a fourth grade class. We have got to get 
into those kinds of issues. We have to encourage people that 
have done well to find other ways to give back, as we all live 
longer.
    So, the other one is, is that you have got to tie it to the 
job market, and you know, we can talk about math and science at 
the high school level, and having those kind of competencies. 
You can talk about scholarly work at the National Science 
Foundation and the like, but in terms of getting those 
capabilities, you have really got to tie it to a job market, 
and I think the comment about churn was so right. Every three 
months, we lose seven to eight million jobs. Every three 
months, we gain seven to eight million jobs. Change is taking 
place so quickly that skills have got to be able to match some 
of those new capabilities.
    Chairman Gordon. The gentleman's time has expired. Does 
anyone else on the committee want to take on that monumental--
yes, ma'am.
    Ms. Wince-Smith. Well, I think it is interesting to link 
this question, also, to regional economic development, because 
throughout the country now, for the first time, we are 
beginning to see an alignment between investments and workforce 
skills. You know, we are spending about $15 billion going out 
to workforce boards. Public education reforms must be aligned 
with economic development strategy, because people are choosing 
to live and stay and work and build their lives in communities 
where there are high performing schools.
    And so, education is becoming a very important asset for 
not just keeping people, but also, attracting within our 
country people that want to live and work in areas that are 
considered high value entrepreneurial regions. So, the area 
that I think is the Achilles heel to all of this is how much 
localization do you have in determining these standards in 
performance. If you look at the current school system, and you 
compare it to any private enterprise, you know, the 
productivity levels are worrying. We are spending more per 
child than any other country but Switzerland, approaching $600 
billion, and yet, in terms of these outcomes, we are not really 
seeing progress.
    So, I think the school boards have to really take some 
ownership here. I mean, they are approving contracts, they are 
approving the contracts for teachers who have no math, science 
skills, but are teaching math and science. And the parents are 
on these school boards, so it is a whole continuum, and I think 
until communities come together in an integrated way, we are 
going to continue to see these things being looked at in 
stovepipes, and that is very bad for the country and for our 
children.
    Chairman Gordon. Mr. Augustine.
    Mr. Augustine. You mentioned three issues: culture, 
parents, and expectations. My view is that the culture has 
changed. And that change is closely related to the role of 
parent. My parents never had the opportunity to go to college. 
Obviously, neither was a scientist nor an engineer, but they 
darn well understood the importance of an education, and they 
made it clear to me. Another cultural change that somehow has 
been missed in all this is that the great teachers I had were 
almost all women. Today, those teachers are probably lawyers 
and doctors and bankers. In those days, they didn't have much 
choice, other than to be teachers, and there has been a 
profound change that you don't hear much about.
    With respect to culture, it becomes a matter of priority to 
a very great degree. Many of our children place more emphasis 
on being great athletes than great students. Our society 
promotes that. About two years ago, I was visiting an Asian 
country that had just been hit by the tsunami. There was 
wreckage everywhere, but there was also a school outdoors in 
the jungle, where it was extremely hot and ten-year-old 
children were sitting there eight hours a day going to school. 
We probably wouldn't have seen that here.
    With regard to expectations, clearly, the intent of the 
Academies was not primarily to promote huge numbers of Ph.D.s 
in math, science, and engineering. The thought was that Ph.D.s 
are important because they do the basic research that is going 
to create jobs for the rest of us; but the rest of us have to 
be at least articulate enough to understand fundamental math 
and science.
    Chairman Gordon. Well, I think--Mr. Bilbray was here most 
recently, but Mr. Bartlett was here earlier, and so, Mr. 
Bartlett, we yield to you for five minutes.
    Mr. Bartlett. I'm on? Okay. Apologize for not being here 
during the questioning. I don't know whether this issue has 
come up or not.
    I think the really big challenge we face is a cultural one. 
What you are proposing is fine. These two bills are okay, but 
they really won't solve our problem. A society gets what it 
appreciates, and we just do not appreciate people who are in 
these technical areas. A bright young guy is now called--when I 
was in school studying science, we were what, squares? Now, 
they are geeks and nerds, and the pretty girls have to play--I 
mean, bright girls have to play dumb to get a date.
    I think that I will have some confidence that the culture 
is changing when the White House invites academic achievers in 
and fawns all over them the way they do sports figures. 
Clearly, what we need is an appreciation of the contribution 
that these professions make in our society. It just isn't 
there. And what concerns me is that it is there in countries 
like China and India that are going to eat our lunch if we 
aren't careful. China this year will graduate at least, they 
will graduate more English-speaking engineers than we graduate, 
and about half of our English-speaking engineers are Chinese 
students.
    What can we do to change the culture in our country, 
because that is the real problem? I remember when we put a man 
on the Moon, and there was a little cartoon that came out, 
which said the whole thing. A little buck-toothed, freckle-
faced young fellow, and he said: ``Six months ago, I couldn't 
even spell engineer, and now, I are one.'' Everybody wanted to 
be in this, because it was culturally, it was the thing to do, 
and it was really appreciated.
    What can we do to change the culture? Because I know all 
these other things are just nibbling at the margins, Mr. 
Chairman. Until we change the culture, we are not going to get 
there. What can we do to change the culture? Dr. Lane.
    Mr. Lane. Well, I don't want to make a political comment in 
a place like this. But you mentioned President Kennedy. I 
believe the American people are looking for vision and 
leadership of that kind. I mean, we will have a chance, we have 
elections coming up. We will have a chance to see whether such 
a leader emerges or not, but I really believe the people, with 
all the changes that have occurred, I think at a fundamental 
level, there is an anxiousness on the part of the American 
people to find an exciting idea, an individual that can really 
follow where the case kind of makes itself. And maybe the 
answer will be around something like energy and environment.
    I don't know what the issues will be, but it is going to 
require, I think, leadership at the highest levels in our 
government, in branches of government, and you know, again, I 
applaud you, Mr. Chairman, for your leadership, and the room is 
full of leaders now and in the past, attempting to do that. I 
think we need that. I am looking for that. I think that is what 
is going to help my grandkids that I talked about earlier in my 
testimony, and I am not sure what, short of that, actually 
would cause the entire country to begin to move in a different 
direction.
    Mr. Hall. Would the gentleman yield?
    Mr. Bartlett. Yes, sir.
    Mr. Hall. Dr. Lane, would it be the time, then, for 
somebody to come riding in on a great big beautiful white 
horse? Knowledgeable, with a track record, solid citizen, 
leader, handsome----
    Chairman Gordon. I think Ralph is announcing.
    Mr. Hall.--success, totally successful, has been appointed 
by every President to lead studies, has been a leader in 
everything that is good and successful and wholesome for the 
United States of America. Is it time for Norm Augustine to make 
his announcement? We are looking for an Eisenhower somewhere 
now.
    Mr. Lane. I second that nomination.
    Mr. Hall. I yield back my time.
    Mr. Bartlett. Thank you. I just wanted to note that if 
having a lot of descendants makes you more cognizant of the 
problems we have, I have--we have ten children and fifteen 
grandchildren and two great-grandchildren, and I am here 
because I was concerned that the world I grew up in, the United 
States I grew up in, was not going to be the United States they 
were going to live in. We have too darn much government. It 
regulates too much. It taxes too much, and we don't have enough 
respect for careers in these technical areas, and you know, 
help us decide what we can do here in the Congress to make this 
change.
    Leadership is really, really what we need, Mr. Chairman. We 
can do some things from the Congress, but you know, we really 
need that leadership from the highest levels of government. 
They are enormously more effective than we are.
    Chairman Gordon. The gentleman's time expired. Mr. Bilbray 
is recognized for five minutes.
    Mr. Bilbray. Thank you. Maybe we will start having 
television shows about engineers rather than lawyers, then, Mr. 
Chairman.
    I think that the perception of the cultural challenges we 
face, but I just say that, because let us face it, how many 
engineers shows have you seen over the last 30 years, and how 
many about lawyers? And frankly, if you look at where our kids 
are going, they are following the cultural line.
    I just have to point out that when we talk about the 
culture, the '57 Sputnik created an urgency and a perception of 
threat, and we responded to that urgency, that perception of 
threat, and that the people working, becoming engineers then 
were perceived as being the guy who may save America from the 
Great Red Horde that was coming. There was--and it was a 
misperception, that somehow the race for space was about 
national defense.
    But that aside, let me sort of move back to the--some of 
the discussion. I have got a question here. I come from San 
Diego County. I have the high techies in my district, and I 
have seen where the cooperation between educational 
institutions and the private sector has made a huge 
breakthrough. In fact, let me just throw up an item there. 
There is a classic example, one of the few locations where I 
see that academia doesn't think it is illegitimate to aim 
straight for economic opportunity from an education. There is 
too much, I think, in academia that somehow, they need to be 
above the economic realities, and jobs should be a secondary 
issue, not the primary. But I think that if you look at our 
universities, and their cooperation with the private sector, it 
has been a big plus.
    Mr. Chairman, there is another big plus that isn't used, 
and that is building on the success that we have in San Diego 
of the spin-offs of those who were in the military, who have 
learned engineering, learned a lot of this kind of high tech 
stuff with federal funds, and actually have gone in and filled 
the gaps in our economic need for these opportunities with the 
private sector.
    I actually just want to ask you, along with that high tech, 
we have biotech, and if we look at the challenge of fuel, of 
alternative fuels, though in the past, providing, fueling 
America took civic engineers and geologists. The future may be 
biologists, but genetically altered enzymes may be the secret 
to developing fuel independence that we don't know about.
    Is there a reason why the life sciences aren't being 
highlighted here?
    Mr. Augustine. With regard to the National Academies' work, 
we view the life sciences as of enormous importance, not only 
for the reason you cite, but because of their impact on health 
sciences and many other things.
    The reason we did not emphasize those fields was due to the 
good work of this committee and others in recent years. We saw 
a doubling of the budget in the life sciences, and the 
biosciences, whereas the physical sciences, math, engineering, 
have been flat, in real terms. So, we felt it was time to give 
the physical sciences, math and engineering, the same emphasis 
that the biosciences have already received. And we have been 
careful to always say that we don't want this emphasis to be at 
the expense of the biosciences, to let them atrophy by not 
accounting for inflation; not increasing their budgets would be 
a mistake. We are just now reaping the benefits of that growth 
in the budgets for the biosciences. In no way do we diminish 
the importance of those sciences. It is just that the physical 
sciences were left out for the last 20 years.
    Mr. Bilbray. Okay. Let us talk the H-1Bs. There is the 
issue--my colleague from the other half of the Surfing Caucus, 
Mr. Dana Rohrabacher, was pointing out the threat of H-1Bs on 
employment opportunities for certain groups.
    It is kind of interesting, Mr. Chairman, that when it is an 
engineer and a college graduate who may have their jobs 
threatened with an immigration policy, they come unglued. If it 
is blue collar working people, it is not a big issue. I think 
there is a real opportunity here, though, to expand the H-1Bs 
within the realm of logical immigration policy.
    And a good example was the fact that we have a thing 
called, and I would ask the Chairman to really look at this, 
the lottery, the immigration lottery, which is really a just 
let us see who comes up with the lottery, 55,000 a year, people 
without any qualifications that we need in this country, people 
coming from countries that are the highest risk for terrorism, 
and I think this is one place that this committee and Judiciary 
ought to sit down and say does it, is it logical for this 
country to set aside 55,000 slots for somebody with--don't 
identify we need, when we have H-1Bs over here that aren't 
being serviced? And maybe, we want to shift our priorities and 
say, first priority should be to what America needs first, and 
then, and only then, after that, do we talk about what somebody 
in a foreign country may want to immigrate or may not want to 
immigrate.
    And I think, I just ask comment on that, is setting these 
priorities within the existing immigration policy, do you guys 
agree that there may--we ought to be more aggressive about 
looking for those opportunities?
    Ms. Wince-Smith. I would comment on that, because I think 
beyond the H-1B and particular technical skills, we should be 
looking for highly skilled people across a whole range to come 
to the United States. That was really the discussion this 
morning around capital markets, that our immigration policy, 
overall, is one that is not relevant to what we need for the 
21st Century, and of course, there is a humanitarian issue that 
is part of being American, but I would agree with you that 
there ought to be some look at that.
    The other thing I wanted to make a comment on, and maybe my 
colleagues from industry could answer this, I have spoken 
before about the shortage of engineers, and what is going on in 
China. There was recently a group of investors in New York, and 
they said well, what you are saying is completely poppycock, 
because if we needed engineers so much, why aren't they being 
paid? Why aren't they getting the salaries? Why aren't 
companies paying them? Why aren't they paying scientists and 
engineers the same kinds of signing bonuses that lawyers get? 
And I didn't really have the answer to that, so I don't know 
what is the answer.
    Chairman Gordon. The answer is they are being outsourced, 
because, as Mr. Augustine pointed out, the world is flat. Get 
it on the Internet. That is the problem that we are having.
    Ms. Wince-Smith. If they are lower value engineers, but the 
higher ones, the ones that have Ph.D.s, I didn't have the 
answer.
    Mr. Augustine. I think it is true; engineering, like many 
other things, is being commoditized on a world basis, and the 
salaries of engineers are being determined more and more by 
what engineers in India and China can be bought for, and that 
is not going to be true only of engineers; it is going to be 
true of a lot of other people before we are done here.
    Chairman Gordon. The gentleman's time has expired. Mr. 
Baird was shortchanged a little earlier, and so, I would like 
to recognize him again.
    Mr. Baird. Thanks very much, and I appreciate the panelists 
for coming back after the delay. Sorry about the interruption, 
but you know, the question is, Mr. Chairman, many of us have 
talked about culture, Mr. Bartlett did. I think we might want 
to look at our own house. It would be troubling, I would 
warrant, that if we were to look at the number of memorial 
resolutions we pass under suspensions honoring sports teams, 
movie stars, et cetera, versus scientists, engineers, and 
teachers, it would be a symptomatic disproportion. So, we may 
be guilty of it as well.
    But Dr. Augustine, I was very interested in a couple 
things, and these are both potentially controversial, but I am 
going to put them out for actually any of the panelists. One 
is, there is a brief allusion in the Gathering Storm, to the 
possibility of a voluntary national curriculum in the sciences. 
I am actually pretty intrigued by that. We have school 
districts in my district that have 40 percent turnover every 
year, so you have got a kid who comes in one year, gone the 
next. And ironically, under No Child Left Behind, they somehow 
may be failing, even though 40 percent of the kids haven't been 
in the district.
    But setting that aside, every time they move districts, 
move states, they may have to somehow get into a different 
sequence of education, a different textbook, et cetera, and I 
would be interested in your thoughts about the inefficiencies 
there. That is point one.
    The second question, and this is really possibly a third 
rail, is--it is clear to me, almost by definition, that at some 
level, the colleges of education are not doing the job of 
turning out qualified teachers. And we tend not to talk about 
it. It may be an easy target, and overly convenient, but I 
wonder, I know that there seems to be an increasing awareness 
that we need to involve the disciplinary colleges in the 
sciences, in coordination with the colleges of education, but I 
don't think the colleges of education alone can do this, for a 
variety of reasons, and I would open up both of those to the 
panelists for their commentary.
    Mr. Augustine. Those are two very good questions. With 
regard to the voluntary curriculum, the reason we proposed that 
is that it was our observation that within math and science, 
the curricula in many school systems are, frankly, not very 
good, not very demanding, and we thought that math and science 
lend themselves to a standardized curriculum. Until you just 
mentioned it, I had never thought of the impact on the mobile 
society; it is a very important secondary impact that we 
overlooked.
    With regard to the colleges of education, our proposal was 
that through competitive scholarships, we find young people who 
want to study math and science, and in return, agree to teach 
for five years, in the hope that they will stay beyond that. 
That is our way to get around the fact that many of the 
students in the colleges of education just aren't interested in 
math and science. We would like to give incentives to children 
into those fields.
    Mr. McGraw. They are very good questions, and they are very 
thorny, because of the way things are funded. And one, we have 
already started to see experimentation in standardized 
instruction, but the issues that you raise, in our inner city 
schools, because of some of the housing requirements, even, 
what you are seeing is just a tremendous amount of churn, and 
if you don't have any kind of standardized instruction, 
somebody could be learning reading in a whole language 
approach, and then go over here, and be doing it on a phonics 
basis, and you have got big issues there. You really have to 
get after states to be more willing on that.
    But on the teacher quality, you have got 3.2 million K-12 
teachers in America. Over the next five to seven years, you are 
going to see two million new teachers replacing current 
teachers. Unfortunately, they are going to be equal to or less 
than those that are leaving. We are not talking just about our 
teacher colleges, but they are coming from all over, and they 
are not as skilled, and they are not as prepared. And it is a 
very, very difficult situation.
    Mr. Baird. Dr. Lane.
    Mr. Lane. I think, certainly I agree with the idea of some 
level of national and voluntary standards in science and 
mathematics. There isn't any kind of, you know, Texas math and 
Oklahoma math and New York math, well, there actually is, but--
that is just a joke, I mean.
    And the same thing is true in science. I mean, there is not 
this kind of East Coast biology and West Coast biology. 
Mobility is just extremely important to our nation, as it is to 
other parts of the world that are wrestling with a similar kind 
of issue. And by having these kinds of problems that you are 
addressing present in our system, we are just sort of shooting 
ourselves in the foot. How far you go with that now really begs 
a lot of detailed questions that I am not qualified to answer, 
but I think that is an extremely important issue, and we do 
need some sort of national standards.
    On the issue of quality of teacher education at 
universities. I have wrestled with that for a long time. Often 
on a campus, many of us grew up on campuses where the teacher 
ed department was over there somewhere, and if you are a 
physics major, chemistry major, math major, you probably never 
got over there, nor did you ever see any of them in your 
classroom. It was just a different kind of an institution. It 
is them and us. Now, things have improved enormously in many of 
our campuses, but maybe not far enough. And beyond that, I 
think the universities have a--I don't know if you want to call 
it a responsibility to deal more directly with the K-12 
challenge than has been the case in the past.
    The point was made earlier that the quality of those 
universities and their products depends on who comes in the 
front end. They have a stake in this. It is important to all of 
them what goes on in the K-12 classroom, not only in their own 
region, but around the country. Also, there is a knowledge base 
there that can be tapped into in ways we really haven't done 
before.
    So, I recognize there would be a lot of resistance to it, 
but these partnership kind of efforts, that I think this 
committee favors, I think it would be carried much, much 
further, and our universities can take a larger degree of 
ownership, I guess I should say, for this enormous national 
challenge, than we have done in past years.
    Chairman Gordon. The gentleman's time has----
    Mr. Baird. Two quick comments. One, I note that many of the 
countries that are now scoring higher than us on some of these 
international standardized tests, in fact, have national 
curricula. Now, some are below, so that may not be the only 
variable for sure, but many have national curricula.
    The second point is, I have talked to some folks in 
colleges and universities who have said if you really want to 
get the sciences involved in teacher education and producing 
more scientists, link NSF grant applications to productivity of 
science and math educators, and suddenly, the science 
departments will get very interested in working with the 
education departments.
    Chairman Gordon. If I could, Dr. Lane, within our 
legislation, it provides for the universities to set up 
integrated programs where they bring together the math and 
science and education, and that is a part of the scholarship. I 
mean, you have to agree to teach for five years.
    The Chair yields to my friend from Texas.
    Mr. Hall. Just one question, and I won't even ask the 
effect of it or what you think about it. I have heard that at 
least half the Ph.D.s issued in the universities of this 
country are issued to foreigners. Is that true or untrue?
    Mr. Augustine. No, it is--in engineering, it is 56 percent. 
It is more than half.
    Mr. Hall. More. Would that just be in engineering? Would--
Ph.D.s in general?
    Mr. Augustine. In science, it is slightly less than 56 
percent. I don't know for non-engineering and science, the 
answer, Mr. Hall.
    Mr. Bilbray. Would the gentleman yield?
    Mr. Hall. Yes.
    Mr. Bilbray. What is--is it the economic motivation for 
these institutions to encourage foreign nationals to come here 
to go to school? Are they making such a huge profit?
    Mr. Hall. That is what I agreed not to ask them.
    Mr. Lane. I could comment on that. There are many, I think, 
different kinds of answers to that, but if you are a university 
that aspires to be a major research university in this country, 
for all the reasons we have heard, it is a contribution that 
these institutions are making to America, then your research 
programs have to be strong. Your laboratories have to function. 
You have got to be able to attract faculty who can do their 
research programs. And frankly, when they look around for 
students to get their education in the university, get their 
degree, graduate, even post-docs, they don't find nearly enough 
American-born men and women, for the other reasons that we 
talked about today.
    So, it may sound self-serving, and maybe it is, in a way, 
but it is all about maintaining the strength of American higher 
education. It has been a result of efforts to do that, and the 
net result is what we have just heard. There are other reasons, 
but that is one reason.
    Mr. Bilbray. May I--yield--Mr. Chairman, I just bring it 
up, and as the ranking member of--the American people are doing 
a lot of subsidizing for this higher education, and I think we 
have a right to ask why are we subsidizing the education of 
foreign nationals, and I keep hearing well, it is money, but I 
think the voters will be saying money, too, and you are saying 
it is essential, because we just don't--aren't producing this 
resource in America, so we must import it to fill our 
universities, to create the engineers.
    Chairman Gordon. I think in fairness that we need to point 
out that many of these Ph.D.s that are created stay here, 
develop products, develop companies, and create jobs. So, this 
is a higher level of entrant.
    Let me----
    Mr. Hall. Mr. Chairman.
    Chairman Gordon. Yes, sir.
    Mr. Hall. I think it might be a good study, and a good 
hearing, to look into that, and see, really, if we are getting 
our dollar's worth, what are the facts on how many stay here, 
and what are the facts as to where they come from, and to where 
they go back to, and what are the benefits.
    This might be the time to look at it, because we are at war 
for knowledge. We are in a knowledge war today, and our war is 
fighting for our little troops to start carrying a gun in the 
first grade, in the second and third grade, and learn to march 
and all that. And we need to teach them science and math, and I 
think that would be a good thing to think about.
    Mr. Bilbray. If the gentleman would yield, I would just say 
that I am sure there are kids in the Northeast over here, that 
if they had the foundation, and if they, you know, there are 
many American kids in working class neighborhoods, that would 
die for the opportunity, but just don't have the tools. And 
this issue of importing our students because our domestic 
sources just cannot compete, should be the big warning sign, 
and not accept this as being the best we can do, and so, I 
would ask that we take a look at that hearing.
    Chairman Gordon. Well, I would suggest that we have two 
answers, and two answers are H.R. 362 and H.R. 363, and would 
hope everyone would support that. Let me also say to Mr. Hall, 
he has put up with a lot of our hearings, and so, I would 
welcome his, any recommendation that he wants to have, to put 
one together. We will participate with him in a hearing.
    And let me say to the panel, are there any closing remarks 
that anyone would like to--Mr. Augustine.
    Mr. Augustine. Mr. Hall raised an important question, and I 
would just throw out one statistic. Of all the basic 
researchers with Ph.D.s in math, science, and engineering in 
this country, 38 percent are foreign-born. One-third of the 
Nobel laureates in America in math and science in the last 15 
years were foreign-born. Our science enterprise in this country 
would hardly function today without foreign-born people. You 
raise a very important question.
    Chairman Gordon. Mr. McGraw.
    Mr. McGraw. Well, again, thank you, Mr. Chairman, for your 
leadership in H.R. 362 and H.R. 363, and the business community 
supports it, and we look forward to see its passage.
    I would say that some of the comments that you have made 
earlier on are some of the areas that I think we need to focus 
on even further, and that is the whole role of public/private 
sector cooperation.
    Now, I think when you start to see what ExxonMobil has 
done, in terms of the funding issues, I think there is an awful 
lot of coordination that could take place around some of these 
ideas, that would allow it to be more efficiently done.
    Chairman Gordon. Any other comments?
    Well, let me say that this panel now holds the Science and 
Technology Committee indoor endurance record. And I think it is 
indicative of the importance of this panel, and also, of the 
issue.
    We thank you for being here, and the witnesses are excused, 
and this hearing is adjourned.
    [Whereupon, at 4:05 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Norman R. Augustine, Chair, Committee on Prospering in the 
        Global Economy of the 21st Century, Committee on Science, 
        Engineering, and Public Policy, Division on Policy and Global 
        Affairs, the National Academies; Former Chairman and CEO, 
        Lockheed Martin Corporation

Questions submitted by Chairman Bart Gordon

Q1.  The Gathering Storm report places a strong emphasis on the 
importance of increasing funding for basic research, particularly in 
the physical sciences, engineering and mathematics.

Q1a.  Did your National Academy of Sciences committee, in its call for 
increased research funding, intend to include the portion of NASA's 
budget that supports basic research?

A1a. The committee included all the basic research in the physical 
sciences, engineering, and mathematics research funded across the 
Federal Government. You will see that in the committee's cost estimate 
on p. 508 of the report which is based on an NSF analysis, this 
includes NASA. According to NSF's analysis, NASA funds 21 percent of 
the Federal Government's support of these fields.

Q1b.  As you know the President has proposed substantial budget 
increases for NSF, the DOE Office of Science, and NIST, but not for the 
science components of the NASA budget. Do you believe this is a 
mistake?

A1b. The committee did not attempt to construct an actual ``bottoms-
up'' budget, but rather sought to identify overall disciplines 
deserving increased funding. The allocation within agencies would 
require further study, but there was certainly no intent NASA (or DOD) 
be excluded.

Q1c.  Also, the NASA aeronautics budget has declined by 70 percent from 
the FY 1994 funding level to the FY 2008 request. Could you comment on 
how aeronautics is related to the future economic competitiveness of 
the United States? Would you consider aeronautic research as one of the 
fields that should be part of efforts to increase research funding for 
enhanced U.S. competitiveness?

A1c. The committee I chaired did not address this issue, although it 
clearly is an area having a significant impact on the balance of trade.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The ``10,000 Teachers, 10 Million Minds'' bill amends the Noyce 
Scholarship program, which reminds me of the UTeach Program at the 
University of Texas. Noyce provides competitive awards to encourage 
talented science, technology, engineering, and mathematics majors and 
professionals to become K-12 math and science teachers.

     I am concerned the commitment to high-need schools isn't strong 
enough to really make a difference. Do you think the program would be 
better if recipients were required to teach in high need schools for 
five years following graduation? Rather than just the one-year 
commitment reduction for working in high need schools?

A1. The committee recommends a $10,000 bonus every year to 
participating teachers in under-served schools in inner cities and 
rural areas. There is no limitation on the number of years this bonus 
is received. We did, of course, recommend a five-year teaching 
commitment in exchange for the scholarship support.

Q2.  H.R. 363, ``Sowing the Seeds through Science and Engineering 
Research Act,'' is well-designed to assist early-career researchers by 
supporting their work during a critical time. Young scientists and 
engineers struggle to earn grant funding and obtain tenure. However, 
the bill does not contain a provision to develop our domestic workforce 
of under-represented populations such as women, Blacks and Hispanics.

     Do you think such a grant program should contain provisions to 
encourage under-represented minorities to apply and/or be given 
preference?

A2. The committee did not address this specific issue in its report 
other than to note the under-representation of those groups in the 
science and technology workforce. The National Academies Committee on 
Science, Engineering, and Public Policy (COSEPUP) that oversaw the 
development of the ``Rising Above the Gathering Storm'' report may well 
address this issue in its potential study, requested by several members 
of the Senate, that will focus on the issue of under-represented 
groups. This potential study is now in the fund-raising stage.
    In addition, a workshop conducted on May 3-4 by the Academies Board 
on Life Sciences and sponsored by the NIH will focus on the issue of 
``Understanding Interventions that Encourage Minorities to Pursue 
Research Careers: Major Questions and Approaches.''

Q3.  With regard to Action Item A-3 of the Gathering Storm report, 
would Advanced Placement exam rebates and AP ``mini-scholarships'' send 
the wrong message or really make a difference? What model systems have 
used this approach successfully?

A3. This recommendation is based on a very successful program in 
Dallas. You can see more information on this program at the following 
website: http://www.nationalmathandscience.org/programs/dallas.htm
    Quoting the most recent data from their website (prior data is in 
the Gathering Storm report):

         ``When the Dallas Independent School District (DISD) started a 
        training and incentive program for AP courses in 10 schools in 
        1996, the number of students scoring a three or higher on AP 
        mathematics, science, and English exams was just two-thirds of 
        the national average. At these schools, where half of students 
        receive free or reduced price lunch and 60 percent are African-
        American or Hispanic, the number of AP exams with scores of 
        three or higher increased over 700 percent from 1995 to 2006 
        and increased by over 1,700 percent for African-American and 
        Hispanic students over this time period. In 2006, the students 
        at these schools earned scores of three or higher at a rate 
        that was 68 percent greater than the national average. More 
        impressively, African-American and Hispanic students at these 
        DISD schools surpassed the national average of these 
        ethnicities by almost 200 percent.

         The success in the original 10 schools has led to all 23 high 
        schools in DISD adopting a similar training and incentive 
        program. At five particularly disadvantaged DISD schools, where 
        more than 70 percent of students receive free or reduced price 
        lunch and more than 90 percent are African-American or 
        Hispanic, the number of students graduating from college in 
        four years is on track to at least double since the inception 
        of its training and incentive program.''

Questions submitted by Representative Daniel Lipinski

Q1.  Thank you for chairing the committee charged with drafting this 
very timely and eye-opening report. It has truly served as a blueprint 
for the Science and Technology Committee as we have worked to advance 
our competitiveness agenda. You mention in your testimony that studies 
have shown that between 50 and 85 percent of the Nation's growth in per 
capita GDP during the last half-century can be attributed to science 
and engineering progress. This is an astonishing figure that 
illustrates just how critical our discussions and actions today are to 
the long-term health and vitality of our country. Can you give some 
specific examples of progress in the 20th Century that led to this 
growth, and elaborate on current advancements that are contributing to 
the Nation's GDP today?

A1. Thank you for your comments. On page 44 of the full Gathering Storm 
report, you'll see a summary of the Twenty Great Achievements of the 
20th century as identified by the National Academy of Engineering. It 
is reproduced below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    With regard to current, promising advancements, any list would 
certainly include nanotechnology, biology and information technology.

Q2.  I am pleased that Dr. Dynes mentioned the University of Illinois-
Urbana-Champaign/UC-Berkeley/Lawrence-Berkeley National Lab partnership 
in his testimony. Having recently won the global competition for BP's 
$500 million grant to build and operate an Energy Biosciences 
Institute, the three partners will focus on one of the most pressing 
issues currently facing our country--reducing our dependence on fossil 
fuels--by researching biomass. This is a great example of how public 
and private entities can collaborate to solve critical problems in our 
society. How can Congress entice others in the business community to 
follow suit?

A2. The committee recommended the creation of the Advanced Research 
Project Agency-Energy (ARPA-E) that would support out-of-the-box 
transformational energy research to meet the Nation's long-term energy 
challenges. It would encourage industry and universities to become 
partners in such research activities. As you know, the committee 
identified energy research as a centerpiece of the proposed effort, for 
the reasons cited in the report.
                   Answers to Post-Hearing Questions
Responses by Harold McGraw III, Chairman and CEO, The McGraw-Hill 
        Companies; Chairman, Business Roundtable

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The ``10,000 Teachers, 10 Million Minds'' bill amends the Noyce 
Scholarship program, which reminds me of the UTeach Program at the 
University of Texas. Noyce provides competitive awards to encourage 
talented science, technology, engineering, and mathematics majors and 
professionals to become K-12 math and science teachers.

     I am concerned the commitment to high-need schools isn't strong 
enough to really make a difference. Do you think the program would be 
better if recipients were required to teach in high need schools for 
five years following graduation? Rather than just the one-year 
commitment reduction for working in high need schools?

A1. Business Roundtable is a strong supporter of the Robert Noyce 
Scholarship Program authorized in the National Science Foundation 
Authorization Act of 2002. By encouraging science, technology, 
engineering and mathematics (STEM) undergraduate majors to pursue 
teaching careers, and by requiring that scholarship recipients teach in 
a high-need local educational agency after graduation, the program 
directly addresses two Business Roundtable priorities: recruiting math 
and science teachers with disciplinary content knowledge and closing 
the achievement gap in student performance.
    Business Roundtable has endorsed H.R. 362, the ``10,000 Teachers, 
10 Million Minds'' Science and Math Scholarship Act, including section 
104 amending the Robert Noyce Scholarship Program. The amendments 
included in H.R. 362 will, if enacted, strengthen the Noyce Scholarship 
Program.
    Business Roundtable shares Representative Johnson's concern about 
the need to close the achievement gap in high-need school districts. We 
believe that reducing the term of service for those who choose to teach 
in high-need school districts, as provided for in H.R. 362, will 
provide added incentive for new teachers to make that choice. Imposing 
a five-year commitment upon scholarship recipients could create the 
unintended consequence of discouraging students from participating in 
the Noyce Program.

Q2.  H.R. 363, the Sowing the Seeds through Science and Engineering 
Research Act, is well-designed to assist early-career researchers by 
supporting their work during a critical time. Young scientists and 
engineers struggle to earn grant funding and obtain tenure. However, 
the bill does not contain a provision to develop domestic workforce of 
under-represented populations such as women, Blacks and Hispanics.

     Do you think such a grant program should contain provisions to 
encourage under-represented minorities to apply and/or given 
preference?

A2. Business Roundtable has endorsed H.R. 363, the Sowing the Seeds 
Through Science and Engineering Research Act, including sections 3 and 
4, which authorize early career research grants programs at the 
National Science Foundation and the Department of Energy, respectively. 
H.R. 363 contains a provision that requires broad dissemination about 
when and how to apply for early career research grants, including 
outreach to minority-serving institutions. Business Roundtable believes 
that outreach and inclusion are important aspects of these grants 
programs as authorized in H.R. 363. We would be hesitant, however, to 
recommend adding preferences to this program because the NSF has other 
excellent programs that are specifically designed to address the need 
to increase participation of under-represented groups in science and 
engineering.

Q3.  With regards to Action Item A-3 of the Gathering Storm report, 
would Advanced Placement exam rebates and AP ``mini-scholarships'' send 
the wrong message or really make a difference? What model systems have 
used this approach successfully?

A3. Business Roundtable supports efforts to train additional Advanced 
Placement (AP), International Baccalaureate (IB), and pre-AP-IB math 
and science teachers, as recommended in Part 3 of Action Item A-2 in 
the National Academies' Rising Above the Gathering Storm report. 
Published data indicate that students who participate in AP and IB 
programs have significantly higher college graduation rates than 
students who do not. The model program for training AP, IB, and pre-AP-
IB math and science teachers is the AP Incentive Program in Dallas, 
Texas. The University of California's College Prep Program, which 
offers AP courses to high school students, has also been viewed as a 
successful model.

Questions submitted by Representative Daniel Lipinski

Q1.  You state in your testimony that the U.S. ranks 17th in the world 
in the proportion of the college-age population earning a degree in 
science or engineering. As an engineer by training, and one of the only 
nine current Members of Congress educated in the vocation, I must say 
that this statistic is very worrisome to me. In order to draw attention 
to the profession and good work done by our nation's engineers, earlier 
this Congress I, along with Members of this committee, sponsored and 
passed a bill to recognize and honor our nation's engineers. Now more 
than ever our country requires the service, and we should do everything 
in our power to see that our institutions of higher learning are 
producing increasingly greater number of engineers. Back to the 
ranking, is America 17th place holding steady, or is this ranking 
increasing or decreasing in the context of other countries? Do you 
believe this is a direct affect for the off-shoring of American 
industries to other countries? Could you elaborate on other factors 
contributing to this low ranking?

A1. The U.S. ranking, in terms of the proportion of the college-age 
population earning a degree in science and engineering, has declined 
compared to the rest of the world. The other nations have developed 
their higher education sectors and produced increasingly higher numbers 
of graduates with Bachelor's degrees in science and engineering. 
Whether the U.S. ranking will continue to decline depends on the 
actions of all interested parties to encourage more Americans to pursue 
science and engineering studies. Highly capable American students have 
more choices than some of their international counterparts. Careers in 
business and law beckon high-performing U.S. students with greater 
potential earning power and social status than technical careers. It is 
not clear that structural changes in the economy, including the impact 
of globalization on workers and industries, have an impact on students' 
choice of undergraduate major. However, fundamental market forces may 
eventually influence students' decisions. Acute shortages of science 
and engineering talent will drive up salaries and thereby attract more 
people to the field.

Q2.  As you mention in your testimony, the key to America's 
competitiveness challenge is innovation. It is clear that technological 
innovation drives productivity growth, creating new products and 
processes and generating high-wage employment and a higher standard of 
living for all Americans. I worked to pass a bill in the House earlier 
this session to make our metals industries more competitive and 
innovative. The Legislation provides grants to universities, with 
additional funding from industry, to develop new technologies to spur 
innovation and give our steel and aluminum industries a competitive 
advantage in the global marketplace. I believe this Congress must 
continue to lead by giving our industries the tools necessary to 
compete in the increasingly competitive world economy. Can you give us 
a picture of the current innovation indicators of the United States? Is 
our innovative growth rapidly declining, or are we suffering from a 
gradual change like the frog being slowly boiled in a pot of water 
where may be too late to act by the time we notice a problem?

A2. By every measure, the United States is the world's innovation 
leader. The problem is that America's lead is slipping. Other economic 
competitors around the world, including India and China, are following 
the U.S. model of advanced economic development by investing in their 
capacity to innovate. They are investing in science and engineering 
research, investing in math and science education, opening their doors 
to top science and engineering talent from around the world, and 
creating tax incentives for research and research infrastructure 
investments in their countries. It is important to note that China has 
more than doubled its research and development spending as a percentage 
of gross domestic product (GDP) from 0.6 percent in 1995 to 1.4 percent 
today, and the EU set a target by 2010 to invest three percent of its 
GDP into research and development, up from the current rate of just 
over 1.8 percent of GDP. More importantly, in the U.S., federal funding 
for research and development has declined from 1.25 percent of GDP in 
1985 to 0.75 percent today. This trend has to change.

Q3.  I am pleased that Dr. Dynes mentioned the University of Illinois-
Urbana-Champaign/UC-Berkley/Lawrence-Berkeley National Lab partnership 
in his testimony. Have recently won the global competition for BP's 
$500 million grant to build and operate and Energy Biosciences 
Institute, the three partners will focus on one of the most pressing 
issues currently facing our country--reducing our dependence on fossil 
fuels--by researching biomass. This is a great example of how public 
and private entities can collaborate to solve critical problems in our 
society. How can Congress entice others in the business community 
follow suit?

A3. Business Roundtable is proud of our member companies' contributions 
to America's innovation capacity, including the BP America, Inc. 
collaboration with Lawrence-Berkeley National Laboratory, the 
University of California, and the University of Illinois to establish 
an energy biosciences institute. We are also proud of the ExxonMobil 
Corporation's $125 million commitment to the National Math and Science 
Initiative, a nonprofit organization created to facilitate the national 
scale-up of programs that have a demonstrated impact on math and 
science education in the United States.
    Business Roundtable believes that the most effective action 
Congress can take to encourage business's continued investment in 
American's capacity to innovate would be to enact the policy agenda 
outlined in the American Innovation Proclamation:

        <bullet>  Renew America's commitment to discovery by doubling 
        the basic research budgets at the National Science Foundation, 
        the National Institute of Standards and Technology, the 
        Department of Energy's Office of Science, and the Department of 
        Defense;

        <bullet>  Improve student achievement in math and science 
        through funding of proven programs and incentives for science 
        and math teacher recruitment and professional development;

        <bullet>  Welcome highly educated foreign professionals, 
        particularly those holding advanced science, technology, 
        engineering, or mathematics degrees, especially from U.S. 
        universities, by reforming U.S. visa policies; and

        <bullet>  Make permanent a strengthened R&D tax credit to 
        encourage continued private-sector innovation investment.
                   Answers to Post-Hearing Questions
Responses by Robert C. Dynes, Professor of Physics and Material 
        Science; President, University of California

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The ``10,000 Teachers, 10 Million Minds'' bill amends the Noyce 
Scholarship program, which reminds me of the UTeach Program at the 
University of Texas. Noyce provides competitive awards to encourage 
talented science, technology, engineering, and mathematics majors and 
professionals to become K-12 math and science teachers.

     I am concerned the commitment to high-need schools isn't strong 
enough to really make a difference. Do you think the program would be 
better if recipients were required to teach in high need schools for 
five years following graduation? Rather than just the one-year 
commitment reduction for working in high need schools?

A1. The University's experience, and that of other institutions as 
well, is that providing incentives for work in high need schools yields 
better outcomes than does a requirement. Students are often reluctant 
to accept funds that unduly limit later vocational choices, since so 
many other life choices can be affected by such commitments. Current 
federal loan forgiveness programs that require teachers to perform 
services in high need schools for five consecutive years have not 
yielded desirable outcomes. So, I would encourage that we treat these 
forgiveness programs as incentives to students, rather than 
requirements.

Q2.  H.R. 363, ``Sowing the Seeds through Science and Engineering 
Research Act,'' is well-designed to assist early-career researchers by 
supporting their work during the critical time. Young scientists and 
engineers struggle to earn grant funding and obtain tenure. However, 
the bill does not contain a provision to develop our domestic workforce 
of under-represented populations such as women, Blacks and Hispanics.

     Do you think such a grant program should contain provisions to 
encourage under-represented minorities to apply and/or be given 
preference?

A2. I believe early career award programs, like the ones that would be 
established by H.R. 363, can play an important role in providing 
support to young scientists and engineers and those at early stages in 
their careers. It can be difficult for such individuals to obtain grant 
support, and an award program like the one promoted by H.R. 363 can 
help encourage and sustain our next generation of scientists. 
Encouraging under-represented minorities to apply for such awards is a 
worthy goal, and the bill takes a step in that direction, at least, by 
directing that information about the awards be disseminated broadly and 
that officials responsible for the programs should conduct outreach to 
Historically Black Colleges and Universities and minority institutions. 
Drawing talented individuals from diverse backgrounds into careers in 
science and engineering is important. I believe the effort needs to 
begin early, by improving math and science education in K-12 and in 
ensuring that children from all backgrounds are well prepared and 
encouraged to pursue higher education in science and math, so that they 
will then be well positioned to be part of a highly-trained domestic 
STEM work force.

Q3.  With regard to Action Item A-3 of the Gathering Storm report, 
would Advanced Placement exam rebates and AP ``mini-scholarships'' send 
the wrong message or really make a difference? What model systems have 
used this approach successfully?

A3. Mini-scholarships used to encourage students to enroll in AP 
courses and to take the exams related to these courses have proven to 
be effective inducements to low-income students. However, it is 
important that the funds be made available at the time payment is 
required of the student. Rebates are much less effective because the 
family must make the initial payment, but they often do not have the 
ready cash to do so. In addition, families feel uncertain that the 
rebate will actually be received to cover the cost of the exam.

Questions submitted by Representative Daniel Lipinski

Q1.  I am pleased that you mention the University of Illinois-Urbana-
Champaign/UC-Berkeley/Lawrence-Berkeley National Lab partnership in 
your testimony. Having recently won the global competition for BP's 
$500 million grant to build and operate an Energy Biosciences 
Institute, the three partners will focus on one of the most pressing 
issues currently facing our country-reducing our dependence on fossil 
fuels--by researching biomass. This is a great example of how public 
and private entities can collaborate to solve critical problems in our 
society. Do you believe the United States should encourage more of 
these types of initiatives from private industry in order to achieve 
these objectives? How can Congress entice others in the business 
community to follow suit?

A1. Land Grant institutions like the University of California and the 
University of Illinois have a long history of collaborating with 
industry in support of instruction, research, and public service. I do 
believe that partnering with industry is increasingly important, in 
part to ensure that research innovations discovered by University 
scientists can be developed into useful services, technologies, 
products, and therapies that can benefit the public. Collaborating with 
industry helps ensure delivery of research from the bench to the 
patient's bedside, to the farmer's field, and into the community 
generally where the public can enjoy its benefits. In addition to the 
crucial role industry plays in technology transfer, industry also 
provides a critical source of funding for research, and collaboration 
across departments, disciplines, institutions, and sectors (i.e., 
public/private) is increasingly important in addressing the ever more 
complex scientific and societal issues we all face. Federal patent and 
tax laws can and do encourage University-Industry collaboration, and 
can provide incentives for industry to invest in research. There are 
also federal grant programs that encourage University-Industry 
cooperative research. And it would be my hope that these kinds of 
programs would continue to receive federal support.
    Of course, federal funding is by far the most important source of 
support for University research, and we would not want to see industry 
funding, which is often more targeted and less likely to be directed to 
basic research, looked to as a replacement for robust federal 
investment in university research, which remains critical for our 
nation's competitiveness.
                   Answers to Post-Hearing Questions
Responses by Craig R. Barrett, Chairman of the Board, Intel Corporation

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The ``10,000 Teachers, 10 Million Minds'' bill amends the Noyce 
Scholarship program, which reminds me of the UTeach Program at the 
University of Texas. Noyce provides competitive awards to encourage 
talented science, technology, engineering, and mathematics majors and 
professionals to become K-12 math and science teachers.

     I am concerned the commitment to high-need schools isn't strong 
enough to really make a difference. Do you think the program would be 
better if recipients were required to teach in high need schools for 
five years following graduation? Rather than just the one-year 
commitment reduction for working in high need schools?

A1. I believe that the program would indeed be strengthened by a multi-
year commitment requirement, to teach generally, in order to obtain 
full benefit of the investment made in the student. What is important 
is getting the properly trained teachers into the school systems, and 
that is true for all schools, not just high-need schools.

Q2.  H.R. 363, ``Sowing the Seeds through Science and Engineering 
Research Act,'' is well-designed to assist early-career researchers by 
supporting their work during a critical time. Young scientists and 
engineers struggle to earn grant funding and obtain tenure. However, 
the bill does not contain a provision to develop our domestic workforce 
of under-represented populations such as women, Blacks and Hispanics.

     Do you think such a grant program should contain provisions to 
encourage under-represented minorities to apply and/or be given 
preference?

A2. I believe that the program should be available to all researchers, 
and awards should be based upon the merits of their work. I have no 
opinion on the questions of preferences, this is in the expertise of 
Congress.

Q3.  With regards to Action Item A-3 of the Gathering Storm report, 
would Advanced Placement exam rebates and AP ``mini-scholarships'' send 
the wrong message or really make a difference? What model systems have 
used this approach successfully?

A3. Rebates and scholarships would serve as a further inducement to 
students to apply themselves to the AP discipline. It is one among many 
incentives we propose to motivate students to tackle math and science. 
I am not aware of specific program experiments in this regard.

Questions submitted by Representative Daniel Lipinski

Q1.  You stated that we have come close to having critical research 
facilities close, such as the Brookhaven heavy ion collider. As you may 
know, Fermi Laboratory, with assistance from DOE, has put in a bid for 
the International Linear Collider. Could you elaborate on the positive 
impacts of the creation of new facilities such as this? In the same 
vein, can you expand on the potential consequences were the United 
States fail to be awarded crucial facilities, such as the ILC, this 
decade?

A1. New facilities that are on the cutting edge of research, such as 
the ILC, if located in the U.S., are a benefit to U.S. scientists and 
engineers and to the constellation of industry users that are 
interested in the research. The siting of such facilities in the U.S. 
also stimulates interest in the U.S. university programs that 
inevitably are partners in the research.

Q2.  I am pleased that Dr. Dynes mentioned the University of Illinois-
Urbana-Champaign/UC-Berkeley/Lawrence-Berkeley National Lab partnership 
in his testimony. Having recently won the global competition for BP's 
$500 million grant to build and operate an Energy Biosciences 
Institute, the three partners will focus on one of the most pressing 
issues currently facing our country--reducing our dependence on fossil 
fuels--by researching biomass. This is a great example of how public 
and private entities can collaborate to solve critical problems in our 
society. How can Congress entice others in the business community to 
follow suit?

A2. Congress can entice the business community by providing policy 
direction to the labs to pursue such cooperative research, and 
providing to businesses the proper financial incentives to make the 
investment in uncertain basic research--such as by making permanent the 
Research and Development Tax Credit, which is reauthorized every one or 
two years on an ad-hoc basis. This does not provide for the stability 
of resource planning that business needs to make these investments over 
the long-term.
                   Answers to Post-Hearing Questions
Responses by Neal Lane, Malcolm Gillis University Professor, and Senior 
        Fellow of the James A. Baker III Institute for Public Policy, 
        Rice University

Questions submitted by Chairman Bart Gordon

Q1.  The Gathering Storm report places a strong emphasis on the 
importance of increasing funding for basic research, particularly in 
the physical sciences, engineering and mathematics.

Q1a.  Should the portion of NASA's budget that supports basic research 
be part of initiatives to increase basic research funding?

Q1b.  As you know the President has proposed substantial increases to 
double the budgets of NSF, the DOE Office of Science, and NIST, but not 
for the science components of the NASA budget. Do you believe this is a 
mistake?

A1a, b. NASA support for basic research in space and earth science has 
been a very important part of the U.S. effort. It is being cut in order 
to find funds for the President's Moon-Mars exploration program. I 
believe that these are flawed priorities. NASA should cleanly separate 
out its basic research programs, build a firewall between those and 
human exploration, and ask the President to include NASA basic science 
in the American Competitiveness Initiative. But, if the basic science 
funding cannot be protected from human exploration, then it should not 
be included--in any manner--along with NSF, DOE Office of Science, and 
NIST, lest some of those agencies' research funding be tapped (at the 
appropriations committee level) to shore up the exploration program. I 
would also point out that, in addition to cuts in basic research, NASA 
is also cutting back on its satellite Earth observation programs 
(including basic research in Earth sciences). In this case, we lose the 
scientific information that is critical to improving our ability to 
improve weather predictions (e.g., hurricanes) and as well as monitor 
climate change.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The ``10,000 Teachers, 10 Million Minds'' bill amends the Noyce 
Scholarship program, which reminds me of the UTeach Program at the 
University of Texas. Noyce provides competitive awards to encourage 
talented science, technology, engineering, and mathematics majors and 
professionals to become K-12 math and science teachers.

     I am concerned the commitment to high-need schools isn't strong 
enough to really make a difference. Do you think the program would be 
better if recipients were required to teach in high need schools for 
five years following graduation? Rather than just the one-year 
commitment reduction for working in high need schools?

A1. I believe that the length of service in high-need schools deserves 
further discussion. I do not feel qualified to say that one year is too 
short and five years is the right tenure. One must consider how best to 
develop the career of the young teacher as well as insure that the 
students in the high-need schools get the education they deserve. Such 
a decision needs to be based on pedagogical research findings; and if 
those data and analyses do not exist, then pilot programs, if done in 
conjunction with relevant research, could help answer the question.

Q2.  H.R. 363, ``Sowing the Seeds through Science and Engineering 
Research Act,'' is well-designed to assist early-career researchers by 
supporting their work during a critical time. Young scientists and 
engineers struggle to earn grant funding and obtain tenure. However, 
the bill does not contain a provision to develop our domestic workforce 
of under-represented populations such as women, Blacks and Hispanics.

     Do you think such a grant program should contain provisions to 
encourage under-represented minorities to apply and/or be given 
preference?

A2. The need to develop our science and engineering domestic workforce 
certainly should emphasize the special challenge of attracting more 
women, African-Americans and Latino men and women as well as members of 
other under-represented communities to careers in science and 
engineering. Of course, this is not an unrecognized need. Many federal 
agencies, e.g., the National Science Foundation, have designed and 
implanted programs over the years to do just that; but progress has 
been slow, especially for under-represented minorities. I do believe 
that some significant effort should be made to encourage members of 
unrepresented groups to apply for any of the early-career programs. 
However, that should be done, only if effective mentorship arrangements 
are in place at institutions applying for these funds to assure that 
all young scientists and engineers are given a fair chance to succeed. 
Retention is just as important as recruitment and learning to succeed 
in the highly competitive environment that characterizes excellence in 
academic research and education is especially challenging for young 
people from under-represented groups and for women in general.

Q3.  With regards to Action Item A-3 of the Gathering Storm report, 
would Advanced Placement exam rebates and AP ``mini-scholarships'' send 
the wrong message or really make a difference? What model systems have 
used this approach successfully?

A3. AP exam rebates have been successfully used by the State of Texas, 
for instance, to reduce exam fees across the State. In addition, Texas 
has refunded the district professional development funds used by 
teachers to develop their content knowledge in select AP summer 
institutes mostly held by universities across the State. The summer 
institute model serves as a good model of collaboration between the 
College Board and universities in implementing high-quality and 
reliable professional development opportunities. Both of these actions 
have resulted in a significant rise in the number of exams taken 
statewide by AP students in public schools.

Question submitted by Representative Daniel Lipinski

Q1.  I was pleased to hear the University of Illinois-Urbana-Champaign/
UC-Berkeley/Lawrence-Berkeley National Lab partnership in Dr. Dynes's 
testimony. Having recently won the global competition for BP's $500 
million grant to build and operate an Energy Biosciences Institute, the 
three partners will focus on one of the most pressing issues currently 
facing our country--reducing our dependence on fossil fuels--by 
researching biomass. This is a great example of how public and private 
entities can collaborate to solve critical problems in our society. How 
can Congress entice others in the business community to follow suit?

A1. It is increasingly clear that reducing this nation's dependence on 
fossil fuels is among the top few most critical needs in the new 
millennium and that biomass offers an important option to address this 
need. This new $500 million partnership to manage the Energy 
Biosciences Institute is an excellent example of how the priorities of 
a major energy company can come into alignment with the missions of 
major universities and federally funded research laboratories to solve 
large national, indeed world problems. Biomass is a most promising 
energy technology, but much research remains to be done. With this as a 
model, other universities and companies can partner to take on a large 
research agenda in many areas of energy R&D, e.g., solar, wind, nuclear 
in addition to biomass. Congress should hold hearings showcasing 
programs and partnerships underway and inviting companies and agencies 
to propose new ways to move forward. The energy crisis is real and the 
need for alternative approaches is urgent.
                   Answers to Post-Hearing Questions
Responses by Deborah L. Wince-Smith, President, Council on 
        Competitiveness

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The ``10,000 Teachers, 10 Million Minds'' bill amends the Noyce 
Scholarship program, which reminds me of the UTeach Program at the 
University of Texas. Noyce provides competitive awards to encourage 
talented science, technology, engineering and mathematics majors and 
professionals to become K-12 math and science teachers.

     I am concerned the commitment to high-need schools isn't strong 
enough to really make a difference. Do you think the program would be 
better if recipients were required to reach in high need schools for 
five years following graduation? Rather than just the one-year 
commitment reduction for working in high need schools?

A1. I believe a significant commitment of time is justified, as that 
would allow for a more stable, continuing curriculum for the students 
and represents a tangible expression of priorities by the Congress.

Q2.  H.R. 363, ``Sowing the Seeds through Science and Engineering 
Research Act,'' is well-designed to assist early-career researchers by 
supporting their work during the critical time. Young scientists and 
engineers struggle to earn grant funding and obtain tenure. However, 
the bill does not contain a provision to develop our domestic workforce 
of under-represented populations such as women, Blacks and Hispanics.

     Do you think such a grant program should contain provisions to 
encourage under-represented minorities to apply and/or be given 
preference?

A2. This grant program should encourage under-represented minorities to 
participate in the program. Minorities make up an integral and 
expanding part of our workforce and we need to ensure they have the 
skills to succeed, especially in science and engineering.

Q3.  With regards to Action Item A-3 of the Gathering Storm report, 
would Advance Placement exam rebates and AP ``mini-scholarships'' send 
the wrong message or really make a difference? What model systems have 
used this approach successfully?

A3. I believe programs of this type have been successful in encouraging 
AP participation in certain areas of the country. Importantly, cost 
should not be a barrier to achievement, so if mini-scholarships or 
rebates can increase access to AP or similar programs, we should 
explore these opportunities.

Question submitted by Representative Daniel Lipinski

Q1.  I am pleased that Dr. Dynes mentioned the University of Illinois-
Urbana-Campaign/UC-Berkeley/Lawrence-Berkeley National Lab partnership 
in this testimony. Having recently won the global competition for BP's 
$500 million grant to build and operate an Energy biosciences 
Institute, the three partners will focus on one of the most pressing 
issues currently facing our country--reducing our dependence on fossil 
fuels--by researching biomass. This is a great example of how public 
and private entities can collaborate to solve critical problems in our 
society. How can Congress entice others in the business community to 
follow suit?

A1. Public-private partnerships will be critical to America's effort to 
find and commercialize alternate energy sources. BP's efforts 
demonstrate the power of the private sector to encourage this type of 
research, but the government also can and should create incentives for 
collaboration.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                Section-by-Section Summary of H.R. 362,
                 ``10,000 Teachers, 10 Million Minds''
                    Science and Math Scholarship Act

Summary

    The bill implements most of the K-12 science education 
recommendations of the National Academy of Sciences (NAS) report, 
``Rising Above the Gathering Storm: Energizing and Employing America 
for a Brighter Economic Future.'' It establishes a teacher education 
program at the National Science Foundation (NSF) to encourage math, 
science and engineering faculty to work with education faculty to 
improve the education of science and math teachers and to provide 
scholarships to science, math and engineering students who commit to 
become science or math teachers at elementary and secondary schools; 
authorizes summer teacher training institutes at NSF and DOE to improve 
the content knowledge and pedagogical skills of in-service science and 
math teachers, including preparing them to teach Advanced Placement and 
International Baccalaureate courses in science and math; requires that 
NSF include support for Master's degree programs for in-service science 
and mathematics teachers within the NSF Math and Science Partnerships; 
and authorizes funding for the NSF STEM Talent Expansion program and 
expands the program to include centers for improving undergraduate STEM 
education.

Sectional Summary of Bill

Section 1

    Table of Contents.

Section 2

    Findings on the role of NSF in K-12 and undergraduate STEM 
education.

Section 3

    Definitions used in the bill.

Title I--Science Scholarships

Section 101

    Short Title of the bill.

Section 102

    Findings relating the bill to the NAS report recommendations.

Section 103

    Policy objective of the bill--to increase by 10,000 annually the 
number of capable K-12 science and math teachers.

Section 104

    Amends the NSF Noyce Scholarship program, established by the NSF 
Authorization Act of 2002, to create incentives for colleges and 
universities to improve the training of STEM teachers and increases the 
size and duration of the scholarships provided for science, math and 
engineering majors who pursue teaching credentials:

        <bullet>  Provides competitive awards to institutions of higher 
        education (or consortia of such institutions) that (1) 
        establish cross-department faculty teams (science, math and 
        engineering faculty along with education faculty) to develop 
        courses of instruction leading to baccalaureate degrees in 
        fields of science, math and/or engineering and also preparing 
        graduates to become certified or licensed to teach in a K-12 
        classroom, and (2) administer scholarships for students during 
        their sophomore through senior years and summer internships 
        during their freshman years.

        <bullet>  Requires early field teaching experiences for student 
        teachers in the program under the supervision of highly 
        experienced and effective teachers.

        <bullet>  Requires awardees to provide professional development 
        and mentoring support to scholarship recipients, after 
        matriculation.

        <bullet>  Sets scholarship amounts at the cost of attendance at 
        particular institutions, not to exceed $10,000 per year, and 
        provides up to three years of scholarship support for any 
        individual.

        <bullet>  Requires scholarship recipients to commit to teaching 
        for up to six years following graduation (the period of 
        teaching commitment is based on the number of years of 
        scholarship support), reduces the commitment by one year for 
        individuals who teach at high-need schools, and converts the 
        scholarships to loans if the teaching commitment is not met.

        <bullet>  Authorizes the NSF to accept donations from the 
        private sector to help support scholarships and internships.

        <bullet>  Authorizes $70 million for NSF for FY 2008, $101 
        million for FY 2009, $133 million for FY 2010, $164 million for 
        FY 2011, and $196 million for FY 2012.

Title II--Mathematics and Science Education Improvement

Section 201 amends the NSF Math and Science Education Partnerships 
program established by the NSF Authorization Act of 2002:

        <bullet>  Specifies that priority for awards under the program 
        be given to applications that include teacher training 
        activities as a main focus.

        <bullet>  Authorizes teacher training activities to prepare 
        teachers to teach Advanced Placement and International 
        Baccalaureate science or math courses and provides for 
        mentoring by professional scientists, mathematicians and 
        engineers.

        <bullet>  Authorizes the development of Master's degree 
        programs for in-service science and math teachers.

Section 202 addresses teacher institute programs at NSF and DOE:

        <bullet>  NSF is directed to establish a grant program to 
        support summer or academic year teacher institutes and 
        authorizes summer teacher institutes as a component of the NSF 
        21st Century program. Such summer institutes are required to 
        include teacher training activities to prepare teachers to 
        teach Advanced Placement and International Baccalaureate 
        science or math courses.

        <bullet>  Authorizes $32 million for NSF for FY 2008, $35.2 
        million for FY 2009, and $38.7 million for FY 2010, $42.6 
        million for FY 2011, and $46.8 million for FY 2012.

        <bullet>  The following amounts are authorized for the existing 
        Laboratory Science Teacher Professional Development program at 
        DOE: $3 million for FY 2008, $8 million for FY 2009, and $10 
        million for each year FY 2010 through FY 2012.

Section 203 requires NSF to ensure that, under the Math and Science 
Partnership program, Master's degree programs are developed and 
implemented for in-service math and science teachers, who attend on a 
part-time basis and who will be able to complete the degree 
requirements within two years. The programs have the following 
features:

        <bullet>  Provide stipends to defray the cost of attendance for 
        teachers in the program.

        <bullet>  Allow for support for the development of the courses 
        of instruction and related educational materials and equipment 
        (offering of online learning is an option).

        <bullet>  Require the distribution of awards among institutions 
        of different sizes and geographic locations.

    Authorizes $46 million for NSF for FY 2008, $50.6 million for FY 
2009, $55.7 million for FY 2010, $61.2 million for FY 2011, and $67.3 
million for FY 2012.

Section 204: (1) establishes a national panel of experts to identify 
and collect K-12 science and mathematics teaching materials that have 
been demonstrated to be effective and to recommend the development of 
new materials in areas where effective materials do not exist; and (2) 
directs NSF and the Department of Education to develop ways to 
disseminate effective materials and support efforts to develop new 
materials, in accordance with the recommendations of the national 
panel.

Section 205 amends the NSF STEM Talent Expansion program established 
under the NSF Authorization Act of 2002 to create centers for 
improvement of undergraduate education in STEM fields, including:

        <bullet>  Development of undergraduate curriculum and teaching 
        methods and training for faculty and teaching assistants in 
        effective pedagogical practices.

        <bullet>  Assessment of the effectiveness of the centers and 
        dissemination of information about materials and methods 
        developed.

    Authorizes $44 million for NSF for the STEM Talent Expansion 
program for FY 2008, of which $4 million is available for centers; $55 
million for FY 2009, of which $10 million is available for centers; and 
$60 million for each year of FY 2010 through FY 2012, of which $10 
million is available in each year for centers.
                Section-by-Section Summary of H.R. 363,
                    Sowing the Seeds Through Science
                      and Engineering Research Act

Summary

    H.R. 363 implements recommendations related to strengthening long-
term basic research contained in the National Academy of Sciences (NAS) 
report, Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future. It authorizes 10 percent 
increases per year in funding for basic research in the physical 
sciences, mathematical sciences, and engineering at the principal 
federal agencies supporting such research; provides grant support 
through programs at NSF and DOE for outstanding researchers in the 
early stages of their careers of $80,000 per year for five years; 
establishes a floor of 1.5 percent of research funding appropriated for 
NSF for an existing program supporting graduate students in 
multidisciplinary fields of national importance; establishes a 
presidential innovation award to stimulate scientific and engineering 
advances in the national interest; and establishes a national 
coordination office to identify and prioritize research infrastructure 
needs at universities and national laboratories and to help guide the 
investments of new infrastructure funds authorized for NSF and DOE.

Section-by-Section

Section 1 is the short title of the bill.

Section 2 authorizes appropriations for basic research activities in 
the physical sciences, mathematics and computer sciences, and 
engineering at four agencies and authorizes appropriations for all 
basic (6.1) research at the Department of Defense. The funding levels 
increase by 10 percent for each year:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Of the amounts authorized, eight percent are designated for support 
of high-risk, high-payoff research to be selected by technical program 
managers at each agency.

Section 3 authorizes NSF to carry out a grant program for awards to 
scientists and engineers at the early stage of their careers in 
academia or in nonprofit research organizations. The NSF's existing 
Faculty Early Career Development (CAREER) program may be designated as 
the mechanism for awarding these grants. The awards will go to 
outstanding researchers at the beginning of their careers and are 
intended for individuals from a variety of types of institutions, 
including minority serving institutions. The grants provide five years 
of research funding support at a minimum of $80,000 per year per award.
    NSF is required to designate at least 3.5 percent of funds 
appropriated for Research and Related Activities to the grant program 
for each of FY 2008 through FY 2012.

Section 4 authorizes DOE to carry out a grant program for awards to 
scientists and engineers at the early stage of their careers in 
academia or in nonprofit research organizations to conduct research in 
fields relevant to the mission of DOE. The awards will go to 
outstanding researchers at the beginning of their careers and are 
intended for individuals from a variety of types of institutions, 
including minority serving institutions. The grants provide five years 
of research funding support at a minimum of $80,000 per year per award, 
and priority shall go to proposals involving collaborations with 
researchers at DOE national laboratories.
    Authorizes to DOE $25 million for each year for FY 2008 through FY 
2012.

Section 5 directs NSF to allocate at least 1.5 percent of the amounts 
appropriated for Research and Related Activities to the Integrative 
Graduate Education and Research Traineeship (IGERT) program, which 
provides support for graduate students in fields relevant to national 
needs. It requires NSF to coordinate with other agencies to expand the 
interdisciplinary nature of the IGERT program and authorizes NSF to 
accept funds from other agencies to carry out the program.

Section 6 establishes the Presidential Innovation Award presented 
periodically, on the basis of recommendations from the Director of the 
Office of Science and Technology Policy, to citizens or permanent 
residents of the U.S. who develop unique scientific or engineering 
ideas judged to stimulate scientific and engineering advances in the 
national interest, to illustrate the linkage between science and 
engineering and national needs, and to provide an example to excite the 
interest of students in science or engineering professions.

Section 7 establishes a National Coordination Office for Research 
Infrastructure under the Office of Science and Technology Policy to 
identify and prioritize deficiencies in research facilities and 
instrumentation in academic institutions and national laboratories and 
to make recommendations for use of funding authorized. The funds 
authorized are to be used for competitive, merit-reviewed projects for 
construction and maintenance of research facilities, including 
instrumentation, computing and networking equipment and other physical 
resources. Authorizes $333 million per year for NSF for FY 2008 through 
FY 2012, and $167 million per year for the Department of Energy for FY 
2008 through FY 2012.

Section 8 authorizes NSF, in carrying out its research programs on 
science policy and the science of learning, to support research on the 
process of innovation and the teaching of inventiveness.

                                   

</pre></body></html>
